<html>
<title> - WILDFIRES ON THE NATIONAL FORESTS: AN UPDATE ON THE 2002 WILDLAND FIRE SEASON</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
WILDFIRES ON THE NATIONAL FORESTS: AN UPDATE ON THE 2002 WILDLAND FIRE 
                                SEASON

=======================================================================

                           OVERSIGHT HEARING

                               before the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             July 11, 2002

                               __________

                           Serial No. 107-138

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

80-616 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona               Tim Holden, Pennsylvania
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
John E. Peterson, Pennsylvania,      Tom Udall, New Mexico
  Vice Chairman                      Mark Udall, Colorado
Mark E. Souder, Indiana              Rush D. Holt, New Jersey
Michael K. Simpson, Idaho            Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
                                 ------                                





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 11, 2002....................................     1

Statement of Members:
    Flake, Hon. Jeff, a Representative in Congress from the State 
      of Arizona, Prepared statement of..........................    79
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California, Prepared statement of.................    80
    Inslee, Hon. Jay, a Representative in Congress from the State 
      of Washington..............................................     5
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     4
    Udall, Hon. Mark, a Representative in Congress from the State 
      of Colorado, Prepared statement of.........................    73

Statement of Witnesses:
    Bonnicksen, Thomas M., Ph.D., Professor, Department of Forest 
      Science, Texas A&M University..............................    36
        Prepared statement of....................................    37
    Collins, Sally, Associate Chief, Forest Service, U.S. 
      Department of Agriculture..................................     9
        Prepared statement of....................................     9
    Hubbard, James E., State Forester and Director, Colorado 
      State Forest Service.......................................    42
        Prepared statement of....................................    44
    Long, Michael, Assistant Director, Florida Division of 
      Forestry, on behalf of the National Association of State 
      Foresters..................................................    59
        Prepared statement of....................................    61
        Photograph of ``Cobra'' helicopter submitted for the 
          record.................................................    67
    Morgan, Penelope, Professor, Department of Natural Resources, 
      University of Idaho........................................    53
        Prepared statement of....................................    55
    Pearson, Mark, Executive Director, San Juan Citizens 
      Alliance, Colorado.........................................    47
        Prepared statement of....................................    49

Additional materials supplied:
    Hill, Barry T., Director, Natural Resources and Environment, 
      U.S. General Accounting Office, Letter submitted for the 
      record.....................................................    82
    Map of Hayman Fire, Pike National Forest, submitted for the 
      record.....................................................    84

 OVERSIGHT HEARING ON WILDFIRES ON THE NATIONAL FORESTS: AN UPDATE ON 
                     THE 2002 WILDLAND FIRE SEASON

                              ----------                              


                        Thursday, July 11, 2002

                     U.S. House of Representatives

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.
    Mr. McInnis. The Subcommittee on Forests and Forest Health 
will come to order.
    The Subcommittee is meeting today to hear testimony on 
Wildfires in the National Forests and an Update on the 2002 
Wildland Fire Season.
    Under Committee rule 4[g], the Chairman and Ranking 
Minority Member can make opening statements. If any other 
members have statements, they can be included in the hearing 
record under unanimous consent.
    I ask unanimous consent that Representative Wally Herger, 
who has requested to sit on the dais with us be allowed to do 
so. Hearing no objection, it is so ordered.

 STATEMENT OF HON. SCOTT McINNIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. McInnis. Today, our Committee will hear from an 
impressive array of individuals on the growing wildfire 
epidemic on our national forests and our public lands. Our 
business here today is to discuss this issue and the issue, 
frankly, is an issue that is on the minds of many people 
throughout the country, that issue, wildfire.
    It is by now a cliche because we have heard it so many 
times on TV and other places, but this wildfire season has the 
makings or the potential to become one of the worst in our 
nation's history.
    Already this year we have burned over three million acres, 
which by itself is nearly three times the average for an entire 
year in recent years.
    What is most alarming about this statistic is that 
historically wildfire burns the hottest, largest and most 
frequent fires in the latter parts of July and into August and 
September. Now, as we all know, these fires started in early 
June. For the first time, as I understand it, while we go to a 
level 5, level 5 is the highest ranking we can go to in a 
firefighting alert, and while we have gone to that in the past, 
we have never gone to that before July 28th and we went to that 
about two and a half weeks ago.
    The expenses, of course, on this are huge. The 
ramifications of the fire and the consequences to the 
communities that are impacted by it are significant as well. We 
think that the estimates for this year's firefighting costs are 
going to exceed $1 billion. It could get higher than that, 
which is about 300 percent more than what we have had.
    As bad as the fire season is and as prohibitively expensive 
as it has become, make not mistake about it, it is not a 
rarity. The American people are going to continue to spend 
hundreds of millions of dollars each year to protect homes and 
communities from wildfire until we get serious about dealing 
with the hazardous fuel conditions on our national forests.
    The Forest Service have said that some 72 million acres of 
national forest land are at high risk of wildfire. These fast 
tracks are home to decades worth of dead, downed and dying 
trees and other woody biomass.
    As a frame of reference, that area, 72 million miles, is 
larger than Connecticut, Rhode Island, Maine, New Hampshire and 
Vermont. That is all of New England combined. Yet, this year 
the Federal Government will reduce fuels only by somewhere 
between 1.5 and 2.5 million acres. Talk about taking a 
peashooter to a gunfight, to put it bluntly, this glacial pace 
is totally inadequate in face of a threat.
    So, I look forward to hearing from our agency witnesses to 
find out what we can do to help step up the thinning work. If 
it is money, then Congress needs to find the money because a 
dollar spent on fuels treatment is $4 or $5 saved on planes and 
slurry and bulldozers and other suppression-related expenses.
    I might also add that while I have emphasized throughout my 
remarks here the impact to the communities on wildfire and the 
impact of the cost to the U.S. Congress, to the taxpayers, we 
should note sadly and with due respect that we have nine or ten 
firefighters who have so far lost their lives this season 
fighting these fires.
    In that vein, in the last few days, new information in the 
vein of the fuel situation, new information has emerged about 
the extraordinary effect that appeals and lawsuits are having 
on the Forest Service's ability to clean out fuel buildup on 
the understory of American you believe forest lands.
    I want to give the audience here a little history on that. 
It is clear to me that in the recent fires, many of which have 
been in my district and in the State of Colorado, that the 
environmental community like the Wilderness Club and the Sierra 
Club have attempted to walk away from any share of blame for 
these fires.
    It is clear that the Sierra Club and the Wilderness Society 
and some of these others did not strike the match on these 
fires. They did not cause the drought out there. But they 
certainly have contributed and they have a place at the table 
to try with us to mitigate the fires in the future.
    The National Sierra Club, as I understand it, and I would 
be happy to be corrected, has a no timber policy, no logging 
policy. I, as Chairman of this Committee am urging those 
environmental groups, on a national basis, to sit down, come to 
us with some reasonable ways to work through this. This cannot 
continue to occur.
    About a year and a half ago I suspected that these appeals 
were being, in my opinion, many were being filed frivolously. I 
wanted to know exactly what percentage of them were out there 
that would delay or stop the forest thinning.
    I was surprised. I got a letter back. The letter has been 
referred to by the Ranking Member at the last meeting we had. 
Only about 1 percent or 2 percent of those thinning projects 
were delayed or stopped as a result of this appeal process of 
making the Forest Service gun shy.
    I didn't believe that number. I didn't believe it then and 
fortunately, I don't have to believe it now because that number 
was wrong. That number is closer to 48 percent. For example, in 
the Northern Rockies we have 100 percent. Every thinning 
project up there, according to the numbers that I have seen, 
have had appeals filed against it.
    We can't continue to give the Forest Service the management 
tools they need if these appeals will be filed and filed and 
filed again.
    Fortunately, on the South Platte, where we had the first--
unfortunately, we had the fire--but fortunately on the South 
Platte, we have two plots lying side by side. One plot was 
where the thinning was allowed to take place. The other plot 
was where the thinning was stopped by the appeal process and 
was not allowed to be completed.
    What is going to be of interest is when our scientists go 
in there, not the people based on emotion, but based on 
science, are going to be able to go in there and make 
comparison as to whose science was right; whether it was the 
Wilderness Society or whether it was the Forest Service science 
that was right.
    A couple of posters that I would like to point out because 
I know we are soon to get into discussions about roadless areas 
and so on, this is a picture taken out of the Rocky Mountain 
News in the last 2 weeks, taken with permission, by the way. 
That is a fire on the front page of their newspaper.
    That fire was stopped by a road. That is the only thing 
that stopped that fire. I think that picture illustrates pretty 
well where properly managed, properly placed, properly 
maintained roads and other fire blocks can assist us out there.
    Would you put up the next poster? We will go through must 
more detail with these in the panel. But there are some numbers 
for you to look at as we go through as far as the appeal 
process. These new numbers are very, very significant. It is 
not my intent up here as Chairman of this Committee to roast 
the Sierra Club and to roast the Wilderness Society and some of 
these other organizations.
    It is my intent to say to them, ``Don't walk away from us. 
Come back to this table and help us figure out an agreement. 
Help us put something together to let the Forest Service do 
what the Forest Service does best, and that is manage those 
forests.''
    I have personally witnessed extensive public relations 
campaigns. The full focus of those campaigns was to force 
management of the forests based on emotion, not based on 
science. This is the result. These fires are in part, not 
totally, a result of emotion-based management, a legalistic-
based management instead of letting our forest people do what 
they need to do.
    So, with that, I look forward to hearing from our experts 
today. I hope that we come out of this with some constructive 
conversation and some constructive direction to reinforce the 
people of our Forest Service who I think have done a tremendous 
job.
    My final remark is there have been a lot of brave, very 
dedicated people from our Federal agencies, from our contract 
employees and hopefully soon even from countries like Australia 
and New Zealand that will assist us, but we've got a lot of 
brave people out there to fight these fires. So far we have 
kept the upper hand on them.
    But again, I do want you to all keep in mind that we not 
only lost all this property, we not only lost all this money, 
to date we have lost nine or ten firefighters as a result of 
the fire season.
    [The prepared statement of Mr. McInnis follows:]

          Statement of The Honorable Scott McInnis, Chairman, 
               Subcommittee on Forests and Forest Health

    Today, the Subcommittee will hear from an impressive array of 
individuals on the growing wildfire epidemic on our national forests 
and public lands. Before we begin that discussion, though, I want to 
thank Mr. Inslee and the many other Members of this Subcommittee whose 
support was nothing less than essential in moving a bill of mine that, 
when signed by the President, will clear the way for many dozens of 
world-class firefighters from Australia and other countries to support 
our own during this and coming fire seasons. We were able to move that 
bill, which by the way was referred to 4 different committees, in just 
a matter of days thanks to the broad bipartisan push behind it. So 
thank you to my colleagues for your invaluable support. To our 
witnesses from the Forest Service and Interior, you tell the Calvary 
that the reinforcements are on the way.
    Our business here today is to discuss an issue on the minds of a 
lot of folks out West and in other parts of the country wildfire. It's 
by now cliche because we've heard it so many times on TV and other 
places, but this wildfire season has the makings of becoming one of the 
worst in this nation's history. Already this year, we've burned well 
over 3 million acres, which by itself is nearly three times the average 
for an entire year. What's most alarming about this statistic is that, 
historically, wildfire burns the hottest, largest and most frequent in 
the latter parts of July and into August and September. The wildfire 
forecast for the coming months, Colleagues, is ominous indeed.
    As each week passes, and hundreds of new fires flare up, our 
government's resources continue to dwindle. Just yesterday, Chief 
Bosworth who I recently traveled with to Colorado to view the largest 
fire in our state's history--sent a directive to the field, the sum 
total of which was put a lid on all non-essential spending, because 
this fire season will probably burn that up, too. I applaud the Chief 
for taking this unfortunate but nonetheless prudent and altogether 
needed step.
    Projections for wildfire suppression spending have grown 
geometrically with the passing of every week and month. In April, the 
Forest Service estimated that it would spend $587 million on wildfire 
suppression this year. In May, the agency's estimates grew to $787 
million. Now estimates are encroaching on $1 billion. The final amount 
spent will doubtlessly be higher than that. If suppression spending 
does exceed $1 billion, that will amount to 300% more than Congress 
appropriated for this fiscal year. So there's no question that now or 
later, Congress is going to have to get its wallet out.
    As bad as this fire season is, and as prohibitively expensive as it 
has become, make no mistake about it, it is no apparition. The American 
people are going to continue to spend hundreds of millions of dollars 
each year to protect homes and communities from wildfire until we get 
serious about dealing with the hazardous fuels crisis on our national 
forests. The Forest Service has said that some 72 million acres of 
national forest system land are at high risk to catastrophic wildfire. 
These vast tracts are home to decades worth of dead, downed and dying 
trees and other woody biomass. As a frame of reference, that area 72 
million acres is larger than Connecticut, Rhode Island, Maine, New 
Hampshire and Vermont that's all of New England--combined. And yet, 
this year the Federal Government will reduce fuels only on somewhere 
between 1.5 and 2.5 million acres. Talk about taking a pea-shooter to a 
gunfight. To put it bluntly this glacial pace is totally inadequate in 
the face of this threat. And so I look forward to hearing from our 
agency witnesses to find out what we can do to help you step up your 
thinning work. If its money, then Congress needs to find the money, 
because a dollar spent on fuels treatment is four or five saved on 
planes and slurry and bulldozers and other suppression related 
expenses. If it's making the Forest Service's decision-making process 
workable, then Congress needs to find the will to rise above the 
alarmist voices and do that too.
    In that vein, in the last few days new information has emerged 
about the extraordinary affect that appeals and lawsuits are having on 
the Forest Service's ability to clean out fuel build-up on the 
understory of America's public forestlands. This information compiled 
by the Forest Service shows that nearly 50% of all mechanical thinning 
projects were appealed or litigated, overwhelmingly by environmental 
groups.
    As I have said previously, for all those who have been wringing 
their hands about how the appeals problem was over-hyped and over-blown 
by folks like me, this data was a bucket of cold water in the face. It 
shows nothing less than a systematic campaign on the part of a few 
ideological purists to either slow or stop the thinning of over-grown 
forests. There is no question in my mind that these myopic few are out 
of step with the will of the American people.
    Now I've already heard the hand wringing start again, questioning 
the validity of these numbers. And so Senator Larry Craig and I have 
asked the General Accounting Office to further analyze the appeals data 
and report back to Congress. We expect that report back from the GAO 
soon. In the meantime, anyone who is tired of the Federal Government 
spending hundreds of millions of dollars on fire suppression, tired of 
seeing communities threatened, tired of seeing smoke congested air and 
soot filled rivers and streams you should be outraged.
    Let me be clear. America's army of environmental litigants are not 
responsible for this summer's drought conditions, and they certainly 
can't be blamed for the arsons, campfires and lightning strikes that 
have ignited these massive blazes. But they are undeniably guilty of 
boxing the Forest Service into a position of malicious neglect when it 
comes to managing our forests. This neglectful posture has turned our 
forests into a fuel-rich tinderbox that is just one match, one 
cigarette, one lightning strike away from exploding.
    This, Colleagues, cannot be allowed to continue. And as I said 
earlier, Congress and the Forest Service need to muster the courage and 
find the will to do something about it.
                                 ______
                                 
    Mr. McInnis. With that, I will turn it over to Mr. Inslee 
for his remarks.

STATEMENT OF HON. JAY INSLEE, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF WASHINGTON

    Mr. Inslee. Thank you, Mr. Chair. I want to thank the Chair 
for convening this hearing. It is a very, very important issue. 
I want to express the sentiments from the State of Washington 
for the people of Colorado that have suffered as a result of 
these forest fires. People around the country, I think, are 
feeling very deeply about these losses.
    But I also want to say at the outset something that I feel 
very, very strongly about, having reviewed the evidence about 
these fires. There has been an assertion that the reason these 
losses have occurred is because some American citizens have 
insisted that the bureaucracies responsible for enforcing the 
laws of the United States are responsible for these fires.
    I don't know what they call that in Colorado, but in 
Washington we call that hogwash. To say that the environmental 
community is responsible for these fires is totally, totally 
inaccurate. To say that Mother Nature is responsible for these 
fires, and some of the people who started these fires are 
responsible for the fires and the fact that the U.S. Congress 
has not appropriated enough money to do the defueling projects 
that are necessary to stop these fires, those assertions have 
some accuracy.
    I have come here today to talk about that specifically. 
First, I want to show the American public what we are talking 
about. That's a map of the Colorado fires. The fact of the 
matter is, of the entire acreage burned in the Colorado fires, 
about 2 percent of the acreage are areas where there were any 
appeals filed whatsoever.
    Those acres were in the latter part of the fire. If you 
look at this map, I apologize you can't all see it, but you see 
this brown line is the extent of the upper South Platte and the 
fire started in the southern part of the range of the fire.
    Mr. McInnis. Mr. Inslee, I want to correct something right 
here. Since I was at that fire and I know what the heck you are 
talking about, these are not the Colorado fires. That is one 
fire in Colorado. We had numerous fires. So, if you want to 
restate it, that is the Hayman Fire. It might help you with 
your presentation.
    Mr. Inslee. I appreciate that. We will get to some other 
fires if you give me a few moments to do it.
    In this fire, the first started in the south. The first 
burned to the north and it burned through all kinds of diverse 
country. The only areas that were subject to appeals were in 
the very northern reach of the fire, just before it was 
stopped. These are these little blue crosshatched areas here 
that represent 2 percent of the entire fire area that was 
burned.
    Just as importantly, the entire area in the fire that 
potentially could have been subject to thinning was 4 percent 
of the entire area of the fire. In other words, if there were 
no appeals filed whatsoever, the entire area that was subject 
to potential thinning in this area was 4 percent of the fires.
    Now, what was the limitation? Why couldn't the U.S. 
Government do significantly more? The reason is the U.S. 
Congress hasn't appropriated enough money by a long stretch of 
the imagination to the U.S. Forest Service to get this job 
done.
    The fact is it is not the environmental community that is 
limiting the acreage on a global basis of what we can thin, it 
is the amount of money that we appropriate because the U.S. 
Forest Service is using every single dime that we appropriate. 
The limiting factor is the U.S. Congress's appropriation.
    So, let us look at a different file. Let us look at 
Arizona. I am sorry I don't have a map for every single fire, 
but we have done an analysis and about these numbers are right 
on almost all the fires.
    The Arizona fire, again, the fire started in the south, on 
non-Forest Service land, on non-Federal land, as in many of 
these areas, by the way, well over half of the areas burned 
this year are non-Federal lands. It burned for acres and acres 
and acres. It burned through logged areas that have already 
been logged partially, and that is shown in these gray areas. 
The fire is shown on this red line. Excuse me, the red line is 
the fire.
    Of all the areas burned, of all the thousands and thousands 
of acres burned in Arizona, the only area that was subject to 
an appeal is this area up in here, this little tiny sliver 
shown in blue that was on the rim of the fire.
    You see these thousands and thousands of acres burned and 
grossly irresponsible politicians have come and told the 
American people that the environmental community who was simply 
standing up for making this bureaucracy follow the laws, was 
causing these fires. That was grossly irresponsible under the 
facts of this situation.
    Now, there are real issues we have to deal with on seeing 
to it that our fuel reduction problems get better handling by 
the U.S. Government. That is why I am glad we are having these 
hearings, because there have been appeals filed.
    Of all the fuel reduction programs, that includes thinning, 
mechanical thinning and prescribed burns, about 1 percent of 
all of those were appealed. A higher percentage, and I am very 
appreciative of Mr. McInnis for getting this second report from 
the Forest Service, a higher percentage of the mechanical 
thinning projects have been appealed. This report would suggest 
almost half, a significant amount.
    The reason is, our research has indicated in about half of 
those projects the Forest Service or a significant portion of 
that half, probably half of that half at least, the Forest 
Service has dropped the ball. They fowled up. They didn't 
follow the law. Do you know why? Because in a significant 
portion of those, these were disguised commercial timber sales 
trying to get their nose under the tent of mechanical thinning 
projects.
    When some American citizen has blown the whistle on the 
American Forest Service, the bureaucracy responsible for this, 
more than half the time the Forest Service is backed up. Do you 
know why? Because they got caught with their hand in the cookie 
jar doing commercial thinning projects when they ought to be 
using this for fire suppression.
    Let me just give you a few examples of that. In the Upper 
Blue Stewardship Program in the White River National Forest, 
the Forest Service proposed logging 15 million board feet of 
logging. For a variety of reasons it violated the law to do 
that.
    When an American citizen said, ``You are not following the 
law,'' what happened? The Forest Service backed up and stopped 
because they wanted to do logging of big timber for commercial 
purposes rather than fuel reduction.
    In the East Rim timber sale of the Kybob National Forest in 
Arizona, the Forest Service proposed logging eight million 
board feet of trees two miles from the rim of the Grand Canyon. 
An American citizen filed an appeal of that. There were no, as 
far as I can tell, restrictions on the sizes of trees to be 
thinned.
    The Forest Service got caught with their hand in the cookie 
jar and they withdrew the sale. The problem we have here, and I 
would hope that we can move forward on this, is finding a 
definition for these projects which clearly define what is 
thinning and what is commercial timber sales.
    We do have a problem in this project. I appreciate Mr. 
McInnis bringing this hearing for this reason. The problem we 
have is that there is an ill-defined definition of what these 
projects are. Frequently, it has resulted in the Forest Service 
doing commercial thinning, going into roadless areas instead of 
emphasizing the urban wilderness boundary.
    Where only 45 percent--excuse me, I am going to have to 
check this statistic, I'll get back to you on this--but a large 
percent of these expenditures are not in the urban wilderness 
boundary.
    The Forest Service has been focusing, doing this work in 
roadless areas where the big trees are. We need them to focus 
doing this in the urban wilderness boundary where we can save 
people's houses. That is where we need them to focus.
    We, I hope, come out of this with a way to do two things. 
One, focus the Forest Service using their limited resources 
around people's houses, which are the first places we have to 
save, instead of going up where the big timber is, where the 
big commercial timber is, but where it doesn't save people's 
houses. We have to get the Forest Service to focus on saving 
people's homes, No. 1.
    No. 2, we have to come to a better definition of these 
programs so that everything knows what the rules are.
    Thank you for your patience, Mr. Chairman. I appreciate 
that.
    Mr. McInnis. Thank you. Before we go to our witnesses, let 
me make a couple of comments here. First of all, I wish the 
Ranking Member would reconsider this language implying that the 
Forest Service has their hand in the cookie jar.
    The Forest Service doesn't need insults at this point in 
time. I think they have done a tremendous job. I think they are 
frustrated by this. I don't care whether you call it mechanical 
or not, it is a fact. Rocky Mountain, the northern region of 
the Forest Service, had 53 decisions that were subject to 
appeal and 53 of them were appealed, 100 percent.
    I would remind the Ranking Member that less than two or 3 
weeks ago the National Sierra Club, not all environmental 
groups, and we have a lot of good ones out there, but the 
National Sierra Club and the Wilderness Society were thumping 
their chests that only 1 percent was ever appealed.
    Now that these new numbers are out, we are seeing that the 
Web sites are being changed and the stories are changing.
    Mr. Inslee. Would my friend, the Chairman, yield?
    Mr. McInnis. Not yet. The second thing that I would point 
out is that the example you used happens to be the forest I 
grew up on, the White River National Forest. Your figure about 
the timber up there, that forest has had less than 2 percent in 
100 years.
    Colorado is not a timber State. I don't even think we have 
a major saw mill left in the State of Colorado. We may have a 
mom and pop operation, but we are not a timber State.
    Finally, in the other percentage you were looking for that 
you originally said 45 percent, you wanted to restate that at 
70 percent. I want to remind people that the only fire damage 
is not just on the urban interface. You have first damage when 
you get deeper into the forest.
    Finally, if you have an opportunity, if you need to thin a 
forest and you have an opportunity to put that to some type of 
commercial use, that wood can be put to some kind of use, why 
not use it like that? I would hope that you would agree, Mr. 
Inslee, that if we go in for the purpose of thinning and we 
have an opportunity to utilize that in some constructive 
fashion, that thinning, either in cogeneration facility or in 
some kind of commercial timber facility or is the inbred hatred 
of commercial timber so deep that under no circumstances you 
would allow commercial on there?
    Those are points we should consider. We need to go to our 
panel.
    Mr. Inslee. Would the Chairman yield?
    Mr. McInnis. This is my concern about yielding, members. I 
want every member here to get plenty of time, adequate time to 
question both panels. We have two panels. This Committee will 
adjourn at 12 o'clock.
    So, I can either yield to you now and reduce your time to 
get to visit with the witnesses, which I don't think you want 
to do. So, with that we are going to proceed to our first 
panel.
    On our first panel we have Sally Collins. Sally, thank you 
very much for coming. She is our Associate Chief, National 
Forest System; Mr. Truesdale, Assistant to the National Fire 
Plan Coordinator and Tim Hartzell, Director of the Office of 
Wildland Fire Coordination, U.S. Department of Interior.
    I am not sure which of you would like to proceed first. 
Sally, why don't you proceed?

 STATEMENT OF SALLY COLLINS, ASSOCIATE DEPUTY CHIEF, NATIONAL 
   FOREST SYSTEM, U.S. FOREST SERVICE; ACCOMPANIED BY DENNY 
  TRUESDALE, ASSISTANT TO THE NATIONAL FIRE PLAN COORDINATOR, 
  U.S. FOREST SERVICE; AND TIM HARTZELL, DIRECTOR, OFFICE OF 
  WILDLAND FIRE COORDINATION, U.S. DEPARTMENT OF THE INTERIOR.

    Ms. Collins. First of all, I appreciate very much being 
invited to speak today. I think the fact that we have the 
Department of Interior and the Department of Agriculture in 
front of you here answering questions with one single testimony 
points out the coordination and the support that we have to 
work together.
    I would like to submit my full comments for the record and 
just summarize those for you briefly here. Then we will have 
more time for questions.
    [The prepared statement of Ms. Collins follows:]

             Statement of Sally Collins, Associate Chief, 
             Forest Service, U.S. Department of Agriculture

    Thank you for the opportunity to meet with you today. I am Sally 
Collins, Associate Chief, Forest Service, Department of Agriculture. 
With me today are Tim Hartzell, Director of the Office of Wildland Fire 
Coordination at the Department of the Interior; and Denny Truesdale, 
Assistant Coordinator, National Fire Plan, Forest Service. Since the 
Department of the Interior and the Department of Agriculture work 
closely together in fire management and in implementing the National 
Fire Plan, it is appropriate to use one statement to talk about the 
2002 wildland fire season including rehabilitation and restoration and 
discuss our work on the National Fire Plan.
    At the outset, Mr. Chairman, we want to thank you and your 
Subcommittee for your support of the fire management program and, most 
importantly, for your support of the brave men and women who make up 
our firefighting corps. Our firefighters do an impressive job under 
adverse conditions and they deserve our thanks and admiration. As we 
move into the peak of the western fire season, fighting wildland fires 
is only one aspect of the work we must do to protect communities and 
restore ecosystems.
THE FIRE SITUATION AND OUTLOOK
    The outlook is for a continued severe fire season. In 2002 to date, 
we have already seen over 3.1 million acres burned. The season started 
out earlier than usual and is more than twice the ten-year average of 
burned acreage. At this point in the year, drought condition in the 
Southwest, Rockies and East Coast has set the stage for an active fire 
season in those areas. Since October, areas receiving below normal 
amounts of precipitation include Southern California, the Southern 
Great Basin, the Southwest, the Rocky Mountains and the Eastern 
Seaboard. The Northeast experienced the second driest September to 
February in the last 107 years. July 2001 through June 2002 was the 
driest rainfall season on record since 1850 in Los Angeles and San 
Diego.
    Analyzing fuel and weather conditions across the country, the areas 
of greatest fire potential for the month of July include Arizona, 
Colorado, Wyoming, California and the Great Basin.
    The weather outlook for later this summer and fall calls for 
generally warmer than normal temperatures across the entire West. 
Through September, rainfall is predicted to be below normal, in 
portions of the Pacific Northwest, Northern Rockies and Great Basin. As 
a result, fire potential in the Great Basin, Pacific Northwest and 
Northern Rockies is expected to increase later this summer and fall. 
Existing drought conditions along the Eastern Seaboard could lead to 
high fire potential during the fall months. Above normal fire potential 
is predicted in California, the Great Basin, Rockies, Mid-Atlantic 
States and portions of the Pacific Northwest and Northern Rockies 
through the fall.
2002 FIRE SEASON
    The 2002 fire season has already been a difficult one. Thanks to 
the National Fire Plan, the wildland fire agencies together have well 
over 17,000 fire employees to prevent, detect, and suppress wildland 
fires, treat hazardous fuels, and provide leadership for the 
organizations. When we realized the potential severity of the 2002 
wildland fire season, we began to hire seasonal firefighters early and 
we are staging firefighting crews and equipment in locations where they 
can be mobilized quickly and effectively. Thousands of homes have been 
saved by firefighters, more than 300 large fires have been controlled, 
and about 42,000 fires were controlled through the end of June. Without 
the added National Fire Plan support, our response would not have been 
as strong. As of June 30, less than 1% of the fires have escaped 
initial attack to become large fires compared to an escape rate of 2 to 
5% in years past. This year, when we went into Preparedness Level 5 
(the highest level of preparedness), we still had approximately 221 
hand crews available to be assigned. In fire season 2000, when we went 
into Level 5, we were stretched so thin we were already ordering 
military crews. Although several fires have been devastatingly large, 
the additional resources have made a difference in reducing the size of 
many of the fires.
    Firefighting is a high risk, high consequence activity, and the 
Forest Service and Interior have always had strong firefighter safety 
and training programs. Firefighter safety is our highest priority. 
Following the ThirtyMile Fire tragedy in July 2001, where four 
firefighters lost their lives, we have reexamined our safety programs 
and identified areas needing improvement. The areas identified include 
managing firefighter fatigue, reinforcing use of the 10 Standard Fire 
Orders and the 18 Watch Out situations, and developing training to 
avoid entrapment by fire. All of these improvements in training and 
safety are in place for this fire season. We are committed to doing 
everything we can to improve firefighter safety.
    Another critical aspect to decreasing wildfire is the reduction of 
hazardous fuels in our forests and grasslands. We can do this by 
restoring fire adapted ecosystems, thereby reducing wildland fire risks 
to communities, conserving natural resources, and most importantly, 
saving public and firefighter lives. Bipartisan Congressional support 
has provided the Forest Service and Interior with the necessary funding 
to increase the acreage of fuels treatment to reduce risks to 
communities and ecosystems. We have preliminary indications that recent 
fuel treatments have been effective in community and natural resource 
protection. We are currently gathering information to determine if 
these initial assessments can be validated.
    When local areas anticipate or experience above normal fire 
activity, the Departments have the authority, through what is known as 
``severity funding,'' to provide suppression funds to those units so 
that they can bring in additional staff and equipment to improve 
initial and extended attack response capabilities and increase 
prevention activities. Already this year, the Forest Service has 
approved over $53 million for severity assistance; Interior has 
approved over $29 million in severity assistance. Federal wildland fire 
agencies have enhanced initial attack capabilities in Arizona, New 
Mexico, Colorado, Montana, and Nevada by pre-positioning resources 
ranging from airtankers, to hand crews, to engines in strategic 
locations. Weather, fuels, and drought conditions all contribute to the 
number and size of wildfires. We can reduce the severity of unwanted 
wildland fire over time through hazardous fuels reduction. We will 
never be able to control every fire every time, but we can reduce the 
number and severity these wildfires.
REHABILITATION AND RESTORATION
    Rehabilitation and restoration are critical parts of responding to 
the aftermath of wildfire. These efforts focus on lands unlikely to 
recovery quickly and naturally from wildfire. Stabilizing activities 
generally take several years and include reforestation, watershed 
restoration, road and trail rehabilitation, and fish and wildlife 
habitat restoration. Reseeding is done when possible with seeds from 
native trees and plants. In addition, rehabilitation efforts continue 
from the 2000 and 2001 fires.
    With the fires of recent days, Forest Service and Department of the 
Interior specialists are already in the field assessing conditions and 
preparing the burned area reports for emergency rehabilitation needs. 
Emergency stabilization work has already begun and longer term 
rehabilitation and restoration on these very large fires will continue 
for several years.
OUTCOMES OF THE NATIONAL FIRE PLAN
    For the past year and a half, since the National Fire Plan was 
developed, Federal agency field units, States, Tribes and other 
partners have been busy, putting into action the concepts of the Fire 
Plan. In 2001, we accomplished a great deal of work in each of the 5 
key point areas of the Fire Plan (Firefighting, Rehabilitation and 
Restoration, Hazardous Fuels Treatment, Community Assistance and 
Accountability)--work that has been summarized in the Fiscal Year 2001 
Performance Report.
    In Fiscal Year 2002, the Forest Service and the Department of the 
Interior expect to treat 2.4 million acres to reduce hazardous fuels 
and to protect priority communities at risk. Continued bipartisan 
Congressional support for working with communities and interest groups 
is vital to firefighter and public safety, to reduce risks to 
communities, and implement of the ecosystem health goals of the 
National Fire Plan.
    Our mid-year review of accomplishment for the National Fire Plan 
shows that excellent work continues to take place. By the end of June, 
both Departments completed fuels treatment on over 1.6 million acres. 
Over 47 percent of these acres are in the wildland urban interface. 
Despite the severe drought, we will accomplish additional mechanical 
and prescribed fire treatments as weather permits. We anticipate that 
we will accomplish some additional mechanical treatment this year. 
Treatment by prescribed fire activity has been severely curtailed due 
to wildfire activity, through what is usually a productive time of year 
for treatments. Our employees have reported that recent fire behavior 
and photographs show that fuel treatments in Arizona and Colorado have 
been effective in wildland-urban interface areas and in natural 
resource protection. Although the initial indications are supportive of 
our fuels treatment, we are working to validate this information.
    An example of our focus on hazardous fuels is the Blue Ridge Urban 
Interface project on the Coconino National Forest in Arizona, begun 
during September 2001. The project was designed to reduce the risk of 
fire around 10 subdivisions totaling over 1,000 homes located near the 
town of Clint's Well. So far the project has completed 4,230 acres of 
prescribed burning, 1,600 acres of commercial thinning and the chipping 
of thinning slash material on about 220 acres. On May 14thof this year, 
a fire broke out just south of the project boundary. Within an hour the 
fire had grown to 5 acres and began to spread rapidly through the tree 
canopy. As it moved into part of the project area, an area that had 
been burned in February, the fire activity decreased and crews were 
able to contain the fire. If the fire activity had not decreased, the 
fire would have had the opportunity to move through one of the 
subdivisions, perhaps burning the homes in its path.
    In 2001, as part of the community assistance portion of the 
National Fire Plan, the Student Conservation Association in Idaho and 
Nevada launched the Fire Education Corps, a public-fire awareness 
project. Local teams working in cooperation with Federal, state and 
local authorities provided more than 500,000 residents with vital, 
wildfire safety information through: public presentations, special 
events, community canvassing, home evaluations, fuels reduction 
projects, and media relations.
    With our State Forester partners through the State Fire Assistance 
program, we have assisted over 11,000 communities by developing local 
projects on fire prevention, fire suppression, hazard mitigation, and 
creating FIREWISE communities. Both Departments have helped over 3,100 
communities by providing training, protective fire clothing, and 
firefighting equipment through the Volunteer and Rural Fire Assistance 
programs.
    Our working relationship with our State and local partners has 
never been stronger. In addition to our Federal firefighting crews, we 
call upon many other firefighting forces for assistance. State and 
local firefighters may be the first to respond to fire incidents. We 
rely heavily on these crews for support, especially the rural and 
volunteer fire department crews, for their expertise in structural 
protection. In severe fire seasons, State, Tribal, military, National 
Guard, local firefighters and supervisory firefighters from Canada, New 
Zealand, and Australia are instrumental in fighting wildland fire. We 
would like to thank you Mr. Chairman, for your work on the bill 
regarding tort claim coverage of foreign firefighting personnel.
    The five land managing agencies have updated the majority of their 
fire management plans to be consistent with the Federal Wildland Fire 
Management Policy, with a goal to have all plans updated in 2004, if 
not sooner. Today the Wildland Fire Leadership Council is finalizing an 
interagency fire management plan template that will make fire 
management planning within all Federal agencies consistent and without 
regard to boundaries. The fire management plans are used by fire 
management officers, line officers and incident commanders to plan for 
future fire management decisions, and to make quick decisions when a 
fire incident occurs, as to the appropriate techniques and tactics for 
effective wildland fire suppression.
    This year, the Departments are developing a common interagency fire 
budget planning process that will provide all agencies with a uniform, 
performance-based system for identifying the preparedness resources 
necessary to deliver a cost effective fire management program. This 
system will be deployed by the 2004 fire season and will influence 
readiness decisions for the 2005 fire season. Some interim components 
may be online even earlier.
    On May 23, 2002, the Secretary of Agriculture and the Secretary of 
the Interior joined with the nation's Governors to endorse the 
Implementation Plan for the 10-Year Comprehensive Wildland Fire 
Strategy. The 10-Year Implementation Plan is an historic document 
setting forth an agenda to aggressively manage wildland fires, and 
reduce hazardous fuels, protect communities, and restore ecosystems 
over the next decade. The 10-Year Implementation Plan was developed in 
response to the high level of growth in the wildland urban interface 
that is placing more citizens and property at the risk of wildland 
fire, the increasing ecosystem health problems across the landscape, 
and an awareness that past suppression has contributed to more severe 
wildfires. The 10-Year Implementation Plan will help reduce the risk of 
wildfire to communities and the environment by building collaboration 
at all levels of government.
    The newly formed Wildland Fire Leadership Council is important to 
the leadership, accountability, and coordination in carrying out the 
National Fire Plan. The Council, which has met three times, has 
participants from the National Association of Counties, the National 
Governors Association, the Federal Emergency Management Agency, the 
National Association of State Foresters and the Intertribal Timber 
Council. The Council provides oversight to ensure policy coordination, 
accountability and effective implementation of the wildland fire 
programs. Currently, the Council is developing action plans for each 
task described in the 10-Year Implementation Plan. These action plans 
will set the course for accountability for accomplishing this important 
work.
SUMMARY
    With the outlook for a continuing severe fire season, the five 
Federal land-managing agencies and our partners at the State and local 
level are doing all that we can to be prepared. We will continue to do 
everything we can to protect firefighters, the public, and communities. 
We appreciate continued bipartisan support from the Congress. The 10-
Year Implementation Plan and the Wildland Fire Leadership Council will 
continue to foster cooperation and communication among Federal 
agencies, States, local governments, Tribes, and interested groups and 
citizens. Our aim is to ensure the long-term safety and health of 
communities and ecosystems in our care.
    This concludes my statement, Mr. Chairman. I would be happy to 
answer any questions you and the members of the Subcommittee may have.
                                 ______
                                 
    Ms. Collins. Today I will be talking about the 2002 fire 
season. You have done a nice job of summarizing that already. 
Then I will also talk about our accomplishments under the 
National Fire Plan to date.
    At the outset, I really want to thank you, Mr. Chairman, 
and other members of the Subcommittee for your support of our 
Fire Management Program, but more important, for your support 
of our brave young men and women who are out there fighting 
these fires. This has been a really tough year and they are 
doing an impressive job under adverse conditions and they 
really do deserve our thanks and our support. So, we appreciate 
that.
    The outlook is for a continue severe fire season, as you 
well know. Already to date we have seen over 3.1 million acres 
burned compared to one million less than that in our single 
largest fire season in 2000.
    So, the fire season started out earlier than usual and it 
is more, gain, as you said, much more than the 10 year average 
that we have seen in the past. The drought condition in the 
southwest, Rockies and East Coast, has set the stage for an 
active fire season for the rest of the season and we will 
probably see the fire season extend into the fall on the east 
coast. We will probably hear more about that later.
    The 2002 fire season has been a difficult one. Thanks to 
the National Fire Plan and wildland fire agencies together have 
over 17,000 firefighters out there to prevent, to detect and 
suppress wildland fires, to reduce hazardous fuels and to 
provide leadership to these fire organizations.
    When we realized the severity of these 2000 and 2002 
seasons, we started hiring seasonal employees early. We started 
pre-positioning our resources, our crews and our equipment so 
that they could be staged to remobilize quickly and 
effectively. Thousands of homes have been saved by 
firefighters. More than 300 large fires have been controlled, 
but more impressive than that, 42,000 small fires have been 
suppressed at the end of June.
    Now, without the added money from the National Fire Plan 
and without that support, our response would not nearly have 
been this strong. As of June 30th, less than 1 percent of the 
fires escaped initial attack to become large as compared to the 
two to 5 percent in previous years.
    We want to commend you for that because that is a huge 
accomplishment.
    Firefighting is risky. It has high consequences and the 
firefighters safety continues to be and will continue to be our 
highest priority. Following the Thirty Mile Fire where four 
young firefighters died in July of 2001, we reexamined our 
safety program and identified a lot of areas for improvement. I 
would certainly be willing to talk about some of those as would 
these folks that are with me.
    We are committed to doing absolutely everything we can to 
improve firefighters safety. We have implemented the 
recommendations from that Thirty Mile Report already this fire 
season.
    So, let me quickly summarize the results today on the 
National Fire Plan. I have already talked about firefighting 
capability. Let me talk for a minute about hazardous fuels. 
Hazardous fuels reduction is everything about reducing risks to 
communities, restoring fire adapted ecosystems and most 
importantly, saving public and firefighter lives.
    We can reduce the severity of wildland fires, unwanted 
wildland fires over time through hazardous fuels reduction. We 
will never be able to stop every fire every time, but we can 
reduce the number and severity of these wildfires.
    In 2002, the USDA and Department of Interior together are 
treating, as you said earlier, 2.4 million acres to reduce 
fuels. Our midyear review of accomplishment shows that we have 
already made great progress. We have treated over 1.6 million 
acres, over 47 percent of these, between the two agencies, is 
in the wildland urban interface. Of course, that varies, as you 
said, at 70 percent for the Forest Service and a smaller 
percentage for BLM lands just by the nature or where BLM lands 
reside versus the Forest Service.
    Despite the severe drought, we will accomplish additional 
mechanical and prescribed fire treatments where weather 
permits. Our employees have reported that recent fire behavior 
and photographs show the fuel treatment, both mechanical and 
prescribed burning in Arizona and Colorado have been effective 
in showing the progress of fires and helping to control them.
    What is important here is your continued bipartisan support 
which is essential in realizing a consensus that we have to 
build around hazardous fuels reduction, not just prescribed 
burning, but mechanical treatments as well.
    Turn for a second to rehab and restoration, which are 
critical parts of responding to the aftermath of wildfire. The 
kind of stabilizing activities generally take several years and 
include reforestation, watershed restoration, road and trail 
rehabilitation and fish and wildlife habitat restoration.
    The Forest Service and Department of Interior specialists 
are already in the field assessing the conditions of the recent 
fires. Emergency stabilization work has already begun. I just 
read this morning that we have already restored the line around 
the Hayman Fire and emergency stabilization and rehab are going 
to take years. We need to be committed for the long term on 
this.
    I want to turn to community assistance for a minute. With 
our State forest partners to the State Fire Assistance Program, 
we have assisted over 11,000 communities by developing local 
projects and fire prevention, fire suppression, hazard 
mitigation and the Firewise Program.
    Both departments have helped over 3100 communities by 
providing training, protective fire clothing and firefighting 
equipment through the Volunteer Fire Assistance Program.
    I just could go on and on about what we have done with our 
community assistance collectively. I think some other folks 
will probably talk about that some more.
    Let me turn finally to accountability. On May 23, the 
Secretary of Agriculture and the Secretary of Interior joined 
with the nation's Governors to endorse a bipartisan plan for 
the 10-year comprehensive wildland fire strategy.
    They established prior to this the Wildland Leadership 
Council, which was formed to provide the leadership 
accountability and coordination between the two departments in 
carrying out the National Fire Plan and this 10-year action 
plan.
    The council is actually meeting this morning. They have met 
three times since its inception and they are in the process of 
putting the final touches on who is doing what in that 10-year 
action plan.
    They are meeting with the National Association of Counties, 
National Governors association, FEMA, National Association of 
State Foresters and the Intertribal Timber Council. They are 
doing good work. So, with the outlook for a continued severe 
fire season and five Federal land management agencies and our 
partners at the State and local level, together we are doing 
all we can to be prepared.
    We will continue to do everything we can to protect 
firefighters, the public, and our communities. We anticipate 
and we appreciate continued bipartisan support from Congress. 
Our aim is to ensure the long-term safety and health of our 
communities and the ecosystems that we care for.
    This concludes my statement, Mr. Chairman. I would be happy 
to answer any questions that you and Members of the 
Subcommittee have.
    Mr. McInnis. Thank you, Ms. Collins. We will open up for 
questioning. I will begin the questioning. I am curious. The 
threat of appeals and litigation, what kind of bearing does 
that have on the time that it takes to get the projects through 
the NEPA process?
    Before the appeal process, you have a period of time that 
you have to get there, first. What have the threats of the 
appeal and the litigation threats--has that slowed down that 
process before you even get to the point where they can 
formally file an appeal?
    Ms. Collins. Well, it does take, depending on who is 
signing that decision and where that appeal goes, but it does 
take anywhere from 30 to, as long as a year to get an appeal 
resolved at times, and depending on the levels of appeal.
    The appeals process is just one of those many, as I think 
the Chief has talked about, many processes associated with the 
gridlock issues. We have analysis, multiple layers of 
requirements that has been layered on over the years as a 
result of many things. So, I don't want to put the whole thing 
on the appeals process, but the appeals process does add time.
    I also want to say that the statistics that you were 
talking about are related to the mechanical thinning as opposed 
to the prescribed burning. I think everyone knows that, but I 
just wanted to make sure that got clarified.
    Mr. McInnis. I guess my point is have you seen a paralysis 
on the pre-appeal process as a result of the aggressive appeals 
that have been filed?
    Ms. Collins. Well, what the phenomenon is is this. It is 
not probably too surprising. It is that when a decision that 
you are working on is likely to be appealed or you have a sense 
that it might be appealed because of the public involvement, 
you end up putting a lot of time, the term people use is 
``bulletproofing'' a document.
    And really, I think our analysis that we submitted to you 
all shows that it really for the most part doesn't add a lot to 
the quality of the decision that is being made. But it is in 
anticipation of a potential appeal and litigation. If you 
really want a project done, you don't want it appealed and you 
don't want it litigated, otherwise it takes, sometimes, so long 
to get it done that it sometimes can be a moot point. At times 
the project does become moot.
    So, you try to modify the project. You try to build the 
analysis so that it will sustain itself on appeals. That can be 
a lot of work.
    Mr. McInnis. Finally, you have heard some strong statements 
in our opening remarks about the Forest Service and their hand 
in the cookie jar and dealing with commercial logging and so 
on. Is it a policy of the Forest Service that their first 
priority or any priority is for commercial logging? I mean it 
seems to me that there has been an emotionally driven campaign 
that any time the Forest Service wants to go in and do 
something, some kind of management in the forest, that the 
easiest way to stop it is to paint you in the same bedroom as a 
commercial logging operation. Can you go through a little of 
that with me?
    Ms. Collins. Yes, I would really like to do that because I 
think this is something that we have been dealing with for a 
long time and I would sort of like to make sure that we have 
the facts in front of us on this.
    First of all, we are not spending any hazardous fuels money 
on timber sales. We just plain are not doing that. What we are 
trying to do through our planning process is look at the land 
first and what does it need and on a landscape basis. In so 
doing, and legitimately, we are not out there trying to grab 
timber. We are trying to see what the land needs.
    You all know, I was a Forest Supervisor and a line officer 
for 10 years on a very fire-prone ecosystem. You have 100 trees 
per acre where traditionally you might have had six to ten. I 
mean these stands are overstocked. They have to be treated. 
Sometimes you look at the stand of 100 trees per acre and you 
say, ``How do I get that removed?''
    Well, what are my choices? My choices are, I could 
prescribe burn, but that is way too dense a stand to put a fire 
in without thinning first.
    My second choice is send a bunch of Forest Service people 
out there in uniform and get them to cut down those trees. You 
know, you pay your Forest Service employees to do it.
    The third thing you might try as you consider a services 
contract where you pay somebody to remove that and maybe if it 
has some commercial value you could sell it in a log yard of 
some kind or the third thing you can do is someone will pay you 
to take it out and you use a vehicle like a Greensheet or a 
timber sale.
    The planning of that, if you know in advance it is going to 
be for hazardous fuels reduction, you plan it on a landscape 
basis using hazardous fuels reduction money and when it gets to 
the point where you know some of it is commercial and some of 
it is not, this piece over here I am going to prescribe burn, 
then you allocate the dollars accordingly.
    That is how it works. It makes economic sense to get money 
back when you can, again. I think Mr. Inslee is absolutely 
right, we are not necessarily always this clear about the 
purpose of these projects as we could be. But we do need to 
understand.
    I think we have given you these statistics before. Between 
50 and 60 percent of our timber sale program is cutting trees 
for stewardship reasons, between 50 and 60 percent. It is not 
for timber volume reasons. It is to increase elk habitat, wild 
turkey habitat, to reduce fuels hazards, to improve water 
quality. It is for a lot of those kinds of things.
    So, when you think about it that way, we have the effect in 
many of our timber sales of reducing fuels. That is kind of the 
landscape I am trying to describe. I don't know where the issue 
comes from that we are doing something that is underhanded at 
all. I think we are trying to be absolutely straightforward in 
this.
    I would be happy to try to clarify it in any way I can.
    Mr. McInnis. Thank you, Ms. Collins.
    Mr. Inslee.
    Mr. Inslee. Thank you, Ms. Collins. I appreciate your 
testimony, especially the part where you said I was right. I 
really liked that. I want to make sure that you understand, 
too, that I am not saying that the Forest Service has been 
involved in any sort of underhanded dealings, some sort of 
conspiratorial thing.
    What I suggest to you, though, is that the Forest Service 
on quite a number of occasions has proposed projects that were 
driven or at least have the impact of using much more 
commercial timber, big trees, than were really necessary to do 
the fuel reduction work that a lot of us feel needs to be done.
    That is where the controversy is here. That is where there 
has been these appeals filed. Let me give you an example. And 
by the way, before I give you some bad examples, let me give 
you some good examples. You have had some successes, the Happy 
Jack, there is a great name, Urban Interface where you did 452 
acres of thinning trees where you had a limitation of five 
inches in diameter.
    You said, Look we are only going to do trees less than five 
inches in diameter. The community said, Great, wonderful. No 
appeal.
    The Victorine Project where you did 6,000 acres of 
prescribed burn, no appeal, no problem.
    The Blue Ridge Urban Interface where you did 11,449 acres 
of thinning trees. You put a limitation on it of nine inches in 
diameter, no problem, no appeal.
    What I am seeing from this is where the Forest Service puts 
limitations on diameters of trees to make sure that it is a 
reduction of these small trees that causes the fuel fire 
loading rather than the big trees which many people think 
reduce the problem, then we don't have a problem.
    But where you don't do that, there you find these appeals 
like in the Upper Blue Stewardship Project of the White River 
North National Forest where you proposed to take out 15 million 
board feet of logging. You had no diameter cut requirement. 
Some citizens appealed, including, interestingly the ski 
industry and the project was withdrawn.
    In the Upper South Platte Project of the Pike-San Isabel 
National Forest, you proposed to do 5,000 acres of roadless 
logging, again, no diameter limitation on trees. It was an 
appeal and you had a difficulty.
    I guess this is where the difficulty occurs. What I would 
like to ask you is what is the best way you think we can get to 
a definition so that citizens have more confidence in your 
decisionmaking that you are really doing fuel reduction rather 
than commercial logging?
    Ms. Collins. My response is this, and I guess it comes 
from, again, being a line officer out there in a community for 
many, many years, that what works best is to get those folks in 
that community together, out kicking the dirt and looking at 
what trees you have got. It is so different from place to 
place.
    What is small in one place and what is healthy in one place 
is different than what is small and what is healthy in another 
place. It varies by ecosystem type and it varies by species 
type. Where we needed to do thinning we were talking about much 
bigger trees than five-inch and nine-inch trees where you had 
second growth Ponderosa Pine in Central Oregon that would burn 
hot.
    So, I think you run a risk by setting something like 
diameter limits which is so variable. But I do think that if 
you work with people in the community and certainly we were 
finding that it was very successful, you get great 
understanding and you can reduce appeals if you spend some time 
with people talking about what is going on and what is really 
needed there. You take the scientists with you.
    Mr. Inslee. I agree with you. Let me suggest another way 
that I think we could really help this program. That is to 
increase our focus on spending our scarce dollars for fuel 
reduction programs in the urban wildlife interface to protect 
people's houses first. You know, we have to do triage here. 
Where should we spend our first dollar?
    I will tell you, my constituents think the first dollar 
ought to be spent protecting people's homes. Yet, I just got 
the statistics for 2001 and only 32 percent of the acres 
proposed for treatment in 2001 were around people's homes in 
the wildland urban interface.
    Much more of it was spent up on the roadless areas where 
frankly there was some more commercial logging available, but 
we weren't protecting people's immediate homes.
    Now, Congress has tried on several occasions to get the 
Forest Service to focus more of its money on protecting 
people's homes in the wildland urban interface. Why aren't we 
spending nearly 100 percent of our money first protecting 
people's homes and Forest Service programs?
    Ms. Collins. Well, we have been listening to this. Is it 
the wildland urban interface or is it the large ecosystem where 
you spend your money first? I think that the answer is it is 
both. It is not all one or all the other.
    It clearly is important for us to provide and protect for 
those communities in and around our forests. That is absolutely 
essential and that is our first priority.
    However, we have huge issues with, for example, the Hayman 
Fire, a municipal watershed. We have issues with threatened and 
endangered species we need to protect out in the larger 
ecosystem. One of the reasons why we want to keep this focus 
back on communities, the reason for the 10-year action plan, 
the reason why the Westerns Governors, the National Governors 
Association are so committed to these efforts to identify 
priorities is that it is only that community that knows what 
resources are important.
    There is another dimension to this, a couple more 
dimensions to this. From my standpoint, when I saw homes burn 
every two to 3 years in Bend, Oregon, those fires started miles 
from those homes. Some of them actually had done a lot of work 
in terms of fuels reduction. The fires have their own patterns 
in different places and we know where wind patterns are, we 
know where the fuels are. We know what needs to be treated in 
order to get a hold so we can prevent those fires from going 
into communities.
    In the second part of that is that there is a whole lot 
more to a home than a house. The context within which a house 
is located is essential. You can protect the structure, but you 
also have to protect the environment around which that home is 
situated.
    Mr. Inslee. Well, just one suggestion, and I appreciate 
your forbearance, Mr. Chair, I know you have been listening to 
this where Congress has been telling you protect the homes 
first. The reason you have had to listen to it for years is you 
are still not doing it.
    That is why you are getting more appeals than you like. If 
we can get you to focus on the urban wildlife land interface, 
we are going to have a lot better program, we are going to have 
a lot less appeals and we are going to make a lot better use of 
taxpayer money. That is what my constituents think.
    Thank you very much, Ms. Collins.
    Mr. McInnis. I would like to point out, Mr. Inslee, that 
still in the northern forest region 53 appeals, 100 percent 
appeal rate.
    I also want to point out in the South Platte, that despite 
the homes that were destroyed, one of our biggest concerns up 
there in that fire was the watershed. We have millions of 
people who depend on that watershed up there for the municipal 
drinking water in Denver and some of these other metropolitan 
areas.
    Now, you wouldn't call that urban watershed, I mean there 
are not a lot of homes right there. But we have critical other 
elements, as well as our elk habitat, our bear habitat and 
things like that that I expect you to help try and protect.
    One other thing I should point out is that on the South 
Platte there were diameter limitations, but it was still 
appealed. Mr. Tancredo.
    Mr. Tancredo. What were those diameters, do you know?
    Mr. McInnis. I will get you the numbers by noon.
    Mr. Tancredo. Well, Mr. Chairman, it doesn't matter.
    The statement was made here that there were no diameter 
limitations and in fact there were. They were on the second go-
around. It wasn't the first appeal, but the second appeal.
    After diameter limitations were put in place, there was a 
sixty-page appeal filed.
    Mr. Inslee. Do you know what those were, Tom?
    Mr. Tancredo. I think 14 inches. I think that is what it 
is. I am not positive. I think it was 14 inches. But you said 
that there were no diameter limitations and that is not 
accurate.
    Mr. Inslee. For the record, I was referring to the first 
appeal. We can talk about this with the panel, but I think this 
is the problem we are getting into, that community members 
across the country have found occasions where the Forest 
Service has wanted to cut down trees like this, Tom.
    This was in a proposed fuel reduction program.
    Mr. Tancredo. Claiming my time, Mr. Chairman. I need my 
time.
    Mr. Inslee. Thank you.
    Mr. Tancredo. It is a fact, is it not, I guess I will go to 
the panel and ask you whether or not it is accurate that there 
are times when you are doing thinning in order to in fact 
create a fire break. You must remove some larger trees. To 
leave them there actually creates a problem because of what 
they call canopy jumping, the idea that a fire moves from 
canopy to canopy.
    It is possible that you at some period of time in some 
situation have to remove larger trees in order to actually make 
a firebreak. The idea that you can perfectly cleanse an area 
with a restriction of the very small diameter trees may not 
work. It may not be the best way to do it.
    That is the whole issue we are talking about here, about 
giving you some flexibility in that process. But it is almost 
impossible to do any of these things, frankly, when you realize 
that not everybody that approaches this issue is doing so as a 
result of just their purpose of making sure that whatever 
management plan you implement is the right one for that forest 
and that it accomplishes the goal of good forest management, 
because a lot of participate frankly don't want you in that 
forest at all, or anybody else, any other human being.
    I mean the Sierra Club, as I understand it, has a policy 
that to oppose timber cutting, period. It doesn't matter the 
purpose. So, it again goes back to a motivation as to why 
people are interested in what they are trying to accomplish.
    So, as long as you can, with a 32-cent stamp, anybody can 
stop you from going ahead with some sort of management plan 
that is designed to reduce the possibility of catastrophic 
fires. We are going to have these horrendous problems like we 
have seen in my State and in Arizona.
    We have to do something that changes that process, 
something that allows people to have input into the management 
plan, it is true, but then at some point in time does not allow 
for this, as I say, a 32-cent stamp. No, I'm sorry, it is 37-
cent stamp. That goes to show you the last time I sent a 
letter. E-mail is the thing.
    At any rate, a stamp of some cost, relatively inexpensive, 
can stop the process. It seems to me that we have to look at 
something else. The ``something else'' I would like you to 
comment on that has been presented as a possible alternative, 
management plan, is something we call charter forests. We sent 
it over to you some time ago, a bill that we have for that 
purpose. I just wondered, No. 1, if you had a chance to review 
this concept and get your comments about it, especially that 
part that allows for--everybody to have a place at the table to 
participate from the outset, in the development of the plan.
    Once that plan is decided upon, there is one EIS and then 
the Forest Service takes over the management and that's the end 
of it, essentially.
    Ms. Collins. I am really sorry to say that I have not read 
that in detail. I will do that after this. I would like to 
comment on that notion, though, the notion of what do we really 
need. Because I think charter forests offer the opportunity to 
experiment with some ideas and we really look forward to doing 
that.
    I think that it is important that we bring lots of 
different people together on that because I know that there are 
people worried about what that may mean.
    But I do think regarding appeals, what we really want to 
see is a process that pulls people together rather than pulling 
people apart, because one of the things that is happening with 
our current appeals process is that it has become kind of a 
quasi-legalistic kind of process where the average citizen has 
a kind of hard time operating in it, as it becomes a precursor 
to litigation in many cases.
    Mr. Bosworth, the Chief and I, really feel strongly that 
people need to have a right to say, ``I don't like this project 
and I don't like it for these reasons.''
    We need to be able to say, ``This is a bad project,'' or 
``I really like this project and I want you to go forward with 
it.''
    What has happened is that we have accumulated a process 
because it is sort of quasi-legalistic, that there are numerous 
hooks on process. Did you look at these five steps in this 
manual? Did you consider this piece of science in this way at 
this point in time?
    It is all about process. It is not about is this a good 
project or not? So, we need to come up with a way to incent 
people to come together and talk and trust and try to figure 
out if there is a solution, rather than having this process 
that is sort of hanging out there that people can grab hold of.
    I really do support people's right to grieve things. I 
certainly have used it in many other realms of my life, and I 
certainly want people to have that right. But I do think it 
needs to be a responsible and responsive process that is not 
this costly and this timely.
    Mr. Tancredo. Thank you.
    Mr. McInnis. I might add that for your process to work, Ms. 
Collins, the parties that are involved have to want a solution. 
They have to enter willing to compromise, willing to be 
constructive and come to some kind of solution.
    Mr. Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman.
    I want to ask about the report itself that you have 
produced and where is the background data on this. Which 
forests are we talking about? Which appeals? I notice in one of 
the addendums to your report you list all the appellants, but 
you don't list which projects we are talking about. I think the 
key to what Mr. Inslee is trying to get at is if we don't know 
the projects, how are we to analyze this is report and see if 
it is accurate or not?
    Can you get us the projects that are included here? I 
notice you are talking about 326 decisions, 155 that were 
finally appealed, 21 decisions that has been litigated.
    It is my understanding that our side of the Committee and 
the Committee staff has been trying to get that from you. We 
don't have it here at the hearing. We are unable to really do a 
solid analysis of what is going on here. Is there a reason for 
not putting that in?
    Ms. Collins. What we did, we put this together without--we 
don't have that, but we can certainly get it to you and we will 
get it to you.
    Mr. McInnis. I might add, too, Ms. Collins, the General 
Accounting Office is going to do an in depth analysis as a 
follow-up, giving you exactly the information that you asked 
for. So, that information will be forthcoming from the General 
Accounting Office.
    Mr. Tom Udall. Mr. Chairman, when we have a hearing, 
though, you know, we are going out here with this information 
and I think we are going to get a slanted approach in terms of 
what is going on here if we don't have the full information 
before us.
    Mr. McInnis. Maybe that is what happened with the 1 
percent, Mr. Udall.
    Mr. Tom Udall. Well, no. That was a GAO report and I think 
it was a good solid report. Are you contesting the GAO report 
that said 1 percent? Are you saying there is serious problems 
with that report and they were lying or something? Are there 
untruths in it?
    Ms. Collins. No, no, no, no. What happened with that 
report, you get a different answer depending on the question 
you ask. I think one of the things that GAO said recently, I 
just saw a letter that they sent yesterday saying they were 
going to re-analyze it. They are going to re-analyze it for a 
variety of reasons. One is that they looked at projects that 
basically had, many of them already had, I think 20 percent of 
them had the appeals already completed on them.
    They were also looking at prescribed burns which don't 
even, most of which, many of which, don't even have an appeals 
process. So, the numbers were skewed to begin with.
    Mr. Tom Udall. You mean you are saying prescribed burns? 
They have an appeals process just like all the others.
    Ms. Collins. No, many of them are categorically excluded 
from NEPA and do not have an appeals process.
    Mr. Tom Udall. Well, then they are not controversial.
    Ms. Collins. Well, some are and some aren't.
    Mr. Tom Udall. So, you will get us the full data, then?
    Ms. Collins. We will, yes.
    Mr. Tom Udall. Mr. Chairman, I think we should have another 
hearing on the full data and knowing what the projects are.
    Can you tell me whether or not any forests in my 
Congressional district, the Santa Fe National forests are 
included here as listed? I look at the appellants and I see 
some environmental groups that are in the Southwest that could 
be a part of this. I don't have a clue, so how am I to question 
your results?
    Mr. Inslee. Mr. Udall, would you yield for a minute because 
I have some information that may answer this question.
    Mr. Tom Udall. I will.
    Mr. Inslee. In November 2001, the National Forest Service 
proposed to do a prescribed burn on the Bighorn National Forest 
of 23,000 acres. Sounds significant. The Intermountain Forest 
Association, a timber industry group, filed an administrative 
appeal of the prescribed burn, arguing that the Forest Service 
should instead build expensive roads in the roadless areas and 
permit the industry to do ``merchantable timber,'' meaning big 
tree logging.
    The appeal was rejected by the Forest Service in January 
2002. Clearly there is an ability of the community because the 
timber industry sure filed an appeal because they wanted to get 
in there and log big trees.
    I just point this out. It is an example of the problem we 
have. A lot of these appeals that are filed are not just by the 
environmental community. A lot of them are people who want to 
get in and log. You are getting it from both sides. I 
understand that. I just hope that helps you out, Mr. Udall.
    Ms. Collins. We will get you that information. We will be 
happy to do that.
    Mr. Tom Udall. It would be very helpful. Mr. Chairman, I 
would like to come back when we know what we are talking about 
here because this is a very sketchy report and it comes to some 
conclusions that are different from the very thorough GAO 
report that was done earlier.
    You talked about the appeals process. There is this huge 
question that the appeals process is not working. That seems to 
be the conclusion from the Chief on down, the appeals process 
is not working.
    But the other way to look at that is that only 6 percent of 
these are going to litigation. That is a very, very small 
number. That means in the appeals process you are actually 
working out all of your problems, aren't you? And when you have 
this very small number of appeals actually going to litigation, 
that is a number where, you know, most cases that are filed in 
court, they all settle before you actually get to the final 
result and get to a jury.
    It seems to me that we are talking here about an appeals 
process that is working out the problem. Do you have any 
comment on that?
    Ms. Collins. Yes. I would say that you can get really 
focused on the numbers and the percentages here. I understand 
why there is a concern with that. But the reality is that every 
appeal and every lawsuit has its own set of decisions and 
precedents, some of which are conflicting.
    The result is an environment where people are feeling like 
they have to document everything. Now, we are working on that 
ourselves. We have to figure our how to be on top of the latest 
science that is quoted in a litigation decision.
    But you see that that ultimately builds a huge record. I 
was out there talking to a biologist the other day in the 
South. She said 3 years ago her biological evaluation on this 
particular species was 16 pages now. It is now 65, just because 
of additional requirements that get added.
    That is what comes from decisions that are made. So, again, 
whether it is one or 21, and the fact that they are different 
makes this a very confusing and very difficult process.
    Mr. McInnis. The gentleman's time is up.
    Mr. Tom Udall. Thank you, Mr. Chairman. And we will get the 
list of those names?
    Ms. Collins. We will get you those.
    Mr. Tom Udall. Thank you.
    Mr. McInnis. Mr. Hayworth.
    Mr. Hayworth. Mr. Chairman, first of all, thank you for the 
recognition.
    A half million acres in my Congressional district burned. 
Hundreds of homes were lost. Thousands of lives were disrupted. 
I could sit on this dais today and be involved in the rather 
intellectually stimulating, but ultimately futile game of can 
you top this in terms of debating rules.
    For example, I could point out that the Chairman has the 
letter from Barry Hill of the GAO clearly setting forth the 
methodology. I could go down that route. I could note that it 
is so curious, the demonization of timber harvesting that we 
are hearing as if commercial and job creation, industries and 
enterprises are demonic or evil and somehow not in the public 
interest, and some may hold that view.
    I hope that is not the case. I hope that is not what I'm 
hearing, but if we continue to have that mindset, and I welcome 
the informal discussions that I have had with my friend from 
Colorado who grew up in Arizona, as did my colleague who 
represents the first district of Arizona, grew up in Snowflake, 
right there by the forest.
    I know that the forest in New Mexico last summer, we had a 
horrendous experience there with my colleague from New Mexico. 
I just lament the fact, people at home have said, we really 
need to stop pointing fingers and we need a dose of common 
sense.
    When the President came to the district the message that 
came back was this: Maybe we ought to call it an enlightened 
environmentalism. Enlightened environmentalists are for 
effective forest management. To me that means what is 
reasonable. Is it unreasonable to have harvests of timber, a 
renewable resource, without clear cutting, without damaging old 
growth, with doing things in a responsible manner?
    What is unreasonable about that? What is evil about 
commercial endeavors, especially if those endeavors actually 
put money in the Treasury.
    We have heard a lot today, and I just have to point out, 
fresh off my fax, Sally talks about being on the front lines 
and being involved in forest management. I have a letter here 
that comes from the Apache Sitgrave National Forest. Let me 
read to you and I quote:
    ``The apparent effect of the appeal regulation is to push 
out staff responsible for land treatment into a mode of 
proposing and implementing small wildlife urban interface 
projects when a larger scale is more appropriate.''
    Repeating, ``when a larger scale is more appropriate.'' The 
litigation over the BACA Project and other lawsuits regarding 
grazing has generated a decisionmaking process that must meet 
standards for court scrutiny rather than what would result in a 
reasoned choice among alternatives, as is set as the objective 
of the National Environmental Policy Act, NEPA.
    Sally, do you concur that sometimes the court regulations 
established in this endless march of litigation departed even 
from NEPA and what has been legislated as sound science and a 
reasonable way to move forward?
    Ms. Collins. Well, I can't address specifically whether the 
courts are conflicting with NEPA. But I can say that I think 
that we are, as you said, in a situation where blaming anyone 
is not productive. What I have seen over the years is that if 
you get reasonable people together looking at reasonable 
projects, you get a lot of consensus. I think you can get that.
    I have only been back in Washington for 2 years. But I can 
see that we debate things, we talk about things at this level. 
But when you actually get people out there on the ground 
talking together, magic happens. I have seen it over and over. 
I think it can happen.
    I would like to see us create processes that encourage and 
incent that more, create incentives for people to do that more.
    Mr. Hayworth. The key word here is reasonableness. The 
standard of western jurisprudence is the context of what would 
reason people do. And more than firebreaks around homes and 
more than residential fire treatment is a comprehensive program 
for healthy forests.
    I welcome constructive endeavors. But when we sit here in 
an accusatory tones and decide that people who have made their 
living off resource-based industries are--the implication must 
be--somehow less than honest or somehow evil in their intent, 
we do little to solve the problem.
    I would hope that the charred acreage in my district would 
stand as silent testimony to the futility of dealing in legal 
abstractions. The timber industry in Arizona for all intents 
and purposes is dead. The jobs are gone.
    As I told the press, for those who say they champion 
diversity, where is your biological diversity when everything 
is incinerated?
    Yield back.
    Mr. McInnis. Mr. Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman. Good morning to 
the panel. Thank you for your testimony, Deputy Chief Collins. 
I want to redirect the folks of the Committee onto, I think, 
the future.
    Just recently, on the 26th of June, I wrote the Chief, 
asking him to appoint a broad-based panel to review the Hayman 
Fire in Colorado and to see what it can teach us about ways to 
reduce the risk of similar extreme fires in Colorado's Red 
Zones and I hope in other Red Zone areas.
    I think this could help build some consensus and speed 
progress. I haven't received a response and I understand that 
this is a busy time of year for all of you, particularly busy 
with what has been occurring.
    But, have you had a chance to review the request and if so, 
could you give me some preliminary input and reaction to the 
proposal?
    Ms. Collins. Mr. Udall, we have had a chance to review it. 
We have had a lot of discussions. I personally talked to Rich 
Cables in Colorado about it and Dale and I have talked about 
it. He got some people together yesterday and discussed it.
    Let me just tell you what we are thinking because we really 
do believe that that is a good idea. We have asked Rick Cables 
in our research community in Rocky Mountains to get together 
and talk about who might be the right mixture of people to look 
at that.
    I think that the other piece of it that we are considering 
is, you know, maybe this isn't the only fire we want to look at 
that way. Maybe this is something we maybe look at more broadly 
because one of the things that this could do, I was just 
reading the summary of this research report from a Colorado 
State University professor, Phillip Omni. Have you heard of 
that report? It is basically the effect of fuels treatment on 
wildfire severity where he actually looked at wildfires and the 
impact that those wildfires have on the hit or treated area.
    This is the kind of thing, and this is done through a joint 
Fire Sciences Program, you know, where we fund universities to 
do research for us. This kind of research, this kind of thing 
could be done through sort of a review like the one that you 
were talking about where we actually take a look at what 
happened during that fire and what were the effects, for 
example, when it hit some of these treated areas and what are 
the effects afterwards? What are the effects on the watershed, 
the Denver watershed? What are the effects on soil erosion and 
that kind of thing?
    Where did it burn hot? Where did it burn cool? We like that 
idea. I just wanted you to know that we are working on it and 
we should get a response back to you shortly.
    Mr. Mark Udall. Excellent. I would look forward to it, as I 
am sure all my colleagues on the Committee frankly, to take a 
look onsite at some of the areas that were treated and how they 
responded during the fire, particularly the Hayman fire, but I 
think there are other places in other forests where some 
treatment activities occurred.
    We can certainly learn a lot from what happened. We can 
also look at the dwellings that survived and of course, those 
that didn't and learn more about how our defensible space 
activities are effective or not so effective.
    So, I would hope that we can move together, all of us, to 
learn from the fires and begin to do the important work of 
preventing this occurrences in the future.
    Let me move to another question. As many of us here did, I 
strongly supported the National Fire Plan. I was one of the 
Members who asked the GAO to review it. The GAO made some 
recommendations, including establishing a coordinating council 
and putting a higher priority for work in the urban wildland 
interface.
    In March, to follow up, I introduced a bill along with my 
colleague, Mr. Hefley, and my cousin, Representative Tom Udall, 
to implement the recommendations.
    After that the Administration did establish the 
coordinating council. Then on April 11, the three of us who 
introduced the bill wrote Secretary Veneman and Secretary 
Norton urging further steps to implement these recommendations.
    So far we haven't received an answer. Do you have any sense 
of when we can expect a reply?
    Ms. Collins. I actually think the reply is coming shortly. 
I think the gist of it is going to also be that you have a 
definition of wildland urban interface in there that talks 
about how we would work through those decisions. I think that 
Wildland Leadership Council is going to actually be able to use 
some of that information as they look at criteria around which 
priorities will be developed on a local basis.
    I think through that process we will find those projects 
gravitating to those areas of local concern.
    Mr. Mark Udall. Thank you. I will look forward to that 
reply.
    Let me just conclude by saying I share the concerns and the 
feelings expressed not only by my colleague, Mr. Hayworth, but 
my cousin, Congressman Udall and Congressman McInnis and 
everybody on the panel.
    If you look at the West's history, the West has a rich 
history. It has a history full of conflicts that were followed 
by tragedies, range wars being one example, the gold rushes 
where native peoples were overrun, the Mormons from whom I am 
descended, there are many conflicts and tragedies that 
followed.
    There are also great examples of collaboration where 
Westerners pulled together and built communities and responded 
to the natural world, which is a very strong force in the west. 
Mother Nature always bats last in the West.
    We now face another crossroads. We can work together and 
move ahead and return our forests to a healthier condition, or 
we can find various groups to demonize. There is a lot of 
finger-pointing going on and we can continue to indulge 
ourselves in the finger-pointing or we can move to work 
together.
    That is the commitment I am making to my constituents, to 
work for the future. And I hope we can do that in this 
Committee. Thank you.
    Mr. McInnis. Keep in mind, Mr. Udall, that in the West with 
public lands there are many organizations based in the East who 
have some voice in that. So, it is no longer restricted to us 
resolving our problems amongst our family in the west.
    Mr. Flake.
    Mr. Flake. Thank you, Mr. Chairman.
    Ms. Collins, we in Arizona, as Congressman Hayworth 
indicated, it is all located within his district, but I grew up 
just outside of the periphery of the fire. I grew up with many 
of those who have made their living thinning the forest, 
actually making the forest more healthy, who have now been 
stymied over the past several years.
    The logging industry is completely gone, gone. So, it is 
going to be difficult to buildup that infrastructure to 
actually go in and maintain the forest health that we need. But 
I think we are going to see the first test of this new 
cooperation that may exist between environmentalists and others 
when we see what the response is to the attempts that will be 
made over the next couple of months, it has to happen soon, to 
go in and do some salvage work in the burned out areas.
    Do we have any indications yet if those attempts will be 
appealed?
    Ms. Collins. We don't have any indication because we are 
just barely through our BAER process, Burned Area Emergency 
Recovery, to know what we even have there and what might be 
available for salvage. So, we know those are controversial. 
They have been for a long time and they will probably continue 
to be. I think we will need to work with people to work through 
some of those problems.
    Mr. Flake. It is my understanding that the attempts to go 
in and salvage some remaining economic value in Montana were 
blocked, as they were in New Mexico recently.
    Ms. Collins. Yes.
    Mr. Flake. Is that the case?
    Ms. Collins. Yes, it is.
    Mr. Flake. Those have not been allowed to go forward?
    Ms. Collins. I think on the BitterRoot we actually came to 
some agreement, but I don't have that specific information here 
with me.
    Mr. Flake. It is my understanding that exhibit Center for 
Biological Diversity, located in Tucson, actually, filed suit 
in New Mexico to block that sale. Is that your understand?
    Ms. Collins. I don't know. I would have to get back to you 
on that. I am sorry.
    Mr. Flake. What is the position on the Forest Service? Is 
there any inherent damage that is done by going in and 
salvaging some value left there to the trees? It has to be 
done, as I understand it, in 2 months you can get all the value 
and in 2 years there is no value at all.
    Ms. Collins. It really depends on the species and it 
depends on the area and it depends on how hot the fire burned. 
It depends on a lot of factors. But assuming that there is some 
commercial value there, and assuming that that is in a forest 
plan allocation that allows for commercial harvesting, we would 
go in and we would remove that. It might have and it might not 
have beneficial effects to wildlife, to reducing fuels hazards 
in the future and that sort of thing.
    But certainly that is what we do. We often salvage. We 
often don't salvage in some areas, depending again on what the 
priorities for management of that area are.
    Mr. Flake. But in this case we have about 600 square miles. 
It is likely that it will be something salvageable.
    Ms. Collins. There will be some area in there, probably, 
that could be salvaged.
    Mr. Flake. Thank you.
    Initially, a lot of people quoted the GAO study, the 1 
percent, particularly those from the environmental community, 
saying that we are not blocking forest thinning projects.
    Now, with the new information coming back indicating that 
in all appealable decisions, particularly for the region where 
the Arizona fires were located, at least 73 percent of all 
appealable decisions were appealed.
    Now, on that side they are saying, well, those are 
different. Those are logging. They try to put the logging face 
on it. Can you make a comment on what--they try to separate 
forest thinning now from logging. Can you comment on the 
interface there, if you will, between forest thinning and 
logging?
    Ms. Collins. Well, when I was talking before about there is 
a lot of ways to get the fuel out of the woods. You can pay 
someone to do it or you can do it and get money for it.
    Mr. Flake. So, what the environmental groups term logging 
is actually forest thinning?
    Ms. Collins. Well, it is often a commercial thing where you 
are actually getting value for thinning and you are selling 
that product. So, someone is paying you to take that out of the 
woods. Again, that is contingent upon you doing an analysis. 
This is the kind of stand density we need. This is what we need 
for wildfire cover. This is what we need for riparian 
protection. Then you decide whether or not you are going to 
thin it because it has commercial value through a commercial 
product sale or you are going to pay someone to do it.
    Mr. Flake. I thank the Chairman.
    Mr. McInnis. Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    I just had one of our foresters stop by the office today 
that the Department of Forestry had recognized Dennis Ninsky up 
in Superior. I have been up to Superior. We have been talking 
about the West, and the West is important, but I think people 
need to hear some potential good news sometimes, too.
    In Minnesota we are waiting for the dollars. We are all set 
to go. We are all set to go in the Boundary Waters. We are 
ready to save homes. We are ready to save life. We are ready to 
protect the remaining forests. We are waiting for the dollars.
    The Forest Service is ready. The DNR is ready. Canada is 
even ready to work with us. The tribes are ready to work with 
us. All the local units of government and yes, the 
environmental community is with us. And yes, the Forestry Round 
Table and the Forestry Council, when appropriate, have a say in 
it.
    So, we are waiting for the dollars. From some of the 
opening statements that were made here, having had thinning 
going through, fuel reduction going through, could have played 
a major role in reducing the amount of destruction, damage, 
loss of property and the potential loss of life.
    So, just in the Superior Forest, and I would like you to 
comment on what we can do here, the estimate is $53 million. An 
ambitious goal would be 7 years. I would ask the Forestry 
Service, just using Superior as an example, not saying it needs 
to go to the head of the list, just as an example, what are the 
chances in the next 7 years of getting $7 million to do the 
reduction so that we do not face the same tragedies as Mr. 
Hayworth has just gone through?
    What are the chances, based on your appropriations, of 
being able to get the job done?
    Ms. Collins. And what you are talking about there is 
commercial thinning, non-commercial thinning?
    Ms. McCollum. It is the Boundary Waters in Superior 
National Forest.
    Ms. Collins. It is the blow-down?
    Ms. McCollum. It is the blow-down that happened many years 
ago. We still have blow-down from '91. What are the chances, 
based on your budget?
    Ms. Collins. Well, I think we have talked about the 
allocation we have for fuels treatment. It is less than we had 
in a pretty, actually, non-aggressive strategy in our cohesive 
strategy. So, I think that we can do more fuels work with more 
money. A lot of it is just looking to how we allocate that 
money nationally and how that kind of plays out.
    Ms. McCollum. So, in other words, we don't have enough 
money, period. In Minnesota we have an open fire appropriation. 
We take fire very, very seriously.
    Ms. Collins. Yes.
    Ms. McCollum. It is an open appropriation. If we have to 
come back into session, the Governor will call us back.
    Ms. Collins. Right.
    Ms. McCollum. I would like, because this is my first term 
in Congress, I would like with the inflation built in, how much 
dollars you have had--let's go to the '91 blow-down. I will 
just use '91 for an example. How much unmet need there has been 
in Minnesota and what your plans are for going forward.
    Because without you having an open style appropriation to 
take care of what is going on currently right now in the West, 
and what you have identified in the West, I just wondered not 
only how Minnesota, but the rest of the national forests can 
expect not to be put in the same hazardous position.
    It is my goal to work with you on that, so I want to know 
what your unmet needs are.
    Ms. Collins. I appreciate that and I also really appreciate 
the situation you have up there. I flew over that blow-down 
last year and I have canoed in that same area. I know that is 
just an unbelievable situation up there. So, I will get that 
information back to you so we can see how we might work 
together.
    Ms. McCollum. Mr. Chair, I know that there are other 
examples of other national forests that are probably all ready 
to go. We have everybody at the table. Everybody is signed on. 
But until we figure out how to get the dollars appropriated, we 
are going to be creating a hazardous condition up there.
    Thank you, Mr. Chair.
    Mr. McInnis. Thank you.
    Mr. Herger.
    Mr. Herger. I thank the Chairman. I thank the Committee for 
allowing me to sit in on this hearing. It is incredibly 
important. I represent an area in northern California, 
northeastern California with 11 national forests within it.
    Fire is an everyday, in the summertime, June, July, August, 
threat to us in our forests. So far the tally is running about 
200 percent above the 10-year average already. We have 140 
percent that is burning above the record-setting 2000 fire 
season.
    Just to respond to the gentle lady from Minnesota, I can 
mentioned that back in 1996 we had a blow-down in the Seven 
Rivers National Forest in which we attempted to go in and 
remove these trees.
    The radical environmentalists, the Sierra Club, the 
Wilderness Club, sued and sued and sued and prevented us from 
taking these--these were blown-over trees. These are now dead 
and dying trees. They prevented us from removing those trees 
while we could get commercial value out of them that would pay 
for them.
    We didn't get virtually any trees out of that forest. Now, 
we have the same problem that you have. Now we have to have 
taxpayer dollars go in and remove them. So, again, we see 
another example where the radical environmental community 
doesn't mind taxpayer dollars going in to remove the trees.
    Ms. McCollum. Can I ask the gentleman to yield for a 
statement?
    Mr. Herger. I only have a limited amount of time. This is 
so very important.
    Ms. McCollum. Well, you are mistaken, sir.
    Mr. McInnis. Ma'am, Mr. Herger has the floor. Mr. Herger, 
you may proceed.
    Mr. Herger. Thank you. Also, some of the good news here, 
and again, I have been in Congress now 16 years and this has 
been an increasing problem of our forests, particularly during 
the Clinton-Al Gore-Bruce Babbitt years where they basically 
didn't allow us to thin our forests at all.
    We have forests that are ten times denser than historic 
levels, not where everything has been clear cut, but where we 
have fire ladders of brush and different layers of tree levels 
getting up into the big trees; where now rather than having a 
healthy fire that clears out the brush, now we have 
catastrophic fires that destroy everything.
    There is no habitat for the Spotted Owl or anything else. 
So, this is very important. Again, Mr. Chairman, I thank you 
for bringing this hearing out, that finally we are beginning to 
get the truth out. We have seen so much misinformation out. One 
of those, I heard several times the point of only 1 percent 
were appealed.
    What is interesting, in today's Wall Street Journal, they 
have a report here where they talk about that and they mention 
that there were groups that were advocating or pointing out the 
point there was only 1 percent. It goes on to mention that 
western scientists, and I am reading directly from this, 
``Forest officials in the meantime were mystified with this 1 
percent number. Everyone unlucky enough to own a tree in his 
backyard knows from experience that environmental groups appeal 
projects faster than bunnies reproduce.''
    It goes on to mention that in a three-page letter sent this 
week to Congress, Barry Hill, who is Director of the Natural 
Resources and Environment for the GAO set the record straight 
in his letter. It turns out that nearly half, or 48 percent 
which the Chairman mentioned earlier, of all the attempt to 
thin by the Forest Service were being appealed.
    As a matter of fact, in the northern region, and that may 
be the gentle lady from Minnesota's region, the northern 
region, 100 percent of them were appealed. Every single one of 
these projects were appealed. I am reading from the Wall Street 
Journal. This is a quote from GAO for 2001-2003, ``In several 
other regions anywhere from 67 to 79 percent of their plans 
were held up because of appeals.''
    Then they go on to say, ``Who are the ones appealing? The 
Sierra Club, Center for Biological Diversity, Wilderness 
Society, and others.'' They are the very same folks who held up 
the obviously incorrect report and claimed it was true.
    Well, my question now, so much for where we are. The 
Sacramento Bee ran an article, a series of six articles this 
last summer indicating that the top environmental group raised 
$3.5 billion a year, which they put in the campaigns, hire the 
best lawyers, the best lobbyists to see to it that not even a 
single tree--and by the way, Mr. Chairman, 4 years ago the 
Sierra Club came out and said, ``Not a single tree,'' did they 
want to see removed.
    Well, we do have a plan. We can do something about it, Ms. 
Collins. The Quincy Library legislation which I am sure you are 
familiar with, bipartisan, passed in '98, Senator Feinstein in 
the Senate sponsored it. I sponsored it in the House. It passed 
429 to 1, which would allow us a pilot program to go in, which 
was set up by the local environmentalists, by the local forest 
products people, by the local people in my district, around 
Quincy, California, and three national forests.
    So far that has been fought and appealed and stopped. We 
are now about 3 years into the 5-year plan. We haven't done 
basically anything. As a matter of fact, they have done less 
thinning in this area than they have even in the regions 
around.
    My question to you, is this an urgency to the Forest 
Service to begin implementing this and second, can we begin 
waiving some of these radical environmental laws and rulings 
that do not allow us to move forward on these projects that 
protect public health and safety?
    Mr. McInnis. I am not going to be able to allow you to 
answer the question, only in that we are out of time. I need to 
move on to Mr. Holt.
    Mr. Herger. I would like a written response for the 
Committee and for myself on this.
    Mr. McInnis. I am sure she would be happy to supply it, Mr. 
Herger, afterwards, if you would like to meet with her.
    My only concern is I do have a second panel and some of 
these people have traveled some distance. I would like them at 
least to be able to put testimony onto the record.
    Mr. Holt and Mr. Inslee both have a couple of comments 
before we can conclude with this panel. So, let me proceed with 
Mr. Holt.
    Mr. Holt. Thank you, Mr. Chair. I actually have a 
particular interest in the Boundary Waters area. My colleague 
from Minnesota would like to set the record strait on a matter 
concerning that. I yield to my colleague.
    Ms. McCollum. Thank you, Mr. Holt. The gentleman perhaps 
did not hear, because I saved the best for last. The 
environmental community is working, they are set to go. We are 
ready to work together.
    Mr. Herger. Great, I wish they were back in '97 when our 
forests were burning up.
    Ms. McCollum. Well, sir, this is my time now. You misstated 
what I had said, so I wanted to set that straight. You also 
mentioned my State in the Wall Street Journal. I am looking at 
the article and I do not see Minnesota spelled out here at all.
    Mr. Herger. It is the Northern Region that I believe does 
include Minnesota, though.
    Mr. Holt. There are so many questions to cover here. It is 
an important subject. But Ms. Collins, a couple of points. With 
this study from the Forest Service that has been the topic of 
so much discussion this morning, an awful lot of the discussion 
has focused on the percent of the decisions that has been 
appealed.
    In this 48 percent appealed, are any of those appeals made 
on behalf of timber companies?
    Ms. Collins. I am sure they are. I am sure that we have a 
whole spectrum of appellants. Some are individuals who are 
local people who have an interest in it. I think if you look at 
that list you can see that it is a whole variety of people.
    Mr. Holt. Again, since so much of the discussion has dealt 
with the number of appeals that are made, and I should say, I'm 
not at all convinced that appeals are necessarily bad things. 
It can take years to clean these areas up.
    Ms. Collins. Right.
    Mr. Holt. So, to take some months or even years to get it 
right before the work begins is not necessarily a bad idea. One 
question is: What steps are you planning to take to lessen the 
chance that fuel reduction projects will be appealed, to get it 
right in the first place.
    Second, do you think that limiting fuel reduction work to 
the Red Zones, in other words, protecting the dwellings in 
particular, would reduce the number of appeals?
    Ms. Collins. I think first of all we are doing a whole lot 
of things. We put together a group of people that Tom Thompson, 
our Deputy Chief for National Fire Systems is leading to look 
at what is it that we need to be doing ourselves, because the 
Forest Service has got a lot of accumulated process that we are 
trying to sort out. We are certainly not innocent in this, too. 
We have a lot of work to do.
    We are also working with other agencies. I guess even this 
week the Council of Environmental Quality has indicated they 
are willing to look at their regulations. These regulations 
have been around 30 years or more and there are some things 
that we have learned.
    So, they are willing to look at that. We are working with 
the U.S. Fish and Wildlife Service on how we do consultation 
under the Threatened and Endangered Species Act. I think we are 
doing a lot of the work that needs to be done to try to 
facilitate and make our processes more effective.
    But specifically, we are doing our best. I'll tell you, 
people out there are working with what we have really hard. 
They are trying to bring people together early in the process. 
We are looking at whole landscapes. People understand the 
projects when they see them in the context of something larger. 
So, I think what we are doing is working really hard to almost, 
in some ways, work around difficult processes and make them as 
functional as we can.
    Mr. Holt. Let me rephrase the question a little bit. Of 
this 48 percent that are appealed, how many of those were in 
what would be called the Red Zone area?
    Ms. Collins. I don't have that information.
    Mr. Holt. Am I correct to assume that it would be a rather 
small percentage?
    Ms. Collins. Probably not. I would say it is more likely to 
be probably comparable to the percentage of projects that we 
have in the wildlife urban interface. Right now the number of 
projects the Forest Service has in the Wildlife Urban Interface 
is around 60 percent of our projects.
    Now, again, this 48 percent is just talking about 
mechanical treatments. It is not talking about prescribed 
burning, which is a tricky business in the wildland urban 
interface, unless you have just the right conditions.
    Mr. Holt. I would say it is probably appropriate that we 
would be talking about chin saw thinning in the Red Zone.
    Ms. Collins. Absolutely, in the Red Zone. And like I say, I 
think if 48 percent of our mechanical treatments are being 
challenged and 60 percent of our projects are in the wildland 
urban interface, it is probably not a small percentage.
    Mr. Holt. Thank you, Mr. Chairman.
    Mr. McInnis. Thank you.
    Mr. Inslee.
    Mr. Inslee. Thank you, Mr. Chair. I am sure that you would 
agree that there are occasions that the Forest Service needs an 
appeal. They make a mistake and need to get it fixed.
    Ms. Collins. Absolutely, you bet.
    Mr. Inslee. That probably happens, what over half the time? 
Do you have any way of knowing?
    Ms. Collins. Most of the time our appeals are sustained at 
a higher level. I think it is close to 90 percent.
    Mr. Inslee. I am not talking about litigation.
    Ms. Collins. No. I am talking about appeals.
    Mr. Inslee. No, I am talking about appeals in your internal 
structure. Let me stop there and ask you a different question. 
You talked about working with the community. I think that is 
very important. I appreciate we had to you are saying.
    I want to ask you a specific question about the Gila 
National Forest in New Mexico. In the sheep basin, the 
community worked for years to try to develop a fuels reduction 
plan, almost 3 years.
    What they tried to do is establish parameters as to what 
trees would be cut so they could be sure it was really a fuels 
reduction program instead of a disguised commercial timber 
sale. What happens there is despite 3 years of work, the Forest 
Service, and I will just read from the appeal: ``The most 
disturbing aspect of the Sheep Basin decision is the lack of a 
diameter cap for the logging of large and old trees. Two-thirds 
of the logging has no diameter cap at all while one-third is 
covered by a 24-inch cap, a huge tree for this area,'' and by 
the way that is, ``required by the Mexican Spotted Owl Recovery 
Plan.''
    ``There is no ecological justification for logging these 
mature and old growth trees given that over 90 percent of the 
trees in the Sheep Basin area are less than 12 inches in 
diameter.''
    Then later the appeal talks about the total absence of any 
attention to the wildland urban interface and quotes, ``The 
district Ranger's response to suggestions they think about that 
is 'although the wildland urban interface biological opinion 
considered some areas within the Nogredo Watershed, there are 
not proposals to treat these areas at this time.''
    Now, let me ask you a question. If the goal here is to have 
a fuel reduction program to remove the smaller trees and brush, 
to remove the fuel load that has grown up over the centuries 
because we suppressed, Democrats, Republicans, we were all with 
Smokey the Bear.
    And this stuff grew up for decades and decades. If the goal 
is to remove that smaller fuel and leave some bigger trees in 
the upper county so you have some forests as opposed to just 
cutting down all the trees, which is the ultimate fire 
suppression policy, in this forest, why didn't the Forest 
Service just say, yes, we are not going to cut over ``x'' 
diameter tree, No. 1, that is the first question I have for 
you.
    Second, why don't you do what Congress has been suggesting 
to you for years, which is to focus first on the wildland urban 
interface? I will let you answer and then I will follow up.
    Mr. McInnis. And we need to keep the answers brief because 
I really want to get to that second panel.
    Ms. Collins. Like I said before, I resist diameter limits 
for obvious reasons. I think they are misleading and not 
necessarily science-based and very, variable from site to site 
and species to species.
    Mr. Inslee. I understand they are variable, but why don't 
you set one for this forest? Why don't you set one that met the 
scientists?
    Mr. McInnis. Mr. Inslee, you have to allow her to answer 
the question.
    Ms. Collins. And I certainly would be happy, because we do 
have to be brief, and I appreciate that, to get you some 
information on that. I would really appreciate doing that in 
more detail.
    Mr. Inslee. Thank you.
    Ms. Collins. I don't have specific information about this 
project to be able to comment on it. Generally, we had to I 
will say is it has probably been in the works for a while. It 
has probably preceded the National Fire Plan when it was 
started.
    In addition to that, we have huge issues out in the 
ecosystem in terms of forest health concerns that are not in 
the wildland urban interface that we do continue to need to 
treat. That is why I sad to begin with that it is not an 
either/or. It is really some of both.
    Mr. Inslee. Let me just ask you one question and perhaps 
you can get back to me in writing. What I would like to know is 
why the Forest Service didn't pick a maximum diameter so that 
you could assure the citizens of the community that this was 
really a fuel reduction effort instead of a commercial logging 
effort in disguise?
    Why didn't you set a diameter that was specific to that 
environment? Perhaps you can get back to me and thank you very 
much.
    Ms. Collins. You bet.
    Mr. McInnis. Thank you, Ms. Collins. I want to thank the 
panel very much. I think your information this morning has been 
very helpful. We do look forward to future meetings at a 
mutually convenient time because the issue is just very, very 
critical.
    Thank you all. Once again, please thank the personnel of 
your departments that are out there on the fire line and the 
people that are supporting them. Let them know that we are all 
very, very proud of them.
    Ms. Collins. We appreciate that. Thank you.
    Mr. McInnis. I would like to call our second panel up. Mr. 
Hubbard with the Colorado State University; Dr. Bonnicksen with 
the Department of Forest Service, Texas A&M; Mr. Pearson, 
Executive Director, San Juan Citizens Alliance; Dr. Penny 
Morgan, Department of Forestry, and Mr. Michael Long, Associate 
Director, Florida Division of Forestry.
    I would like to begin with Dr. Bonnicksen.
    Just as a reminder for the panel, I will ask you each to 
make a 5-minute statement and we will--I won't be able to be 
here past noon, but we will continue the Committee hearing past 
noon at least to that point in time that you all get an 
opportunity to put your statements on record.
    So, Doctor, why don't you begin your statement, please?

  STATEMENT OF THOMAS M. BONNICKSEN, PROFESSOR, DEPARTMENT OF 
              FOREST SCIENCE, TEXAS A&M UNIVERSITY

    Dr. Bonnicksen. Thank you, Mr. Chairman. My name is Dr. 
Thomas M. Bonnicksen. I am a Professor of Forest Science at 
Texas A&M University. For 30 years my specialization has been 
the history and restoration of America's native Forests.
    I published the only book in existence that documents the 
18,000-year history of North America's forests and the role 
Native Americans played in their management.
    In essence, my view is that history really matters and 
nothing I have heard in the discussion today illustrates to me 
that we appreciate the importance of the history of our forests 
and the way we manage them. I also am somewhat disturbed, I 
guess, because I see in the media and I hear it in this room 
the idea that we should be concentrating our funds and our 
thinning efforts on the wildland urban interface, really 
meaning putting mile and a half wide fuel breaks around rural 
communities.
    I have to say, to speak frankly, that I think that is a 
cynical ploy. I think it is cynical because it plays on my 
feelings, your feelings, everyone's feelings of concern for the 
welfare and the property of the people who live in these 
communities. How could we feel otherwise?
    But it is playing on that sympathy. It is really a ploy. It 
is a ploy because it diverts our attention from the forests in 
between these communities where the real problem lies and it is 
an attempt to create in those forests idealized conditions that 
haven't existed in the North American forests for 120,000 
years.
    Let me explain. People want to see those forests unmanaged 
and untouched. That means thick and full of fuel. Our forests 
for 12,000 years in the Lower 48 States were managed by native 
peoples. They doubled the frequency of fire. This is the 
Holocene, more recent interglacial. 120,000 years ago, the last 
interglacial was called the Eemain. That was the most recent 
time when the climate was similar and people were not managing 
our forests.
    So, what people want to see in the area between these 
communities are forests that existed 120,000 years ago without 
people in them. I can tell you as an ecologist what kind of a 
forest that might be. That would be a forest in which fires 
were half as frequent because native peoples weren't here and 
therefore, more fuels had accumulated and fires were bigger.
    That is what is happening in the West and that is what is 
going to happen between these communities if we concentrate all 
our money on just those fuel breaks.
    Now, let me also point out that if we actually thinned our 
forests as they would have to be thinned to prevent those fires 
from brushing into these communities, which they will, not 
matter how wide the fuel breaks anyway, my calculation shows it 
would cost, assuming a 15 year fire cycle on average in the 
West, which obviously is more variable than that, about $60 
billion during the first 15 years to thin these forests, 73 
million acres, $60 billion.
    That is using numbers from the Sierra Nevada National 
Forest, mechanical hand thinning and prescribed burning.
    Do you know how much we spent in Fiscal Year 2001? $400 
million. Actually, only 13.8 percent of the budgeted amount in 
the Fire Plan. We are planning in 2002 of spending $395 
million. My calculations show that it would take us 150 years 
to thin these forests with that level of funding.
    Now, obviously, that is not going to be successful. There 
is also another problem. I don't want to thin 73 million acres 
of forest because that also ignores the history of these 
forests.
    Let me point out as a forest scientist that a diameter 
limit cut is not only non-scientific, it is bad forestry and it 
is ecological nonsense. What you create are forests with a 
canopy, nothing underneath, sterile, no diversity, but 
certainly less fire prone. That is a very bad idea.
    Instead of creating these engineered fire-resistant forests 
that are ecologically unsustainable, we should be looking to 
the history of these forests and using that as our guide. For 
example, forests historically were patchy; meadows, patches of 
young trees, patches of older trees with nothing underneath 
them, were virtually immune to hot fires.
    Only in those patches that had escaped fire by chance were 
the fires hot. This meant historically our forests had an 
ingenious, built-in ecological pattern that kept monster fires 
like those that we see today from occurring because as the fire 
flared up in one patch it would drop down to the ground in 
another one.
    In other words, little firebreaks were distributed 
throughout the historical forest and that kept monster fires 
from sweeping over vast areas.
    That patchiness is gone and without it we cannot stop these 
monster fires. So, what can we do? Well, let us use history as 
our guide. Let us stop thinking about diameter limit cuts. 
Let's find out what the forest looked like originally in its 
near monster fire immune condition and use whatever means are 
necessary to recreate the patchiness, the mosaic, of different 
age classes in that forest.
    To do that will stop the monster fires, increase the 
historic levels of adversity that existed in these forests and 
which we are losing. And, in addition to that, because we have 
to remove trees of commercial size, and I think ecologically 
that is unavoidable, we will reap the revenue necessary to help 
us pay the costs.
    I don't see any reason why we shouldn't be doing this. We 
create forests that look like they did historically. We reduce 
monster fires. We support local communities. We maximize the 
diversity of our forests and we even recreate the habitats that 
the endangered species have lost, and therefore accelerate the 
recovery of these species.
    Talk about win-win, history really matters and it can make 
the management of these forests a win-win situation for all and 
do what I think we have to do and that is protect the welfare 
and the lives of the people who live in these forests.
    Thank you.
    Mr. McInnis. Thank you, Doctor.
    [The prepared statement of Dr. Bonnicksen follows:]

           Statement of Dr. Thomas M. Bonnicksen, Professor, 
           Department of Forest Science, Texas A&M University

    My name is Dr. Thomas M. Bonnicksen. I am a forest ecologist and 
professor in the Department of Forest Science at Texas A&M University. 
I have conducted research on the history and restoration of America's 
native forests for more than thirty years. I have written over 100 
scientific and technical papers and I recently published a book titled 
America's Ancient Forests: from the Ice Age to the Age of Discovery 
(Copyright January 2000, John Wiley & Sons, Inc., 594 pages). The book 
documents the 18,000-year history of North America's native forests. A 
biographical summary is provided at the end of this written statement.
OUTLINE
    My written statement emphasizes the following six points:
    <bullet> LForests are deteriorating.
    <bullet> LWildfires are growing worse.
    <bullet> LNational Fire Plan is not working.
    <bullet> LPrescribed fire is not the answer.
    <bullet> LRestoration forestry will solve the problem.
    <bullet> LSuccess requires help from the private sector.
1. DETERIORATING FORESTS
    Our forests are shrinking at an alarming rate, especially in the 
South. Historically, native forests covered 45% of the lower 48 states. 
Since the late 1800s, about 12% of our forests have been scraped away 
for cities and farms, and losses are continuing as urban expansion 
accelerates.
    Forests also are rapidly deteriorating from within. Few forests 
retain their historic beauty and diversity. They are growing older and 
thicker, some reaching astronomical densities of 2,000 to 20,000 trees 
per acre. A forest can stagnate for many decades or even centuries 
under such crowded conditions. Consequently, plant and animal species 
that require open conditions are disappearing, streams are drying as 
thickets of trees use up water, and insects and disease are reaching 
epidemic proportions. Tree mortality in the United States increased 24% 
between 1986 and 1991, and forest growth declined by 2% during the same 
period. Competition for water, nutrients, and sunlight among densely 
packed trees explains some of the decline. Invasive non-native species 
also are causing serious damage to native forests.
    In addition, complete forest types are disappearing as shade 
tolerant species take over forests that fire used to keep open. In 
particular, white pine forests in New England no longer cover large 
areas, and few trees reach the size of those that existed at the time 
of European settlement. In addition, oaks are declining throughout the 
East because the forests are too thick for them to regenerate. Sugar 
maple and red maple are taking over many of these forests, including 
northern hardwood forests. Similarly, in the South shade tolerant 
hardwoods are replacing pine trees throughout their range. Likewise, 
the vast longleaf pine savannas that dominated much of the South are 
nearly gone. This loss is especially tragic because pine savannas had 
the highest species richness of any forest type in North America.
    In the Inland West, juniper is spreading within pinon-juniper 
woodlands and replacing grasslands in the Colorado Plateau and southern 
Rocky Mountain regions of northern Arizona and northern New Mexico. 
Because of increases in the density of pine and other conifers, aspen 
forests in Arizona and New Mexico decreased by 46%, and they are 
rapidly disappearing as a distinct forest type throughout their range. 
Rocky Mountain Douglas-fir trees are replacing ponderosa pine forests 
in much of the West while white fir is replacing Douglas-fir in the 
Southwest. Similarly, shade-tolerant spruce and fir are replacing 
lodgepole pine forests in the Rocky Mountains. Finally, white pine 
blister rust, mountain pine beetles, and the lack of fire to create 
openings for regeneration, have reduced western white pine forests to 
only 10% of their original area. Shade tolerant trees such as western 
redcedar, western hemlock, and grand fir are replacing what little 
remains of this once magnificent forest.
    Native forests also are being replaced in California and the 
Pacific Northwest. For instance, shade-tolerant white fir trees are 
replacing mixed-conifer forests in the San Bernardino Mountains of 
southern California and giant sequoia forests in the Sierra Nevada. 
Similarly, Douglas-fir forests are being replaced by shade-tolerant 
western hemlock in the Pacific Northwest and by white fir in northern 
California.
2. WILDFIRES GROW WORSE
    Monster fires are devouring trees and houses with unprecedented 
ferocity this year because our forests are so thick. Excess fuel causes 
these fires, not weather. Forests cannot burn without fuel no matter 
how hot, dry, and windy the weather.
    Less well known, but equally important, our forest are no longer 
patchy. Fire seldom spread over vast areas in historic forests because 
meadows, and patches of young trees and open patches of old trees were 
difficult to burn and forced fires to drop to the ground. Without them, 
fires are free to grow into the ravenous beasts we know today.
    During the last few weeks, the Rodeo-Chediski fire in Arizona 
consumed 468,638 acres of forest and destroyed 467 homes before being 
contained. The Hayman Fire in Colorado was also huge. This is just the 
beginning of a bad year in a string of bad years. The fire season has 
two months to go and already the number of acres burned is nearly 
triple the 10-year average.
    Since 1990, wildfires charred over 41 million acres, destroyed more 
than 4500 homes, and cost about $5.5 billion to fight. These fires 
burned significantly hotter than would have been the case in historic 
native forests. The forest fire menace is growing more serious each 
year and we are not using what we know to prevent it.
3. NATIONAL FIRE PLAN IS NOT WORKING
    In November of 2000, the General Accounting Office reported that 
tens of millions of acres of forest are at `` moderate to high risk 
from catastrophic wildfire and need to be treated.'' In response to 
this and other reports, and the disastrous fires of 2000, agencies in 
the Departments of Agriculture and Interior created the National Fire 
Plan. The 10-year Cohesive Strategy to carry out the plan includes 
firefighting, rehabilitation of burns, hazardous fuel reduction, and 
community assistance.
    The National Fire Plan is not working because it tries to do too 
much with too little money. Although all the plan's goals are 
important, hazardous fuel reduction is the key to success. However, 
only $400 million, or 13.8%, of the Fiscal Year 2001 budget of $2.88 
billion was spent on fuel reduction. The Fiscal Year 2002 budget only 
includes $395.2 million for fuel reduction. There is no chance whatever 
that this funding level will achieve adequate fuel reduction to prevent 
fires like those that burned in 2000 or 2002.
    The problem is even more serious because fuel reduction takes place 
in scattered locations and at a very small scale. Although helpful, in 
most cases the area treated is too small to be effective. 
Unfortunately, there is simply not enough money to do anything else and 
still achieve the other goals in the Plan.
    It is difficult to get reliable data to determine what it actually 
costs to do prescribed burning, and mechanical and hand treatments, to 
reduce forest fuels. The best data I found come from California 
National Forests and a few other places. Prescribed burning costs range 
from $200 per acre to $800 per acre. However, it costs much less to 
burn forests with little fuel, which is rarely the case. Mechanical 
treatments cost between $350 and $460 per acre. Hand treatments cost 
$525 to $1300 per acre.
    Approximately 73 million acres need treatment. Assuming that in 
most of these forests the same area burned once each 15 years on 
average, that means that each year about 4.9 million acres of seriously 
overstocked forest will have to receive an initial treatment. 
Subsequent maintenance treatments also must be done on a 15-year cycle 
since fuels will continue to accumulate. In short, the fuel reduction 
process will last forever. Likewise, the cost of treatments will last 
forever even though maintenance treatments are less expensive than 
initial treatments.
    So, what would it cost to do the job right? Using average costs, 
and assuming that most if not all forests will require mechanical or 
hand treatment before prescribed burning, and assuming that prescribed 
burning will be feasible on all acreage, the total cost for the initial 
treatment would be $59.9 billion, or about $4 billion per year for 15 
years. At the current rate of funding for hazardous fuel reduction, it 
would take 150 years to complete the initial treatments. Even if it 
cost only a quarter of this a year it would still take nearly 40 years. 
By then fuel accumulations on the areas treated first would be almost 
as bad as they are today. In other words, the National Fire Plan would 
waste billions of dollars and local communities would still be 
vulnerable to wildfires.
4. PRESCRIBED FIRE IS NOT THE ANSWER
    Prescribed fire would come closer than any tool toward mimicking 
the effects of the historic Indian and lightning fires that shaped most 
of America's native forests. However, there are good reasons why it is 
declining in use rather than expanding. Most importantly, the fuel 
problem is so severe that we can no longer depend on prescribed fire to 
repair the damage caused by over a century of fire exclusion. 
Prescribed fire is ineffective and unsafe in such forests. It is 
ineffective because any fire that is hot enough to kill trees over 
three inches in diameter, which is too small to eliminate most fire 
hazards, has a high probability of becoming uncontrollable.
    The danger of escaped fires, such as the tragic Los Alamos fire, 
also poses a serious constraint on prescribed burning because of the 
hazards to human life and property. On average, a prescribed fire is 
likely to escape control for each 20,000 acres burned. That means there 
could be as many as 243 escaped fires a year given the number of acres 
burned to carry out the National Fire Plan. This is unacceptable since 
there are nearly 94,000 homes at risk in just the Sierra Nevada. It is 
unknown how many homes are at risk throughout the West. Not only that, 
there are very limited opportunities when all of the factors such as 
fuel loading, fuel moisture, existence of defensible perimeters, 
temperature, and wind are at levels that make it relatively safe to 
conduct a prescribed burn.
    Finally, prescribed fire can also be destructive in forests that 
are not too thick to burn. Dense piles of litter that built up for more 
than a century now surround large old trees in many forests. Burning 
this litter, even with a very light fire, sends enough heat into the 
soil to kill the largest trees by cooking their roots. This is 
unnatural and it is already happening to thousands of valuable old 
trees in the Sierra Nevada as well as in Southwestern ponderosa pine 
forests.
    Prescribed fire is an essential tool, but it is still expensive, 
costing about $1.5 billion a year to treat the required acreage in the 
National Fire Plan. In addition, the unsightly pall of wood smoke 
hanging over mountains and valleys, burning eyes, health hazards, and 
air pollution restrictions also will prevent widespread and frequent 
burning even as maintenance treatments. For example, Colorado had to 
restrict prescribed burning because Denver must reduce power generation 
to comply with Federal laws whenever wood smoke hangs over the city. 
There are also too few trained personnel available to conduct the 
burns. Therefore, it is unlikely that we will ever be able to add 4.9 
million acres of prescribed burns a year to the acreage already being 
burned for slash removal and other purposes.
5. RESTORATION FORESTRY WILL SOLVE THE PROBLEM
    Restoration forestry provides the best hope for returning health to 
our native forests because it uses their ecological history as a model 
for management. The native forests that European explorers found 
provide excellent models because of their beauty, diversity, and 
abundance of wildlife. Most historic forests also were resistant to 
monster fires.
    Restoration forestry is defined as restoring ecologically and 
economically sustainable native forests that are or, after reasonable 
restoration, will be representative of prehistoric or historic 
landscapes significant in history and culture that also serve a 
society's contemporary need for forest products and services.
    The goal of restoration forestry is to restore and sustain, to the 
extent practicable, a historic forest to a condition that simulates or 
resembles the structure and function of a reference native forest. The 
term ''reference native forest'' means the way a whole forest appeared 
spreading over a landscape, with all of its diversity, at or about the 
time it was first seen by explorers. A reference native forest does not 
represent a particular point in time. It represents a period of time 
and the variations in forest structure that were characteristic of that 
period.
    The pre-European, and post-Native American, settlement forest 
provides the most scientifically sound reference forest for the United 
States. Such a reference native forest is inherently sustainable and 
diverse, it represents thousands of years of ecological development and 
human use, and it existed during a period with similar variations in 
climate.
    The pre-European settlement forest mosaic is the key to restoration 
forestry and the solution to the wildfire problem. Unlike the popular 
idealized image of historic forests, which depicts old trees spread 
like a blanket over the landscape, a real historic forest was patchy. 
It looked more like a quilt than a blanket. It was a mosaic of patches. 
Each patch consisted of a group of trees of about the same age, some 
young patches, some old patches, or meadows depending on how many years 
passed since fire created a new opening where they could grow.
    The variety of patches in historic forests helped to contain hot 
fires. Most patches of young trees, and old trees with little 
underneath did not burn well and served as firebreaks. Still, chance 
led to fires skipping some patches. So, fuel built up and the next fire 
burned a few of them while doing little harm to the rest of the forest. 
Thus, most historic forests developed an ingenious pattern of little 
firebreaks that kept them immune from monster fires. Science recently 
confirmed the effectiveness of this historic pattern.
    Today, the patchiness of our forests is gone, so they have lost 
their immunity to monster fires. Fires now spread across vast areas 
because we let all patches grow thick, and there are few younger and 
open patches left to slow the flames. That is what is happening 
throughout the West.
    This is even more serious because monster fires create even bigger 
monsters. Huge blocks of seedlings that grow on burned areas become 
older and thicker at the same time. When it burns again, fire spreads 
farther and creates an even bigger block of fuel for the next fire. 
This cycle of monster fires has begun. Today, the average fire is 
nearly double the size it was in the last two decades and it may double 
again.
    Restoration forestry can dramatically reduce monster fires by 
simulating the dynamic character of historic native forests. This means 
maintaining the historic range of variation in patches of fire 
resistant open older and younger trees within the forest mosaic. Thus, 
restoring historic native forests will reduce threats to local 
communities from wildfire by providing a system of fire resistant 
patches that act as firebreaks strategically dispersed throughout the 
forest mosaic. In short, restored forests would look and behave in much 
the same way as historic forests. They also would be healthy, diverse, 
sustainable, attractive, and nearly immune from monster fires.
6. SUCCESS REQUIRES PRIVATE SECTOR HELP
    Unlike the fire resistant forest envisioned in the National Fire 
Plan, the goal of restoration is to restore and maintain an 
ecologically and economically sustainable historic forest. Thus, 
restoration focuses on whole forests and everything that lives in them, 
not just their resistance to fire. In contrast, the fire resistant 
forest is not natural, and it does not look natural. A restored forest 
looks and behaves naturally, and it has all the benefits of diversity 
and sustainability inherent in the original native forest. Not only is 
the restored forest ecologically superior, it also is just as safe as a 
fire resistant forest.
    In addition, the fire resistant forest has a fatal flaw. No one 
will pay the enormous cost. An unending stream of tax money is required 
to sustain a fire resistant forest. That means spending about $59.9 
billion for the first 15 years and about $30.8 billion for each of the 
following 15-year maintenance cycles. The exorbitant cost in public 
funds needed to create and maintain these fire resistant forests 
ensures failure.
    Even concentrating mile-wide fuelbreaks around communities to save 
money will not work. Surrounding communities with fuelbreaks, and 
ignoring the area in between them, guarantees that our forests will be 
sacrificed to monster fires. This is a defacto ``let-it-burn'' policy. 
So, the question is do we want restored forests or an unending cycle of 
monster fires and blackened landscapes.
    It would take a minimum of public funds to restore a fire resistant 
historic forest, and it would come close to supporting itself 
indefinitely. The reason the restored forest is economically viable is 
that it involves a long-term partnership with the private sector.
    People who make their living from forests have the expertise and 
desire to participate in reducing threats from wildfire, and they have 
the equipment and processing facilities. They are also highly educated, 
skillful, creative, and responsible professionals who can be trusted to 
help with this important job. Their help would dramatically reduce the 
use of appropriated funds so that restoration occurs on a meaningful 
scale. It would also provide society with essential goods and services 
and create much-needed jobs in rural communities.
    Like the fire resistant forest, the restored forest requires hands-
on management. However, restoration involves more than just thinning 
and burning. It requires cutting trees of all sizes. However, the 
decision to remove or leave an individual tree, regardless of size, 
depends on what is necessary to restore and maintain an ecologically 
and economically sustainable historic forest. In other words, 
restoration forestry is a different kind of forestry. It requires 
mimicking nature rather than engineering a forest to maximize the 
production of wood. Nevertheless, the amount of wood produced must 
still be sufficient to support the effort.
    Restoration requires removing patches of trees of certain ages and 
sizes in about the same number as would have been killed historically 
by fire, wind, insects, disease, and other disturbances. The removal of 
trees from one patch provides an opening that allows a younger patch to 
begin developing in its place. Even so, the number of patches removed 
would usually be less than what would have been lost historically to 
accommodate unpreventable losses from natural disturbances. Thus, the 
forest landscape continually changes while the proportion of older and 
younger forests in the mosaic varies within a relatively stable range.
    Historically, the size of patches differed by forest type. Pacific 
Douglas-fir forests had large patches and mixed-conifer and ponderosa 
pine forests had small patches. Larger patches also tended to be 
relatively long and narrow with an uphill orientation. That means that 
restoration forestry also strives to simulate the size, shape, and 
orientation of patches on the landscape that historical disturbances 
created in particular forest types.
    In addition, lethal fires and other major disturbances usually 
killed all of the trees in a small patch but they rarely did so in a 
large patch. That means leaving behind stringers of living trees and 
scattered individuals in large patches during restoration. Similarly, 
some dead trees remained standing after a historic fire passed and 
others lay in heaps on the ground. These dead trees helped to replenish 
soil nutrients and provide homes for wildlife. Therefore, restoration 
involves leaving behind adequate amounts of standing and fallen dead 
trees so that they are part of the restored forest just as they were 
part of the historic forest.
    The systematic removal of patches of trees to create new patches is 
the secret to ecological and economic success. Not only do the trees 
provide revenue and wood, but they do so in a predictable and sustained 
manner. Still, the frequency and effects of historical disturbances 
would determine the number and size of trees cut. Even so, the supply 
of raw material would be consistent and continuous. Restoration is a 
long-term commitment to both forests and the people who manage them. 
This will encourage the private sector to invest in the plant, 
equipment, and personnel needed to help us restore our native forests 
and solve the wildfire problem.
                                 ______
                                 
    Mr. McInnis. Mr. Hubbard.

   STATEMENT OF JIM HUBBARD, COLORADO STATE FOREST SERVICE, 
                   COLORADO STATE UNIVERSITY

    Mr. Hubbard. Thank you, Mr. Chairman and Members of the 
Committee. I can't cover what Colorado has been through in 5 
minutes, but I will try. My focus will be on Colorado even 
though the issues are not unlike much of the West.
    For us, it has been the worst fire season in history. Our 
10-year average is to burn 71,000 acres. We are at 364,000 and 
counting. That is five times our 10-year average. We are at 46 
large fires that have gone beyond initial attach.
    We have spent $110 million on suppression costs. We have 
evacuated 126 subdivisions, 77,000 people. We have burned 366 
homes, 981 structures. That is $80 million compared to our 
previous high loss of $18 million.
    We have water quality issues, air quality issues, habitat 
issues, tourism issues, all as a part of this. My point is this 
gives us even more a sense of urgency to do something in 
Colorado.
    Even with this, 99.5 percent of our fires have been 
suppressed with initial attack. We have good firefighters doing 
a good job in a dangerous situation. Drought has contributed 
but drought isn't our primary factor is forest condition.
    With or without drought, our forests in the west are ready 
to regenerate because of age, because of density, because of 
vigor, because of low fuel moisture. We worry when our fuel 
moisture in trees gets below 10 percent. It is common now to be 
4 percent, even as low as 2 percent. That is dry. It is going 
to burn. It is going to behave more erratically than we are 
used to.
    We are especially concerned when you put people and 
property in the way, the interface. We have to address the 
interface. There are some individual responsibilities, of 
course, but it has to be in the landscape context or we can't 
protect those communities.
    I have attached a map to the testimony which shows you the 
Hayman Fire. One such treatment on the northeast edge of the 
Hayman Fire was an 8,000-acre prescribed fire done a year ago. 
When Hayman hit that prescribed fire along with an earlier 
season fire in the same area, that spread stopped. That spread 
stopped on an afternoon when we were in the process of 
evacuating 40,000 people.
    If that had gone further and merged with the other head 
coming around Cheeseman Reservoir, we would have evacuated 
40,000. It is strategic placement of treatments around homes, 
but beyond that within the ecosystem. What do we need to do? We 
need to deal with fuels. We need to coordinate our firefighting 
and we need to deal more effectively with rehabilitation. We 
are going to have some major problems in Colorado with 
rehabilitation.
    Fuels is what I would like to talk about the most. If we 
don't treat this forest we can't protect these subdivisions and 
it does have to be on a landscape scale. A lot of debate about 
where we have treated and why we have treated. I think there 
are answers to those questions, but perhaps what we do need to 
find is a way of coming together on interface. What that means, 
where and how we treat in the interface.
    Perhaps we set up some guidelines, some best management 
practices, a form of communication different than we have now. 
This is not a logging issue in Colorado. It is a land 
management issue. It is a land management issue. It is a life 
and property protection issue.
    We have to prioritize. All agencies, not just the Federal 
Land Management Agencies under Federal land, but the State and 
the locals working with them, not just on fuels treatment, but 
on preparedness for firefighting, on rehabilitation and 
restoration.
    Going back to the map to talk about rehabilitation for a 
minute, if you look to the north, to the top of that, you see 
the Buffalo Creek Fire. That was a 12,000-acre fire. Strontia 
Springs Reservoir is in the upper right-hand corner. That is 
the collection reservoir for the Denver Water Board that serves 
three million customers in the city of Denver.
    Following the Buffalo Creek Fire, with a two-inch rain 
event, we put more sediment in Strontia Springs than in the 12 
years of its previous existence. Denver Water spent $20 million 
treating and dredging to supply those three million customers.
    Hayman is 137,000 acres. It completely surrounds Cheeseman 
Reservoir, a much larger collection reservoir for Denver water 
and it goes right down the South Platte River. We are going to 
have some serious problems. One of our problems is hydrophobic 
soils. When we have our forests burn this hot on those soils, 
it puts a crust on those soils. It is impermeable. The water 
runs off. With a small rain event, a lot of water runs off.
    We are going to have to deal with those kinds of 
situations. We don't need more large fires to give us more of 
those kinds of problems.
    One other point, on appropriations, we have touched on that 
a little bit. I have provided the Committee with a pie chart of 
the appropriations for the National Fire Plan showing the 
percentage for the 2002 appropriation. I am not suggesting that 
any of those area's preparedness for fighting fire, which is 
the largest at 60 percent, be reduced because we still which 
will have to fight large fires in the West.
    But I am suggesting that we don't have enough money. I am 
suggesting that it isn't as balanced as it should be at this 
point. We haven't yet dealt with the issue of emergency 
suppression like we should, not effectively, and how we finance 
that. That effects a lot of other programs, including hazardous 
fuel reduction.
    So, without going into a lot of detail, I would suggest 
there are some issues there that need to be addressed and how 
we deal with that appropriation.
    When there are smoke and flames in the air, I am always 
asked. ``What are the fires doing?''
    So, you tell people what the fires are doing and why they 
are doing it, what has happened here and what has gone on in 
the past to bring us to this point.
    But then it gets down to who is to blame. Well, my answer 
to that is the condition of the forest is to blame and we are 
going to have to address the condition of the forest. We are 
going to have to protect lives and property, give firefighters 
a chance to deal with that and it has to be in a landscaped 
context.
    So, what do we do? We implement the National Fire Plan, all 
lands, full involvement, long term. We have to fight fire. We 
have to determine how and where to treat in the interface and 
in the ecosystem.
    Thank you.
    Mr. McInnis. Thank you, Mr. Hubbard. Mr. Hubbard, I 
appreciate the job you are doing for us out there in Colorado.
    [The prepared statement of Mr. Hubbard follows:]

       Statement of James E. Hubbard, State Forester of Colorado

    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Jim Hubbard and I am the State Forester and Director of the Colorado 
State Forest Service (CSFS). The responsibilities of CSFS employees 
involve providing expert advice and technical assistance to non-federal 
landowners and communities in the areas of forest management; insects, 
disease and other forest health issues; urban forestry; conservation 
education and, of course, fire protection.
    Since the end of April, the focus of nearly all of our employees 
has been on responding to wildfire through direct suppression, through 
mitigation assistance to worried homeowners, through coordination and 
training of local resources as it spreads northward through the state.
    The statistics from the 2002 Fire Season are already record 
setting, not only in terms of acres and cost but in risks to lives, 
property and essential community infrastructure. Given the current 
drought and condition of the forest, these numbers are hardly 
unexpected. But if we cannot collectively find a way to treat the 
hazardous fuels that are feeding these fires, across boundaries and on 
a meaningful scale, this season's statistics threaten to become the 
rule rather than the exception.
Colorado's 2002 Fire Season So Far
    Beginning with the Snaking Fire in April, Colorado has recorded at 
least 1,046 fires that have burned 364,000 acres at a cost of $100 
million. This compares to the state's ten-year seasonal average of 
3,119 fires and 70,770 acres. Seventeen of these fires exceeded county 
capability and invoked the state's Emergency Fire Fund (EFF). Fourteen 
fires have been declared FEMA incidents indicating imminent and 
substantial threat to life and property. Five of the state's largest 
fires in recent history have occurred this season.
    An estimated 77,000 Colorado residents have been evacuated from 
their homes for periods of a few days to several weeks. Three hundred 
sixty-six homes have been lost as well as 981 other structures. This 
damage has resulted in costs to the insurance industry in excess of $80 
million many times greater than the previous high of $18 million 
following the Hi Meadow and Bobcat Fires.
    Twenty-five percent of large fire damage has occurred on private or 
other non-federal land where technical and financial assistance for 
emergency and long-term rehabilitation are much harder to come by.
    Wildfires impacts on vital resources such as water quality and 
supply, air quality, wildlife and their habitat, local infrastructure 
and economies and recreation opportunities have also been staggering. 
Due to the early start of the fire season, wildlife biologists are 
discovering heavy impacts from the blazes, particularly among young and 
newborn animals. At least two herds of elk were trapped and killed in 
the Hayman Fire. And critical fish habitat will suffer from increased 
water temperatures, immediate sedimentation, changes in water chemistry 
and impacts on prey base.
    The Denver Water Board, which supplies drinking water to 3 million 
customers, is bracing for rehabilitation costs around Cheesman 
Reservoir in excess of $100 million. The 1996 Buffalo Creek Fire 
occurred 3 miles north of the Hayman site and burned 12,000 acres in a 
sub-drainage of the South Platte River. Since that time, Denver Water 
has spent more than $20 million to address subsequent sediment and 
debris. By comparison, the Hayman Fire has consumed 137,000 acres in 
the river's main drainage and on all sides of the city's primary water 
collection reservoir.
    The most amazing success story of the 2002 season is the fact that 
98 percent of reported fire starts have been contained through initial 
attack by local resources. Without the effectiveness of these 
firefighters, many of whom are volunteer, Colorado would have many more 
large fires with which to contend. Governor Bill Owens recognized the 
severity of the fire season very early and authorized funding for 
additional resources to strengthen the state's initial attack 
capability. This assistance has provided much needed air support, as 
well as additional regular and inmate crews, to bolster local 
capability.
Why Is This Season So Bad?
    Many of Colorado's forests are unnaturally dense, concentrated in 
older age classes and vulnerable to insect and disease attack, 
catastrophic wildfire and other types of damage at an inordinately vast 
scale. They are, in fact, waiting for this type of regenerative 
disturbance to rejuvenate and diversify forest structure. Decades of 
fire exclusion have left so much fuel in the forest that when 
disturbance does occur, it often happens at a scale that devastates the 
landscape rather than revitalizing it. Drought further exacerbates 
these conditions by reducing even live grasses, shrubs and trees to 4 
percent fuel moisture drier than kiln dried lumber and far below the 10 
percent level that triggers alarm among western fire managers.
    At least one million Coloradoans live within these high-risk 
forests in areas commonly referred to as the wildland-urban interface 
(WUI) or, in Colorado, as the Red Zone. Since April, thousands of 
interface residents, on both sides of the Continental Divide, have been 
evacuated from their homes and forced to spend much of their summer in 
shelters or with family and friends wondering if their property will 
survive.
    The risk to human safety grows exponentially in the complicated 
interface environment. Local fire departments, both municipal and 
volunteer, provide initial attack on most of the state's interface 
fires. These first responders arrive facing the need for evacuations, 
subdivisions with inadequate access, lack of available water supply and 
structures built with highly combustible materials. This already 
confusing situation becomes even more difficult on large fires when 
local resources transition to interagency teams for extended attack.
    A substantial body of research shows that forest management 
activities such as thinning and prescribed burning can significantly 
mitigate wildfire risks in the interface. The challenge is to implement 
these treatments on a meaningful scale. The attached map showing the 
boundaries of the Hayman Fire demonstrates the potential for treatment 
areas to slow even extreme fire behavior. On the northeast flank of the 
fire, the previously burned sites of the Schoonover Gulch Fire and the 
Polhemus Prescribed Fire stopped the main head of the Hayman Fire from 
spreading. This occurred on a day when plans were in place to evacuate 
40,000 homeowners in the fire's path.
    The CSFS, in partnership with Federal agencies and local 
contractors, has assisted hundreds of landowners with mitigation on 
more than 10,000 high-risk acres. In some cases, this has resulted in 
treatment of entire subdivisions, including perimeter fuel breaks. But 
most often it involves fuel reduction on individual properties, which 
remain at risk from untreated areas on adjacent private, non-federal 
and Federal lands.
    The fire behavior seen in Colorado this season has important 
implications for those considering how best to mitigate wildfire risks 
to communities in the interface. The intensity of the state's large 
fires is such that a home, a subdivision or even a community could not 
be protected if fuel reduction activity had not occurred across the 
larger landscape as well as around individual properties. In the West, 
this means we need to be more aggressive in treating Federal lands in 
proximity to interface communities or vital community infrastructure.
    In order to truly reduce wildfire risks to communities and restore 
fire as a more natural part of the ecosystem, treatment must occur 
across boundaries, on a landscape scale and over the long-term. 
Existing environmental clearance processes take so long that Federal 
agencies are not able to keep pace with the protection requirements of 
the interface.
    The level of activity needed will require support and involvement 
from local communities and an approach to development and 
prioritization of projects that incorporates local protection 
priorities and preferences for treatment options. There is agreement 
across a spectrum of interests that the risk to life, property and 
communities in the interface must be reduced. We must find a way to 
harness that agreement and use it to inform a new kind of project 
review process that facilitates greater and more timely work on the 
ground.
    The wildland-urban interface is a set of conditions that is 
particular to each state's combination of people, geography and fuels. 
The interface definition previously published in the Federal Register 
allows states the necessary flexibility to identify their own high-risk 
areas within national guidelines. Project implementation will be 
further expedited by adopting the Federal Register definition and by 
allowing states to prioritize treatment activity and resources 
according to local assessments of values-at-risk whether that means 
action within a subdivision or in the surrounding watershed.
What Is Needed to Protect Western Communities in the Short-Term?
    In the short term, interface communities across the West would 
benefit from accelerated hazardous fuel treatment across boundaries, 
genuine and active coordination between local, state and Federal 
response entities, emergency rehabilitation assistance and greater 
focus on synthesis and application of interface research in the 
intermountain West.
    Implementation of hazardous fuel treatments across the landscape 
could be accelerated through the cooperative development of Best 
Management Practices (BMPs) for activity in the interface. This kind of 
collaboration could simplify the clearance process for Federal 
activities by facilitating needed agreement on priorities and 
principles for mitigation and for subsequent action on a meaningful 
scale.
    Coordination between local, state and Federal fire management and 
response agencies must also be improved in the short term, specifically 
in the prioritization of fuel treatment projects, the strengthening of 
initial attack efforts, the delivery of program assistance to volunteer 
fire departments and the integration of available resources for 
extended attack in the interface. Congressional direction that 
prioritizes related appropriations according to this kind of multi-
level coordination could assist in promoting action. The new Wildland 
Fire Leadership Council (WFLC) is a good coordination model and the 
Chairman is to be commended for his support of this effort. But non-
federal involvement in the Council must remain strong and similar 
coordination must occur at the regional and local levels as well.
    Colorado, alone, has emergency fire rehabilitation needs in excess 
of $50 million. For private landowners, the NRCS's Emergency Watershed 
Protection Program is the only source of rehabilitation assistance. 
This program is currently unfunded and needs to be replenished 
immediately to meet existing and future demand from the 2002 season.
    Finally, the Interior West has a serious need for a synthesis of 
current science on mitigation and response to interface fire under 
existing extreme conditions. This compilation and analysis of research 
should address fire behavior, utilization of products from fuel 
treatments and a new approach to integration of firefighting resources 
in the interface. Congress could address this need on a short-term 
basis by establishing a focused center for interface training and 
research.
What Is Needed To Reduce Wildfire Risks Over The Long-Term?
    The Ten Year Comprehensive Strategy and Implementation Plan, 
recently endorsed by the Secretaries of Agriculture and Interior and 
the Western and Southern Governors' Associations, lays out an excellent 
long-term plan for reducing risks to communities and restoring fire-
adapted ecosystems. I encourage Congress and the Administration to work 
together to ensure that the necessary funding and support are provided 
to carry-out the specified activities in these documents.
    Community involvement in the planning, prioritization and 
implementation of wildfire risk reduction projects on both Federal and 
non-federal land is a key component of the Ten Year Strategy. The 
Community and Private Land Fire Assistance (CPLFA) Program, authorized 
in the 2002 Farm Bill, provides the ideal combination of planning, 
technical and financial assistance to facilitate this involvement. 
Although it was funded at $35 million in the Fiscal Year 2001 Interior 
Appropriations Bill, the CPLFA is currently unfunded in Fiscal Year 
2003 bills moving through both the House and Senate. I urge 
Subcommittee members to work with their colleagues to restore funding 
to this vital component of the National Fire Plan (NFP) in the House 
Appropriations Bill and to increase the overall emphasis in NFP funding 
from preparedness and suppression to community assistance and long-term 
restoration.
    I further encourage Congress and the Administration to recognize 
the emergency nature of suppression costs and appropriate funds needed 
above and beyond regular budgets on an emergency basis. Asking agencies 
to rob fuel treatment, community assistance, restoration or related 
National Fire Plan accounts to cover these costs will only hinder the 
implementation of a balanced, long-term fire program as described and 
agreed to in the Ten Year Comprehensive Strategy.
Conclusion
    The condition of Colorado's forests and the accompanying risk from 
wildfire took more than a century to develop. It is not something any 
single agency can solve alone and it will not be restored overnight. 
But we must begin immediately to increase our risk reduction activity 
in the wildland-urban interface. Land management agencies and related 
interest groups must come together at local, state and national levels 
to establish agreement on guidelines and priorities for treatment and 
then move rapidly to accelerate action on the ground. Better 
coordination of interface suppression response among all jurisdictions 
will further improve community protection. And, ultimately, we must 
work at all levels to establish a mechanism for long-term commitment to 
protecting life, property and natural resources.
                                 ______
                                 
    Mr. McInnis. Mr. Pearson. I never thought you guys were 
going to get a break down there in Durango.

        STATEMENT OF MARK PEARSON, EXECUTIVE DIRECTOR, 
              SAN JUAN CITIZENS ALLIANCE, COLORADO

    Mr. Pearson. Well, if you will permit me, I did bring a few 
photos of the Missionary Ridge Fire.
    Mr. McInnis. Smoke plumes, you know you think you see one 
and then you think, well, there won't be more of those and they 
just kept coming and coming. Our thoughts were sure with you 
down there. I appreciate your coming all this distance in light 
of these circumstances to present some testimony.
    So, you may proceed and we will pass these photos around.
    Mr. Pearson. Thank you very much, Mr. Chairman. My name is 
Mark Pearson. I am Executive Director of the San Juan Citizens' 
Alliance which is a Durango-based citizens conservation group 
of about 500 southwest Colorado residents.
    We have monitored and participated in Forest Service 
planning and management decisions in the San Juan Forest for 
the past 15 years. As you will note from some of those photos, 
like many of us in Durango, we have had an involuntary front 
row seat to the Missionary Ridge Fire that by last week had 
burned across approximately 73,000 acres of the San Juan 
National Forest, but the last few days of rain and the arrival 
of the monsoons have pretty well damped that fire.
    But the fire has occurred under historic drought 
conditions. Until last week we had received just one inch of 
precipitation since the start of a year when normally we would 
have over seven inches by now.
    As the Chairman has noted, standing trees in the San Juan 
Mountains currently have less moisture than kiln dried boards 
at lumber stores.
    Prior to Missionary Ridge, in the 137 acre Hayman Fire near 
Denver, the record fire in Colorado was another San Juan blaze. 
The Lime Creek burned in 1879. The tinderbox conditions that 
permitted our moist San Juan Forest to burn at high elevation 
in June of 1879 were recreated this year.
    We have only got 107 years of rainfall records in the 
southwest, so in 1879 we are somewhat extrapolating, but 
apparently that was probably the last year as dry as the year 
we have had this year.
    One of those photos is the picture of the smoke column that 
occurred at three o'clock in the afternoon of June 24th when 
the fire exploded out of the top of Haflin Creek, which is one 
of the steep canyons that drops into the Animas Valley. That is 
the one that spurred authorities to tell us to skedaddle and we 
spent a week out of our homes.
    That cloud actually broke the fire lines and surged down 
hill toward the subdivisions, but it hit Aspen stands where it 
dropped to the ground and some intensive work by air tankers 
and helicopters and ground crews and bulldozers restored the 
defensive perimeter there.
    You can tell that a lot of the forest that burned is a 
mixed conifer and aspen forest. A lot of the foresters locally 
are predicting that much of the Missionary Ridge Fire will come 
back as a massive stand of aspen. In this respect it is 
probably similar to the many fires that burned in the 19th 
Century that probably established the landscape that we see 
today and the vast tracks of aspen forest that characterize the 
San Juans.
    One of the key strategies that fire commanders use on 
Missionary Ridge and at Hayman was to try to direct the fire 
toward wilderness areas where it would be far away from homes 
and property.
    The presence of the Weminuch Wilderness on the northern 
edge of Missionary Ridge allowed fire commanders to focus their 
efforts protecting the homes and property that was on the south 
flanks of the fire and they were able, the commanders were able 
to essentially pinch and nip at the fires edges and push it so 
that it went north into the wilderness area.
    The San Juan National Forest has geared up the past 2 years 
to implement the 2000 National Fire Plan. They have at least 18 
fuels reduction and thinning projects near rural subdivisions 
that are planned in addition to their prescribed burns. There 
were four projects that they had planned to do this summer that 
were either on the edge or within the boundary of the 
Missionary Ridge fire as the map that you have indicates.
    The Vallecito Project, for example, had planned to thin 
Ponderosa Pine, White Federally recognized and Oak brush on the 
east side of the reservoir there to produce hazardous fuels 
adjacent to private land and the camp grounds just before the 
fire occurred. The San Juan has also got an aggressive program 
of prescribed burns near Durango.
    Last April they burned 1,000 acres on the north edge of the 
city in the log chutes area. So, we think our forest is doing a 
really good job at implementing the National Fire Plan. They 
are focusing their money and staff on projects in those places 
that are close to homes where local homeowners and fire chiefs 
agree that the risk of wildfire is severe.
    We have also seen that with the Missionary Ridge fire that 
the advice that we have heard time and again from fire chiefs 
and Forest Service scientists is correct, that the single most 
critical element to saving a home is what you do within 100 
feet surrounding that house.
    So, our county commissioners are now grappling with what 
kind of changes they should make to their land use codes and 
building requirements to make sure that the roads are adequate 
for fire trucks, that they have enough water supplies and to 
try to minimize the problems that firefighters encounter trying 
to fight the fires in the subdivisions.
    I think one other thing that is interesting about the whole 
issue of what is appealed and how many appeals there have been 
and so forth comes into play when you look at the risk of 
projects that any forest has out.
    This is the list of projects from the San Juan. About half 
of the fuels reduction projects are done as categorical 
exclusions which means you can't appeal them. So, they don't 
show up in anybody's list of statistics.
    The other half is done with environmental assessments, 
which, of course, you can appeal. One thing that is pretty 
interesting is that each ranger district does it different. The 
Manco Stolores District, all of their projects are done with 
environmental assessments.
    Then you go over the hill a little ways to around Durango 
and then most of the projects there are done with categorical 
exclusions which cannot be appealed. So, there doesn't seem to 
be consistency within even a particular forest on how they 
address these kind of projects.
    I think looking at some of those issues may help illuminate 
the whole question of appeals and what has taken long and what 
hasn't.
    Thank you very much. I appreciate the opportunity to be 
here.
    Mr. McInnis. Thank you, Mark. The photos are pretty 
illustrative. You tell the crowd these plumes that Mark 
experienced down there in Durango would go 40, 50, 60,000 feet 
in the air. They actually form an ice cap on top of them. That 
forces it down, which I had no idea, and I thought I was fairly 
knowledgeable in the area.
    Then it collapses and implodes. They have some videotape in 
your community where it was snapping 36-inch diameter trees 
like toothpicks when the wind came out of the bottom of the 
plume. You guys went through a lot down there. We appreciate 
your coming out.
    Mr. Pearson. Thank you.
    [The prepared statement of Mark Pearson follows:]

            Statement of Mark Pearson, Executive Director, 
                       San Juan Citizens Alliance

    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Mark Pearson. I am executive director of the San Juan Citizens 
Alliance, a Durango-based citizens conservation group of about 500 
southwest Colorado residents. We have monitored and participated in 
Forest Service planning and management decisions on the San Juan 
National Forest for the past 15 years. I greatly appreciate the 
opportunity to participate in this hearing to update Members of 
Congress on the status of the 2002 Wildland Fire Season. We who live in 
Mr. McInnis' district, and who live in and around Durango, have a 
particularly keen interest in wildland fires this year.
    By the end of last week, the Missionary Ridge fire had burned 
across approximately 73,000 acres of the San Juan National Forest 
outside Durango. Like many of my friends and neighbors in Durango, I've 
had an involuntary front row seat to the fire. I was evacuated from my 
home for one week during the fire, but fortunately returned a week ago 
Monday to find my home and property unscathed.
Missionary Ridge Fire Occurred Under Historic Drought Conditions
    The Missionary Ridge fire has occurred under extraordinary 
circumstances. Southwest Colorado remains in the grip of the greatest 
drought in recorded history. Until a brief storm last week, Durango had 
received just one-inch of precipitation since the start of the year, 
compared to an average of over seven inches. As the Chairman has noted, 
standing trees in the San Juan Mountains currently have less moisture 
than kiln-dried boards at lumber stores. The grass is crunchy underfoot 
everywhere through our mountains, a tinder-box waiting to explode as 
the number of recent fires attest.
    Prior to Missionary Ridge, and the 137,000-acre Hayman fire near 
Denver, the record fire in Colorado was another San Juan blaze, the 
Lime Creek burn of 1879. Historic newspaper accounts report that winter 
snowpack and spring moisture in 1879 closely mimicked this year's 
conditions. The snowpack was minuscule, and news editors in the new 
mining town of Silverton touted the region's balmy winters as an 
inducement to draw more miners and settlers to the region. By May, 
fires were already burning in the upper Animas River valley, and by 
early June, 1879 a fire ignited in lower Lime Creek that would burn for 
a month through the high elevation aspen and spruce forests all the way 
to the edge of Silverton. The tinder-box conditions that permitted our 
moist San Juan forests to burn at high elevation in June, 1879 were re-
created this year. In essence, what we've seen this year is a once in a 
century set of climatic conditions, a drought so extreme that it has 
broken all known records.
    The drought's conditions have resulted in accidental ignitions of 
almost unbelievable cause. The Coal Seam fire near Glenwood Springs 
ignited when an underground coal fire that had burned without incident 
for decades was fanned into a conflagration by a coincidence of howling 
dry winds and kindling fuels. Ten homes were consumed in an hour by the 
Valley Fire near Durango ignited by an electric fence in contact with 
weeds and grass. The 73,000-acre monster Missionary Ridge fire was set 
off by an innocent motor vehicle spark or backfire.
    According to the fire incident commanders, the Missionary Ridge 
fire exhibited extreme behavior. A typical scenario in this fire was 
the creation of towering, 30,000-foot columns of superheated smoke and 
embers spiraling skyward late into the evening. As the fires consumed 
available fuel on the ground and the heat diminished, the columns 
collapsed. In some cases, these collapsing smoke columns rained burning 
debris three or four miles in advance of the fire lines. One such 
column collapsed onto the Aspen Trails subdivision the night of June 
14, igniting dozens of spot fires and sending the fire racing across 
thousands of additional acres through forested subdivisions.
    I was personally evacuated at 3:00 pm on Monday, June 24 when the 
fire exploded out of the top of Haflin Creek. Haflin Creek is one of 
the steep, rugged canyons that plunge to the Animas Valley from 
Missionary Ridge. The canyon rises over 3,000 feet in just two 
horizontal miles. Dense stands of white fir, Douglas fir, and aspen 
grew in the head of Haflin Creek. When the fire hit these dense stands 
in precipitous terrain, some of it so steep it is almost impossible to 
stand, the resultant fuel cell burned vigorously and created another 
towering column of fire and embers that spurred evacuation of downwind 
residences such as mine. This particular cloud exploded over the top of 
the ridge, broke the firelines, and surged downhill. A combination of 
aspen stands that dropped the fire to the ground and aggressive attack 
by air tankers, helicopters and ground crews restored the defensive 
perimeter.
    The fire fighting effort for Missionary Ridge was an extraordinary 
example of well-coordinated local and Federal cooperation. Durango 
residents and area homeowners do not have enough praise for the 
unbelievably heroic efforts made by firefighters who literally saved 
dozens if not hundreds of homes by their gritty determination not to 
lose any more homes than absolutely necessary. The quick response by 
Red Cross, FEMA, and countless other relief organizations greatly 
relieved the burden on residents displaced and those that lost homes, 
businesses, and property. Our sincerest sympathy goes out to the family 
of firefighter Alan Wyatt killed in a tragic accident last week while 
working to defend our homes and forests.
Missionary Ridge Fire Burned Through Aspen and Other Cool, Wet Forest 
        Types
    The Missionary Ridge fire was ignited by a motor vehicle on a 
forest access road on private property on June 9. Gusting winds quickly 
drove the fire uphill, into mixed conifer, aspen, and spruce amidst 
some of the most heavily logged and roaded parts of the national 
forest. The first day, Missionary Ridge grew to 7,000 acres in a matter 
of hours. It quickly roared through 40-year-old spruce clearcuts and 
crested the ridge. At this point, the dried grasses of the clearcuts 
served simply to accelerate the fire even faster than it was moving 
through the crown of forest.
    Despite this fire's extreme behavior, in many other instances it 
burned as a cool, backing fire very similar to the prescribed fires set 
in spring and fall by fire managers. Particularly in the abundant aspen 
stands present in the fire perimeter, the fire dropped to the forest 
floor and burned undergrowth in a patchy mosaic of fire. In many ways, 
the Missionary Ridge fire is probably indicative of the mid-19th-
century fires that reportedly burned across the landscape and created 
the vast tracts of contiguous aspen that characterize the San Juan 
Mountains. It seems quite likely that most of the over 70,000 acres 
within Missionary Ridge will quickly regenerate as vibrant young aspen 
stands.
    I know many residents are dismayed by the seeming moonscapes that 
surround some of their homes and businesses. My friends and neighbors 
in subdivisions like Enchanted Forest and Aspen Trails are relieved by 
the survival of their homes, but discouraged about the blackened 
condition of the surrounding forest. If folks can hang on to a bit of 
optimism at Vallecito and other resort areas, they will likely see the 
forest recover as one of the most scenic and stunning vistas in all the 
San Juans, with shimmering aspen forests surrounding a jewel-like 
mountain reservoir.
Missionary Ridge Fire's Role in Ecosystem
    The Missionary Ridge fire also addressed one of the other major 
concerns of forest managers in southwest Colorado. Both the Colorado 
State Forest Service and the San Juan National Forest have asserted 
that the aspen forests created by landscape-scale fires in the 1800s 
and earlier are slowly succumbing to succession by spruce and fir. 
Forest Service documents describe that ``suppression of wildfires over 
the past century has allowed most of these seral [aspen] stands to 
mature. As the seral aspen gives way to conifers throughout the Region, 
there will be an overall loss of diversity in plant communities.'' 
(Clyde Lake Timber Sale EA, February 1999) The Missionary Ridge fire 
has reset the ecological clock on over 70,000 acres of existing and 
future aspen stands, dwarfing the few hundreds of acres addressed by 
any specific aspen timber sale. Prior to the fire, Missionary Ridge 
offered a panoply of fall colors anyway, but the rejuvenated aspen 
stands from this fire will match or surpass any forest in Colorado.
Role of Wilderness Areas in Fire Fighting Strategies
    One of the key fire fighting strategies utilized in both the 
Missionary Ridge and Hayman fires was to direct the fires towards safe 
havens in wilderness areas, far from homes and property. The presence 
of the Weminuche Wilderness Aera on the northern periphery of the fire 
allowed fire commanders to focus their resources protecting homes and 
property on the southern flanks of the fire. Fire commanders 
continually pinched and nipped at the fire's edges to slowly maneuver 
it into the wilderness where it no longer threatened homes, and where 
fire should naturally be restored to the ecosystem anyway.
    Wilderness served a similar purpose in the massive Hayman fire near 
Denver, where the Lost Creek Wilderness Area anchored the western flank 
of defensive efforts. Here, fire commanders also left the wilderness as 
a sort of ``fire sink'' where they could send the fire to burn 
unattended for days until more critical areas were contained, and then 
finally turned their attention at the end to the more remote spaces of 
the wilderness.
San Juan National Forest is Taking a Sound Approach to the National 
        Fire Plan
    Like many forests around the country, the San Juan National Forest 
has been gearing up to increase its fire management strategies in the 
past two years since enactment of the 2000 National Fire Plan. After 
receiving funding from Congress last year, the San Juan National Forest 
is aggressively moving forward with public outreach and involvement, 
and implementing numerous fuels reduction projects. For example,
    <bullet> LThe San Juan National Forest has scheduled at least 18 
fuels reduction and thinning projects near rural subdivisions. 
Specifically, four of these projects were already planned for this 
summer and fall along the edges of the Missionary Ridge fire perimeter. 
As an example, the Vallecito Project planned to thin ponderosa pine, 
white fir, and oakbrush to reduce hazardous fuels adjacent to private 
land and Forest Service campgrounds.
    <bullet> LThe San Juan continues its program of aggressive 
prescribed burns near Durango and other communities, such as last 
April's 1,000-acre prescribed burn in the Log Chutes area just 
northwest of the city limits.
    <bullet> LClose to home, in my own neighborhood, last summer the 
BLM initiated a 40-acre fuels reduction project to clear oakbrush and 
thin ponderosa pine. Local residents were invited on tours to observe 
and offer comments.
    <bullet> LA week from today, on July 18, the San Juan National 
Forest is holding a La Plata County focus group to help ascertain 
better ways to educate the community about fire risks. Previous efforts 
in conjunction with homeowners and fire chiefs have laid out priorities 
for protecting homes in rural subdivisions.
    The San Juan National Forest offers an excellent model for 
implementing the National Fire Plan. The necessary fuels reduction 
projects are now in the pipeline a year and a half after direction by 
National Fire Plan. In conjunction with local fire chiefs, public 
involvement and education about reducing community risks is in full 
swing. The Forest is focusing its fire money and staff on projects in 
those places close to homes where local homeowners and fire chiefs 
agree the risk of wildfire is severe (the wildland-urban interface).
    I understand that National Forests elsewhere have approached 
implementation of the National Fire Plan differently. For example, the 
Grand Mesa, Uncompahgre, and Gunnison (GMUG) National Forest just north 
of the San Juan is using a legitimate fuel reduction project as the 
anchor for a controversial commercial timber sale which the Forest 
Service admits may increase fire risk. Specifically, the Ward Lake 
Fuels Reduction Project combines a light-on-the-land fuels reduction 
effort around the boundary of extensively developed and fire-prone 
private lands with the Skinned Horse project, an old shelterwood timber 
sale and road-building proposal that the GMUG has twice withdrawn from 
consideration after public opposition. This combination of projects is 
sure to generate controversy about the agency's implementation of the 
National Fire Plan. We urge the Forest Service to follow the San Juan's 
model, and focus fuel reduction efforts near homes where fire chiefs 
and residents of my community want them focused.
No Logging Projects Were Proposed or Appealed in Missionary Ridge Fire
    The Missionary Ridge fire burned in the middle of June through 
normally wet and moist forests of aspen, spruce and fir. That it was 
able to do so emphasizes the extraordinary nature of climate this year. 
Some have expressed concern about whether logging or other forest 
management projects have been unnecessarily delayed in these fire areas 
that might have made a difference in the fire's intensity and extent. 
Within the Missionary Ridge fire perimeter, there had not been a single 
logging project proposed by the Forest Service in the past decade in 
part because the upper elevations were extensively logged through the 
1960s and never regenerated. Because there were no proposed logging 
projects, public involvement played no role in delaying any fuels 
reduction activities. This is similar to the national statistics 
reported by the GAO, that only a handful out of more than 1,671 fuels 
reduction projects it reviewed in August 2001 were appealed by various 
public interests, and none litigated.
Hayman Fire Burned Primarily Outside the Upper South Platte Project 
        Boundary
    Some have expressed concerns more specifically about the Hayman 
fire and objections raised by conservation groups to parts of a 
proposed Upper South Platte Project located around near and outside the 
northern end of the fire. Last September, the Forest Service approved 
implementing logging and thinning on 12,000 acres, with work beginning 
on the ground this spring just before the Hayman fire started. This 
decision, which involved thinning adjacent to home and communities in 
already roaded areas, was not challenged by anyone. Local conservation 
groups had challenged logging on an additional 5,200 acres located in 
undeveloped roadless areas, asking for better definition of exact 
locations of proposed logging, whether the proposal would retain 
larger, more fire-resistant trees, and how the trees would be removed 
without the need for constructing new roads. These concerns and others 
were raised by the Environmental Protection Agency and Congressman Mark 
Udall as well as by conservationists. The Project itself both in its 
scope and nature was a new type of proposal for the Front Range. It 
would have removed more timber than virtually any other Forest Service 
logging project in Colorado over the past decade. It is not surprising, 
then, that a project of this nature, particularly where it involved 
more remote areas, would involve some controversy.
    The Upper South Platte project also highlights one of the 
scientific uncertainties about fuels reduction projects. While there is 
some general consensus about what our pines forests may have looked 
like in the 1800s, prior to European settlement, many scientists still 
view thinning projects aimed at restoring forests as experimental in 
nature. Because of this uncertainty, forest biologists at Colorado 
State University and University of Wyoming argue against invading 
roadless areas with these experiments, and focusing efforts instead on 
lands near homes and private property.
    Some have argued that the Upper South Platte Project provides a 
textbook example of why laws that protect our water, wildlife, and wild 
places and that ensure public involvement in forest management must be 
changed. I disagree. The Pike-San Isabel National Forest did not 
identify where it wished to begin its thinning efforts until September 
1999 less than three years ago. Given that the project would have taken 
up to 8 years to implement, and given the tinder dry condition of the 
forest, it is not likely that the Project would have halted the Hayman 
blaze sooner, even if all environmental laws had been ignored. Public 
input ultimately improved some parts of the decision, and helped the 
Forest Service better explain and clarify its vision for the project.
    In any case, the Project is located at the far northern end of the 
Hayman fire, far from the original point of ignition. The Hayman fire 
burned tens of thousands of acres long before it came near the area of 
the Upper South Platte Project. Approximately 98% of the fire occurred 
in areas not impacted by citizen appeals to revisit the Roadless Area 
portions of the decision, and the fire ultimately stopped in roadless 
areas at the fire's periphery.
Best Defense For Homeowners Remains the 100 Feet Around Houses
    The Missionary Ridge fire provides stark evidence to buttress the 
advice reiterated by fire chiefs and Forest Service scientists time 
after time--the single most critical element to saving or losing a home 
to wildfire is the defensible space created in the 100 feet surrounding 
a house. Metal roofs and cleared brush still make the greatest 
difference. Fire researchers report that outside a100-foot radius, even 
the radiant heat generated from a raging crown fire won't spontaneously 
ignite wood siding on a house. Homeowners who create defensible space 
can knock down a crown fire to a manageable level and give their 
property a fighting chance at surviving even a howling firestorm.
    The Missionary Ridge fire provided a wake-up call that Durango 
residents cannot ignore. County commissioners are now considering what 
changes to land use codes and building requirements are needed to 
minimize problems of access, steep and narrow roads, lack of water 
supplies, and other difficulties encountered by firefighters trying to 
save homes. So many homeowners are now rushing to create more 
defensible space around their homes that local tree trimmers and fire 
protection businesses are swamped with work, with waiting lists 
stretching to months.
Keys to Success in Fire Prevention Include Local and Federal Efforts 
        and Favorable Climate
    Rain showers have started to bless the San Juans. Over an inch of 
rain fell on the Missionary Ridge fire last week, draining its vigor. 
The National Fire Plan is on track in the San Juans. Congress needs to 
fully fund it, make sure that firefighting efforts do not so severely 
deplete the coffers as to shortchange the preventative efforts agreed 
upon by homeowners, fire chiefs, foresters, and residents that will 
protect property in the event dramatic drought conditions persist 
through the remainder of the summer and into next year. Local residents 
and elected officials must grapple with difficult land use and zoning 
decisions to improve defensible space and limit development proposed 
for indefensible locations.
    Thank you for your attention and the opportunity to offer these 
thoughts. I would be happy to address any questions.
                                 ______
                                 
    Mr. McInnis. Dr. Morgan.

 STATEMENT OF PENNY MORGAN, DEPARTMENT OF FORESTRY, UNIVERSITY 
                            OF IDAHO

    Ms. Morgan. Thank you for the opportunity to share my 
recommendations with you. You will see I promote a broad and 
flexible perspective on ecological restoration and forest 
management.
    I have to say before I begin that last week one of your 
staff called my boss and asked if I am brown or green. This 
really threw me for a minute. I couldn't think of how I would 
answer that. I am an ecologist. I don't see things in a single 
color. How can any single color describe what I think on this 
complex issue?
    Then I realized maybe somebody was asking about my eye 
color and that has always been a read difficult question 
because I have one brown eye and one green eye.
    That said, I have six recommendations. We do need an 
aggressive program of fuels management, including both 
prescribed fire and thinning from below. We need that focus in 
the urban interface. Such efforts are indeed included in the 
National Fire Plan and in the Western Governors Association 
Plan.
    We need effective fire suppression, but fire suppression 
without proactive fuels management will not reduce long-term 
costs. Let me repeat. Fire suppression without proactive fuels 
management will not reduce long-term costs.
    Unfortunately, an increasing percentage of the National 
Fire Plan budget is going to fire suppression which will make 
the situation worse rather than better, if not complemented by 
fuels management and prescribed burning.
    My second recommendation: We must work from zones of 
agreement. There is a broad consensus, not only among 
scientists and managers, but across the diverse public that the 
priority should be protecting towns and that we should 
concentrate our efforts in the urban interface.
    Fuels management is indeed needed and we can substantially 
reduce fire intensity and reduce fuel loads without cutting the 
large and the old trees.
    We find those zones of agreement, as others have mentioned, 
by involving local communities and prioritizing the areas for 
treatment.
    My third recommendation: We should empower local people and 
communities to collaborate with the State and the Federal land 
management agencies. In this, I think the collaborative 
framework in the Western Governors Association Implementation 
Plan is quite good.
    Collaboration really does work. I am part of two successful 
efforts. The first resulted in a forthcoming paper summarizing 
current science and outlining principles of forest restoration 
in Ponderosa Pine forests. It was jointly coauthored by 
scientists from four universities, two Federal and one State 
agency and two environmental groups that all came to agreement.
    The other collaborative effort I am part of is the 
Collaborative Forest Restoration Program which is a U.S. Forest 
Service program that has actually given the pen to local 
communities. These local community organizations write grants. 
Those that have been funded address all public lands, so this 
Forest Service money that is going to not only Federal lands, 
but also State, tribal, county and municipal lands.
    I have been really impressed, when given the opportunity, 
how many creative ideas the communities have for reducing fire 
risk and restoring forests using small-scale community-based 
efforts that result in local jobs and local benefits. That 
program has strong bipartisan support.
    My fourth recommendation: We must resist the temptation to 
suppress fires that don't threaten communities. Fires are vital 
to healthy forest ecosystems.
    Fifth: We must identify the thresholds of stand density and 
other conditions that allow burning without prior thinning. We 
have many places that we could burn safely now or that could 
burn in wildfire safely now without long-term adverse effects.
    Further, knowing these thresholds will help us identify 
what is the minimal level of thinning that is needed, which 
will make the money that we spend go further.
    Last, I can't emphasize more that we need to monitor and 
evaluate effectiveness. We don't have all the answers and yet 
we must begin fuels management. We must invest in monitoring to 
insure that we learn as we go.
    I would urge us to differentiate between two different, of 
course they are related, fire management problems. One is 
protecting people and their property. That is to be addressed 
with fuels management within the urban interface.
    The other is restoring forest integrity and resilience. I 
would like to emphasize in the urban interface again that we 
can significantly reduce the risk of high intensity fires 
without thinning to very low densities and without removing the 
old and large trees. In fact, heavy thinning can increase fuel 
loading, especially in the short term because of the slash that 
is created.
    Unless burning follows thinning, fuels will accumulate on 
the forest floor. Seedlings establish. Needles fall. Grass 
grows and that will fuel fast-running surface fires.
    I would like to have my full statement included in the 
record because I address in there the difference between 
thinning and restoration.
    Mr. Tancredo. [Presiding] Without objection. Thank you very 
much.
    [The prepared statement of Penny Morgan follows:]

Statement of Penelope Morgan, Professor, College of Natural Resources, 
                          University of Idaho

    Good morning. Thank you, Mr. Chairman and members of the 
Subcommittee, for this opportunity to share my recommendations with you 
about fire and forest management.
    I am a fire ecologist. I have taught and done research on fire 
ecology and management for more than 17 years. I often advise Federal 
and state agencies, and nongovernmental organizations about fire 
effects and land management issues. In general, I promote a broad and 
flexible perspective on ecological restoration and forest management.
    Here are my 9 recommendations. I'll then make my case and conclude.
    My recommendations
    1. LWe must recognize that we have two different fire management 
problems before us. The first problem, protecting people and their 
property from fire should be addressed with an aggressive program of 
fuels management within the wildland urban interface. Treatments in all 
forest types should include BOTH prescribed fire and thinning from 
below. Such efforts are included in both the National Fire Plan and in 
the Western Governors Association Cohesive strategy and related 
implementation plan. We need effective fire detection, suppression, and 
rehabilitation, but fire suppression without proactive fuels management 
will not reduce long-term costs, whether those costs are measured in 
dollars, soil erosion, houses burned, or large, formerly fire-resistant 
trees killed. Let me repeat, fire suppression without proactive fuels 
management will NOT reduce long-term costs. Unfortunately, an 
increasing percentage of the National Fire Plan budget is going to fire 
suppression, which will make the situations worse rather than better if 
not complemented by fuels management and prescribed burning.
    2. LOur second fire management problem, restoring the health and 
integrity of forests beyond the narrow Wildland Urban Interface will 
also require active management, but must emphasize the reintroduction 
for native fire regimes. Solutions must be adapted to the diverse 
forest ecosystems, and must be applied in a landscape context.
    3. LWe must resist the temptation to suppress fires that don't 
threaten communities. Fire is integral and vital to healthy forest 
ecosystems and watersheds.
    4. LWe need to develop a process for local definition of Wildland 
Urban Interface (WUI). Until then a simple rule may be needed to focus 
our attention on the areas within , to + mile from the edge of the 
houses. Risks in WUI are very locally associated with the pattern of 
subdivision, roads (i.e. one way roads vs. two-way), local fire 
management capability, local topography and weather, and types of fuel.
    5. LWe must work from zones of agreement. We must build trust and 
credibility. There is broad consensus, not only among scientists and 
managers, but across a diverse public that
         <bullet> LThe priority should be protecting towns, and
         <bullet> LFuels management is needed. We can substantially 
        reduce fire intensity and reduce fuel loads without cutting the 
        large and old trees
         <bullet> LLocal communities should be involved in prioritizing 
        areas for treatment.
    6. LWe should empower local people and communities to work 
collaboratively with state and Federal land management agencies. I 
support the collaborative framework in the Western Governors' 
Association Implementation plan for the 10-year comprehensive strategy 
http://www.westgov.org/wga/initiatives/fire/implem--plan.pdf). I am 
part of two collaborative efforts that have been very successful:
         <bullet> LThe first resulted in a forthcoming paper 
        summarizing current science and outlining principles for forest 
        restoration in ponderosa pine forests. The paper is jointly 
        coauthored by scientists from 4 universities, 2 environmental 
        groups, and 1 state and 2 Federal Government agencies (Allen, 
        C.D., M. Savage, D.A. Falk, K.F. Suckling, T.W. Swetnam, T. 
        Schulke, P.B. Stacey, P. Morgan, M. Hoffman, and J. Klingel. In 
        Press. Ponderosa pine ecosystems: A Broad Perspective. 
        Ecological Applications.)
         <bullet> LThe Collaborative Forest Restoration Program (http:/
        /www.fs.fed.us/r3/spf/cfrp/index.html), a USFS program has 
        ``given the pen'' to local communities and organizations who 
        compete for grants. These communities have many creative ideas 
        for reducing fire risk and restoring forests on state, tribal, 
        city, and Federal lands. These are small-scale, community-based 
        efforts that result in local jobs and local benefits.
    7. LWe must identify the thresholds of stand density and other 
conditions beyond which thinning must precede prescribed burning. In 
forests below this threshold, reintroducing fires could be done without 
long-term effects that are unacceptably adverse. Knowing this could 
help us identify the minimal level of thinning needed.
    8. LMonitor and evaluate effectiveness. We don't have all the 
answers, and yet we must begin fuels management. Thus, we must invest 
in monitoring to ensure we learn as we go.
    9. LAddress planning ``gridlock'', but not by limiting public 
involvement and environmental regulations.
Fuels management within the urban-interface
    The first problem is how to protect people and towns. This can be 
addressed with fuels management within the urban-interface, a 
relatively narrow zone in the vicinity of houses and other structures. 
There is strong scientific consensus, based upon empirical studies, 
fire behavior modeling, and much anecdotal experience, that reducing 
fuels will alter subsequent fire behavior. Foresters call the needed 
prescription ``thin from below'' because it removes the smaller trees 
while leaving the bigger trees. The small trees and surface fuels 
contribute most to crown fire risk, as they provide ``ladders'' for the 
fires to climb from the surface into the tree crowns. The larger trees 
can and should be left as long as the crowns of individual trees or the 
crowns of groups of trees are separated. Where possible, treatments 
should be accomplished in ways that will minimize the impacts of 
treatments on soils and watersheds, and on wildlife habitat.
    Let me emphasize a key point. We can significantly reduce the risk 
of high intensity fires without thinning to very low densities, and 
without removing old and large trees. It is the smaller trees, those 8 
to 10 inches in diameter or less, which contribute the most to ladder 
fuels. In fact, heavy thinning can increase fuel loading, especially in 
the short term, because of the slash that is created when the branches 
and twigs are left behind. The goal of fuels management in the urban-
interface should be to create defensible space and ensure that when 
fires burn through the forest, they burn as surface fires.
    Without subsequent burning, however, fuels will accumulate on the 
forest floor. Seedlings establish, needles fall and grass grows that 
will fuel fast-running surface fires unless these are burned. Logging 
doesn't reduce these fuels. Neither does grazing, since it doesn't 
remove the pine needles that rapidly accumulate and fuel fires in 
ponderosa pine forests. It also eliminates critical surface fuels 
needed for low intensity fires to spread.
    Repeat treatments will be required. However, they are likely to get 
easier as forest conditions change. Public attitudes may change once 
they see that treated forests can be attractive and fire-safe.
    These treatments will modify fire behavior, but they will not 
eliminate large fires. However, treatments can increase the likelihood 
that the things we value, including natural, economic and cultural 
assets, will survive large fires. Fire suppression can be more 
effective when there is defensible space around towns. Homeowners must 
also take responsibility for maintaining fire-safe buildings and home 
sites.
Restoring forest health, integrity and resilience.
    Restoration is needed, particularly in the dry forests at low 
elevation that support ponderosa pine. Restoration includes more than 
reducing crown fire risk, for there is strong scientific evidence that 
the overall ecosystem health has declined in the forests that once 
supported frequent surface fires.
    Many people ask if thinning to reduce fire risk will also restore 
forests. The short answer is that thinning the small trees from 
ponderosa pine-Douglas fir forests can be a first step in ecological 
restoration. However, unless fires return to the forests, the benefits 
of thinning are short-lived. Large and old trees and snags must be left 
standing, even if they are diseased, dying or dead. They are important 
to many wildlife species and ecosystem functions. They also provide 
``insurance'' because they often survive surface fires and can speed 
post-fire recovery. The forest must be structurally diverse and non-
uniform. Most critically, fires must occur relatively frequently but at 
irregular intervals. Further, thinning can reduce over-crowding, and 
thus increase the health and vigor of the remaining trees, but only if 
it is done very carefully to minimize roads, soil compaction, 
introduction of weeds, and damage to residual trees.
    ``Do we know what restored forests look like?'' Yes, at least for 
ponderosa pine/Douglas-fir forests. Earlier this summer, I sampled in 
forests that had burned 5 to 7 times since 1943. The forests were 
structurally diverse, with many old and large trees and snags, and 
scattered small trees. The forests are relatively open. Most 
strikingly, the trees are not evenly spaced. There are denser clumps 
interspersed with openings. Grasses, shrubs, and forbs are abundant, 
vigorous, and diverse. Native species predominate. These forests 
support a diverse array of wildlife (birds, rodents, mammals, and 
insects).
    The forest I sampled is in the Rincon Wilderness in Arizona, but 
restored forests exist outside of wilderness areas. West of Spokane, 
Washington, the Spokane Indians manage their pine forests with fire 
while achieving jobs and protecting wildlife and cultural values. There 
are many new forest restoration projects in NM, including one in the 
Jemez Mountains in New Mexico, not far from the Cerro Grande fire. You 
can also visit Ponderosa Pine State Park near McCall, Idaho.
    There is strong scientific agreement that restoration is needed in 
the fire-adapted forests at low elevations, such as ponderosa pine, 
that historically burned in frequent, low-intensity fires. Such forests 
have burned extensively this year, often with severe ecological effects 
and threats to people. These forests, now mostly classified as being in 
condition class 3, have been greatly altered by past management 
practices, including logging, fire suppression, and intense livestock 
grazing. These forests are dense with small trees, but they have few 
old and large trees and low biological diversity. Both human and forest 
communities are increasingly vulnerable to intense crown fires. 
Protecting communities and restoring more natural, resilient conditions 
to ponderosa pine forests will require reintroducing low-intensity 
surface fires.
    Traditional approaches to management, such as logging the old and 
large trees or suppressing all fires, will perpetuate the problem. An 
approach that mimics the natural system in ways that are sensitive to, 
but not driven by social, political and economic pressures, appears to 
be the best solution to achieve both ecological sustainability and 
social acceptance. Here, we must be very strategic in focusing active 
forest management and prescribed burning efforts where they will do the 
most good within landscapes. Where fuels must be reduced before fires 
can be reintroduced, those fuels treatments must be very limited to the 
minimum necessary we will only need to treat a small percentage of the 
landscape to accomplish that. Unfortunately, we don't yet know how to 
do this very effectively, so it is critical that we initiate pilot 
projects and monitor them carefully to learn from them about what will 
make our efforts more effective.
    There is much less scientific agreement on the restoration 
treatments needed in other forest types that historically supported 
mixed severity and stand-replacing fires, such as subalpine fir or 
western white pine forests. Restoring fire as a process is critical. 
However, most such forests are less ``out-of-whack'' than the dry 
forests at low elevations that support ponderosa pine.
Fire management must be more than fire suppression.
    This is not the first big fire year, nor will it be the last. 
Excluding fires forever is not an option. Fires will inevitably occur 
when we have ignitions in hot, dry, windy conditions. If there is 
enough fuel available, fires will burn intensely. It is one of the 
great paradoxes of fire suppression that the more effective we are at 
fire suppression, the more fuels accumulate and the more intense the 
next fire will be. Therefore, fire management must include more than 
fire suppression.
    Fire and land management must be grounded in an understanding of 
the complexity and diversity of forest ecosystems, and must recognize 
that fire is ecologically important.
    In all forests, fires consume fuels, recycle nutrients and 
encourage new plant growth, but the frequency, effects, and ecosystem 
resilience (i.e., the time for recovery) varies greatly. Fires also 
alter the structure and composition of forests. Thus, fires are an 
integral part of many forest ecosystems, and they play important 
ecological roles.
``Gridlock'' and ``analysis paralysis''
    Many people feel that the land management agencies are in a 
planning gridlock because of NEPA, ESA, and other regulatory acts. Most 
of the inability to effectively get the plans done, decided and 
implemented is due to internal agency problems. In particular, 1) poor 
decision making and planning project management by agency line and 
staff officers (i.e. lack of good team coaching), 2) lack of training/
education in the regulatory act planning process; and 3) lack of 
training/education in recent science of social and ecological systems, 
and associated restoration. This must be addressed, but not by limiting 
public involvement and environmental regulations.
Conclusion
    We do need aggressive fuels management including BOTH prescribed 
fire and thinning from below, IN THE WILDLAND-URBAN INTERFACE.
    We must work with communities and collaborate across agency 
boundaries to identify zones of agreement. Build consensus on what 
treatments are acceptable and where, so that we can move ahead.
    We must think beyond fire suppression to fire management, adapting 
our management to the complex and diverse forest conditions.
    Be prudent, and acknowledge the limitations of our knowledge. There 
is broad scientific and management consensus on the need for and 
approach to treatment in the urban-interface. Beyond the urban-
interface, there is some agreement on how to restore ponderosa pine 
forests. There is less agreement on how to restore forests that 
historically supported mixed and stand-replacing fire regimes at longer 
intervals. Luckily, many, but not all (e.g. whitebark pine forests) of 
those forests are not in condition class 3 because they are less ``out-
of-whack''.
    We must be patient. The fire risk problem took decades to develop. 
Solving it will take time. ``Impatience, over-reaction to crown fire 
risks, extractive economics, or hubris could lead to widespread 
application of highly intrusive treatments that may further damage 
forest ecosystems'' (Allen et al. In Press).
    In dry forests, restoring ecological integrity will require 
thoughtful planning to ensure management that is ecologically 
appropriate and socially acceptable. Fire suppression, thinning, 
prescribed fire, and other treatments have their place in managing 
forests, but they are not cure-alls for all circumstances. We need all 
of these tools and more to manage public lands. There is an emerging 
consensus among groups with widely divergent viewpoints that thinning 
small trees to reduce fire risk is both useful and needed within the 
urban-interface. It would be a mistake to ignore this and go back 
either to business as usual or to a total fire suppression mentality.
    I extend my sympathy to the people who have lost their homes, and 
to the many others whose lives have been disrupted by fires. We owe it 
to those people and to those of future generations to learn from recent 
and past fire events. We must work proactively together to address the 
fuels and fire risk problems, and to manage our natural resources in 
ways that will sustain the health and integrity of both our forest and 
human communities.
    Thank you. I welcome your questions.
References cited
Allen, C.D., M. Savage, D.A. Falk, K.F. Suckling, T.W. Swetnam, T. 
        Schulke, P.B. Stacey, P. Morgan, M. Hoffman, and J. Klingel. In 
        Press. Ponderosa pine ecosystems: A Broad Perspective. 
        Ecological Applications.
Government Accounting Office. 2002. Wildland Fire Management: Improved 
        Planning Will Help Agencies Better Identify Fire-Fighting 
        Preparedness Needs. GAO-02-158. March 29, 2002. Available on 
        http://www.gao.gov/.

                               * * * * *

    In fire-adapted ecosystems, like the ponderosa pine-Douglas-fir 
forests that grow at low elevations in the West, periodic fires--
    <bullet> LReduce accumulated forest debris and thin the small 
trees, thereby reducing the risk of intense crown fires and protecting 
human lives and important resources such as public and private 
property, timber, water quality, fish and wildlife habitat, and long-
term air quality;
    <bullet> LRecycle nutrients and water tied up in forest litter, 
thereby naturally fertilizing surviving plants;
    <bullet> LRejuvenate grasses and shrubs, thereby improving wildlife 
forag3;
    <bullet> LOften enhance structural and species diversity
    <bullet> LEnhance the survival of large trees currently threatened 
by competition from dense small tress and by crown fires fueled by the 
small tree ladder fuels
    <bullet> LRestore the natural role of fire as an ecological process 
and the historical structures and function of fire-dependent ecosystems 
where fires has been suppressed, thereby maintaining natural forests.
                                 ______
                                 
    Mr. Tancredo. Mr. Long.

        STATEMENT OF MICHAEL LONG, ASSOCIATE DIRECTOR, 
                  FLORIDA DIVISION OF FORESTRY

    Mr. Long. I am Michael Long. I am the Assistant Director of 
the Florida Division of Forestry, Department of Agriculture and 
Consumer Services. I am here today on behalf of the National 
Association of State Foresters to present a little different 
perspective as the eastern perspective of the wildland fire 
problem.
    Today, there are a little over 1300 State and local 
government firefighters from the east providing assistance in 
the west.
    To talk a little bit about Florida's problems, we protect 
26 million acres of land. One of our greatest challenges is the 
diversity of landowners and the difference in their land 
management objectives. Protecting private property from 
wildland fire is a major challenge for the Wildland Fire 
agencies in the east.
    Our National Wildfire agenda must not be dictated only by 
the Federal Land Management policies and ownership. As a part 
of the total wildfire manager program, in Florida we issue 
about 68,000 burning authorizations per year which accomplishes 
about two million acres of prescribed burning in our State.
    In addition to that, we still respond to 5,700 wildfires 
which burn a little over 225,000 acres annually.
    Fire departments in our state respond to about an equal 
number that they keep much smaller and that we never have to 
take action on. Because of our ever-increasing population and 
the desired living styles, all the fire agencies in Florida 
must come together to work together on a daily basis. We have 
about 10 days a year that we do not fight fires somewhere in 
the State of Florida.
    Our work to deliver rural community fire assistance 
funding, National Fire Plan funds, Federal excess property to 
the rural fire departments is critical to our ability to handle 
fire under normal conditions.
    The last 4 years has found Florida under anything but 
normal conditions. We are much like the west today. The extreme 
drought coupled with severe weather produced fire behavior 
conditions that were almost impossible to deal with. The 
wildland urban interface issues we faced even on small fires 
demanded tremendous resources. The real danger was firefighter 
safety, as we have heard mentioned here earlier today.
    Our personnel were taking extreme risks to safe communities 
and homes. The smoke you see experienced here for a few days 
was commonplace for months in our State in the last four fire 
seasons. That smoke translated into something I haven't heard, 
and that is smoke and highway fatalities.
    You have the ability to plan and mitigate the effects of 
prescribed fire smoke, but not so with wildfires. The fuel 
loading conditions in eastern coastal plains are such that if 
you do not prescribe burn every three to 4 years you lose the 
hazard reduction effect, which means we have a continual 
problem which is much greater and more costly.
    It is important to note that if communities at risk were 
required to be adjacent to Federal lands as some have proposed, 
most land owners in Florida would not receive the assistance 
they need and the fire hazard would escalate.
    We are starting to see benefits from fire-wise communities. 
Future developments must be built with an understanding of 
wildland fire and its role in the vegetative community where 
the developments are being built. We cannot just build and 
expect the Fire Service to protect the resident.
    The Cooperative Forestry Assistance Act of 1978 recognized 
fire as a national problem and provided direction to the 
Secretary of Agriculture to provide assistance in the 
prevention and control of rural fires and non-Federal 
forestland.
    When the conditions become right for extreme fire behavior 
no portion of this country is immune from devastating wildland 
fire. There seems to be a tendency to want to address wildland 
urban interfaces issues only on lands adjacent to Federal 
lands. I strongly feel that to do so is to neglect the vast 
majority of other communities throughout the Nation that may be 
at equal or higher risk.
    There is little Federal land to the east for the urban 
interface to be adjacent to, yet there are numerous 
subdivisions, home divisions, and business communities at 
extreme risk. I think there is an obligation to provide 
assistance to these citizens also.
    I do not disagree that there is a need for fuel reduction 
in the West. We need to be able to use brush removal, thinning, 
harvesting and safely prescribed fire. But these activities do 
not start and stop on a magical line.
    There are countless acres of private ownership that have 
just as extreme a forest health issue and just as severe as 
those on Federal lands. The current markets and recent closure 
of pulp and paper mills will only reduce a landowner's ability 
to remove smaller diameter products. If we are to be successful 
to reduce the fuel hazards, we must find ways to utilize that 
material.
    The Federal Excess Property Program, this program has 
helped both State and local agencies obtain equipment and 
materials that allow for the development of additional wildland 
firefighting capabilities that would not otherwise be 
available.
    Many forestry agencies, aviation programs rely primarily on 
Federal excess property. I have enclosed a picture of Florida's 
most recent acquisition, a military gunship that now fights 
fire. That aircraft would have cost us over $2 million. To 
demilitarize it and put it in service has only cost us around 
$300,000.
    Forest communities need your assistance. Earlier this year 
Congress passed and the President signed the 2002 Farm Bill, 
however, no funding was included in the President's budget 
request for Fiscal Year 2003 because at that time the program 
was not authorized by Congress. We have to take action to 
correct that.
    The National Fire Plan, the Ten-Year Comprehensive Strategy 
and the Implementation Plan for the Ten-Year Comprehensive 
Strategy must be pulled together and address all the issues and 
address it from a good manner.
    I wanted to thank Chairman McInnis for his support in 
establishing the Wildland Fire Leadership Council and for 
recognizing the need to include States as full partners in that 
council. I think we all have to work together if we are to 
solve the problem.
    A definition of wildland urban interface must be based on 
or near forestlands nationwide, regardless of land ownership. 
Our problems to solve wildland urban interface issues will only 
be complicated if for some reason we try to give the sense that 
it is only a problem adjacent to Federal land.
    We have to strengthen the State and local fire departments 
and the ability to get Federal excess property. That is the 
backbone to our ability to provide fire protection to our 
citizens and keep those fires small.
    The National Association of State Foresters realizes that a 
healthy forest condition is a primary key to reducing a 
wildland fire problem. The return of fire to fire-adapted 
ecosystems in a safe and prudent manner will reduce the threat 
of unwanted wildland fire intrusion into the wildland urban 
interface.
    We realize that is not possible everywhere and that even 
under the best vegetative management programs when the 
conditions become right for extreme fire behavior, there will 
be fires that reach catastrophic portion. The best we can do is 
to maintain a balance that makes those instances an exception 
rather than the norm, as it seems to be with the conditions of 
our nation's forest today.
    I would like to take this opportunity to thank you for the 
opportunity to be here to testify. I would be willing to answer 
any questions.
    [The prepared statement of Mr. Long follows:]

    Statement of Michael Long, Assistant State Forester of Florida, 
        on behalf of the National Association of State Foresters

Introduction
    As the Assistant Director of the Florida Division of Forestry of 
the Florida Department of Agriculture and Consumer Services, I am 
pleased to have been invited here today to testify. Over the past 
thirty-five years, I have been involved in wildland fire management 
across this nation serving on the National Wildfire Coordination Group, 
National Fire Weather Advisory Group, National Association of State 
Foresters, Southern Group of State Foresters, and Florida Fire Chief's 
Association committees. Most recently, I had the privilege of serving 
as the Eastern State Representative on the development of the 10-Year 
Comprehensive Strategy Implementation Plan.
    Wildland fire management is not a regional phenomenon, it is a 
national problem. The objective of protecting the public and the 
resources are the same with similar issues but there are also some 
distinct differences.
    As large fires continue to burn across the west, I am here today to 
present the eastern state perspective to the wildland fire problem. The 
one thing that must be remembered is that no matter where or when, if 
there is major fire activity the fire community pulls together and 
shares resources to help those with the problem. As an example, today 
there are numerous state and local government firefighters from the 
east providing assistance to the west.
Florida's Fire Management Challenges
    The Florida Division of Forestry protects nearly 26 million acres 
of land. One of the greatest challenges is the diversity of the 
landowners and the differences in their land management objectives. We 
must deal with the wildland fire issues on lands owned by Federal 
agencies, state agencies, county governments, city governments, 
corporations and private citizens. We are similarly situated with many 
other states in the southeast. Indeed, protecting private property from 
wildland fire is a major challenge for wildland fire agencies in the 
east. Our national wildfire agenda cannot be dictated by Federal land 
management or ownership.
    As part of the Division's total wildland fire management program, 
we issue around 68,000 prescribed burning authorizations to various 
landowners for agricultural and silvicultural purposes burning 
approximately 2 million acres annually. In addition we respond to an 
average of 5,700 wildland fires burning over 225,000 acres annually. 
The local fire departments respond to about that many more smaller 
wildland fires that we never have to take action on.
    The Division has the responsibility for prevention, detection, and 
suppression of wildland fires within the state. We are not funded or 
equipped anywhere near the level needed to do the job in a satisfactory 
manner during years with above normal fire occurrence. Because of the 
ever increasing population and their desired living styles, all the 
fire agencies of Florida must be able to come together and work 
together on any given day as there are only about ten days in any year 
that the division does not respond to fires some where in the state. 
Our work to deliver rural community fire assistance funding, national 
fire plan funds and Federal excess property to the rural fire 
departments is critical to our ability to handling fire under normal 
conditions. This expands to bringing in resources from the Southeastern 
Forest Fire Compact and, if needed, additional resources through our 
agreements with the U.S. Forest Service and the Interior Agencies when 
conditions become extreme.
    The last four years found Florida much like the west today, under 
anything but normal fire conditions. The extreme droughts, coupled with 
severe fire weather, produced fire behavior conditions that were almost 
impossible to deal with. The wildland urban interface issues we face, 
even on small fires, demand tremendous resources, and when you are 
experiencing 100 new fire starts per day, you soon run out of resources 
with which to respond. The fire conditions were so extreme that we were 
forced to evacuate communities and even an entire county. Our 1998 fire 
season mirrored what happened in Colorado and Arizona this year. It is 
not uncommon to lose or damage a home or two in the urban interface but 
during these four years it was a weekly event to lose structures. The 
real danger was firefighter safety. We had personnel taking great risks 
to save communities.
    The fuel loads and conditions in the Eastern Coastal Plains are 
such that if you don't prescribe burn an area every three years you 
lose the hazard reduction effect. The effort to utilize our fuels 
mitigation teams to reduce the risk to communities is extremely complex 
when working on non-governmentally owned lands. We have many more 
communities at risk other than those adjacent to government-owned 
lands. By necessity we have developed a risk assessment that allows for 
developing a prioritization for treatment. There is legislation in 
Florida that allows us to treat private lands as long as the owner does 
not file an objection. This gives us an advantage over some states when 
it comes to fuel hazard reduction and mitigation efforts. It is 
important to note, however, that if communities at risk were required 
to be adjacent to Federal lands (as some have proposed), most 
landowners in Florida would not receive the assistance they need, and 
our fire hazards would escalate.
    We are starting to see benefits from the FIREWISE Community 
Program. Counties are adopting ordinances and for the first time one 
county placed the firewise principles into its revision of the County 
Comprehensive Plan. This plan has not been approved by the State 
Division of Community Affairs but should be soon. That will set the 
stage for others to follow and encourage firewise development in the 
state. Future developments must be built with an understanding of 
wildland fire and its role in the vegetative community where the 
development is being built. We cannot just build and expect the fire 
service to be able to protect the residents.
Wildland Fire is a National Issue
    The Cooperative Forestry Assistance Act of 1978 recognized fire as 
a national problem and provided direction to the Secretary of 
Agriculture to provide assistance in the prevention and control of 
rural fires to non-federal forestlands. You only have to look at the 
fire activity over the past year to see how that national direction was 
reached. There was major fire activity in Florida, Kentucky, Virginia, 
Tennessee, South Carolina, New Jersey, and Pennsylvania as well as now 
in the west. Earlier they predicted drought conditions for the 
Northeast this fall. This could produce fires in that portion of the 
country like that of the Long Island Fire.
    In addition, the year-to-date statistics show that, as of July 8, 
nearly half of all the acreage burned (1.5 million acres) has burned on 
lands under the protection of state and local agencies. By contrast, 
the next largest acreage burned so far this year (860,000 acres) is on 
USDA Forest Service lands. The Interior agencies (BIA, BLM and the Fish 
and Wildlife Service) account for another 200,000 to 350,000 acres 
each. These facts highlight to what extend wildfire is an interagency 
issue that requires excellent coordination among Federal, state and 
local fire agencies. The National Fire Plan is an important vehicle to 
help achieve this goal.
    When the conditions become right for extreme fire behavior no 
portion of the country is immune from the devastation of wildland 
fires. There seems to be a tendency to want to address wildland urban 
interface issues on lands only adjacent to Federal lands. I feel 
strongly that to do so is to neglect the vast majority of other 
communities throughout the nation that may be in areas of equal or 
higher risk. There is little Federal land in the east for the urban 
interface to be adjacent to, yet there are numerous subdivisions, 
homes, businesses and communities at extreme risk. There is an 
obligation to provide assistance to these citizens that far exceed the 
numbers of Americans and communities in the Western United States 
adjacent to Federal lands.
The National Fire Plan Addresses All Lands
    I do not disagree that there is a need for fuel hazard reduction in 
the west, including brush removal, thinning, harvesting, and where it 
can be safely used, prescribed fire. But these activities cannot stop 
or start at some magical line. Such treatments should be easier where 
Federal agencies own and manage the land and it is easier to seek funds 
to treat these lands. However, there is also an obligation to give 
consideration to the other role of the U.S. Forest Service, to provide 
assistance on non-federal land. Wildland fire cannot distinguish 
between untreated fuels on Federal lands and those on non-federal 
lands, nor can it identify property boundaries. The health of our 
forestlands is in jeopardy. There must be a new and different approach 
to returning them to more natural conditions that also recognize the 
dynamic nature of renewable natural resources.
    There is a need to strengthen the preparedness and hazard 
reductions capabilities of the nation, not just focus on one portion. 
If we neglect the east, at some point the fuels, weather and drought 
conditions will again line up and wildland fires will be devastating 
beyond belief in the Eastern United States. The east has no vast areas 
where it will be appropriate or beneficial to allow fires to go 
unattended or unmanaged and all new fires will need immediate 
attention. If left to burn, they will be destructive in loss of homes 
and, potentially, lives in highly populated areas.
    There are countless acres of land in private ownership that have 
forest health issues just as severe as those on Federal lands. The 
current markets and recent closures of pulp and paper mills will only 
reduce landowners' ability to remove smaller diameter products. If we 
are to be successful at reducing hazardous fuels, we must find ways to 
utilize the materials. This is one of the goals of the 10-Year 
Comprehensive Strategy Implementation Plan.
    The National Fire Plan and the 10-Year Comprehensive Strategy, 
along with the recently adopted implementation plan, must come together 
at some point. The 10-Year Comprehensive Strategy recognizes the need 
to collaboratively develop successful solutions. In the east, most of 
the Federal natural resource-based agencies having responsibility for 
wildland fire work in close cooperation with state forestry agencies. 
If we are to be successful nationally at reducing the threat and damage 
from wildland fire, it will be necessary to provide the help to 
strengthen this partnership.
    The wildland fire that took place in Florida and Georgia on the 
Okeefenokee Swamp provides a prime example of what can be done with a 
total fire management program like ours in Florida. The understanding 
and cooperation between Federal and state agencies and private 
landowners as the fire-use team managed the fire could only happen 
because of years of working together on wildland fire suppression, 
building trust and understanding for improved overall fire management.
Federal Excess Personal Property: Transfer for Fire Fighting
    In addition to the issues I have already discussed, state forestry 
agencies face one critical problem which requires your help. For years, 
state forestry organizations have made excellent use of the Federal 
Excess Property Disposal Program, managed by the U.S. Forest Service. 
This program has helped both state and local fire agencies to obtain 
equipment and materials that allowed for the development of additional 
wildland fire fighting capabilities that would not have been otherwise 
available. The main thrust of these local fire fighting units and their 
role in the national fire program is their capacity for quick initial 
attack to keep fires small. Without these local units, the nation would 
face significantly more fires that would reach national attention.
    The priority for screening and acquisition of excess property by 
state forestry organizations is constantly being reduced. This leads to 
both less equipment and poorer quality of equipment being available. 
The ``exchange sales'' concept for Federal disposal that is currently 
preferred by the Department of Defense may sound good on the surface, 
but it depletes the availability for vehicles that can go into the fire 
program.
    Many state forestry agencies' aviation programs rely primarily on 
Federal excess aircraft. This is especially true of the helicopter 
programs. Without the ability to obtain Federal excess helicopters, 
many states, including Florida, would have little or no aerial fire 
suppression capability. These are critical to saving structures when 
working urban interface fires.
    In many states, budgets are being sharply reduced, making this a 
critical time to strengthen the ability to utilize Federal excess 
equipment in the wildland fire program and to help keep the loss of 
service to a minimum. To fix this problem, we need language that would 
move the Forest Service/States screening potential higher on the 
priority agency list. This simple change would improve the ability of 
the states to acquire, repair and prepare equipment for use by rural 
fire departments. To maintain this vital program, NASF believes it is 
imperative that the U.S. Forest Service and states maintain eligibility 
to acquire Federal Excess Property for distribution to local fire 
departments.
    This Committee could help by urging your colleagues to adopt 
language in the Defense Appropriations Bill that I have attached at the 
end of my statement.
Fire Assistance to Communities Needs Federal Funding
    Forest communities also need your assistance. Earlier this year 
Congress passed, and the President signed, the 2002 Farm Bill. This new 
law includes a critical program for Community and Private Lands Fire 
Assistance (CPLFA) that was initially funded with $35 million under the 
National Fire Plan in Fiscal Year 2001. It was funded again in Fiscal 
Year 2002 at a reduced level of $ 12.5 million. However, no funding was 
included in the President's budget request for Fiscal Year 2003 
because, at the time, the program was not authorized by Congress.
    Inclusion of the CPLFA in the Forestry Title of the 2002 Farm Bill 
is a significant step forward for community fire protection, but it can 
only help if Congress provides the necessary funding. The Farm Bill 
authorizes funding of $35 million per year from 2002 through 2007 and 
continued funding thereafter in 'such sums as are necessary'. However, 
neither the House nor Senate Fiscal Year 2003 appropriation bills for 
Interior and Related Agencies currently provide this funding.
    The CPLFA in the Farm Bill provides for cooperation between the 
Secretary of Agriculture and State Foresters to: (1) aid in wildfire 
prevention and control; (2) protect communities from wildfire threats; 
(3) enhance the growth and maintenance of trees and forests that 
promote overall forest health, and (4) ensure the continued production 
of all forest resources through the conservation of forest cover on 
watersheds, shelterbelts, and windbreaks. The program would augment 
Federal projects that establish landscape level protection from 
wildfire; expand outreach and education programs to homeowners and 
communities about fire prevention; and establish space around homes and 
property of private landowners that is defensible against wildfires. At 
a time when fire constitutes such a significant threat to communities, 
we must now continue the State-Federal partnership initiated through 
the National Fire Plan and 10-Year Comprehensive Strategy by funding 
the CPLFA. Therefore, I encourage the Chairman and Members of the 
Committee to help secure funding for the CPLFA when the House completes 
it work on the Fiscal Year 2003 Interior Bill.
Conclusion
    The length and severity of the current fire season as it moves 
across the nation urgently demonstrates the need for a collaborative 
approach to dealing with the fire management program. The National 
Association of State Foresters is committed to working as a full 
partner with our Federal counterparts to address and increase our role 
and responsibility for wildland fire on a national level and provide 
assistance where needed.
    The challenges that lie ahead necessitate that the National Fire 
Plan and the 10-Year Comprehensive Strategy must be pulled together and 
addressed with the realization that wildland fire is a National issue 
and crosses boundaries well beyond that of Federal land ownership. On 
behalf of the NASF, I thank you, Chairman McInnis, for your support in 
the establishment of the Wildland Fire Leadership Council and for 
recognizing the need to include states as full partners in the council. 
This council, with representation from the primary Federal agencies 
with wildland fire responsibility and with the addition of Governors, 
the National Association of State Foresters, Counties and Tribes, is a 
step toward achieving a National Total Fire Management Program. The 
council members must remember that while they represent their own 
agencies, they are expected to serve as statesmen and address the 
national problem--not limit their consideration to issues within or 
adjacent to their agencies boundaries.
    The definition of Wildland/Urban Interface must be based on a set 
of conditions that exist on or near forestlands nation-wide, regardless 
of landownership. The concept that you are not at risk unless you are 
adjacent to Federal lands is counterproductive and only adds to the 
complexity for those states trying to mitigate the wildland fire 
problem where there is little Federal land.
    We must strive to strengthen the state and local fire departments' 
ability to obtain and utilize Federal Excess property. This is the 
backbone of the fire program for many of the small rural volunteer fire 
departments. Without Federal Excess Property vehicles, the volunteer 
firefighters across the country would have no vehicles in the 
department and thus no fire department. I would urge you to consider 
making this program a priority for the U.S. Forest Service and support 
language that would raise the screening level for state forestry 
agencies. This will strengthen both the state and local fire department 
programs.
    It is critical that funding be secured for Community and Private 
Lands Fire Assistance. The state and local volunteer fire departments 
understand the importance of having funding available to improve 
protection capabilities and expand and promote outreach to the 
communities we protect. The mitigation work and education needed to 
improve fire tolerant design in residential developments is essential 
in the future if we are going to reintroduce fire into our forest and 
maintain the forest in a healthy condition while protecting our 
citizens.
    An investment in strengthening the response capabilities of state 
and local agencies not only improves the wildland fire effort but 
strengthens the first response capabilities for other emergencies. In 
most cases, these agencies are called to respond to emergencies such as 
hurricanes, tornadoes, floods, oil spills, domestic disturbances, etc. 
You receive a multiplier effect on the protection you are providing the 
citizens and communities of the nation when you help build the 
capabilities of the state and local agencies.
    The National Association of State Foresters realizes that a healthy 
forest condition is the primary key to reducing the wildland fire 
problem. The return of fire to fire-adapted ecosystems in a safe and 
prudent manner will reduce the threat of unwanted wildland fire 
intrusion into the wildland urban interface. We realize this is not 
possible every where and that even under the best vegetative management 
programs when the conditions become right for extreme fire behavior, 
there will be fires that reach catastrophic proportion. The best that 
we can do is to maintain a balance that makes those instances an 
exception rather than the norm, as it seems to be with the conditions 
of the Nation's forest today. Even under such conditions, however, I 
should point out that the National Fire Plan has already achieved 
success in providing better initial attack capabilities (through 
funding and firefighting training) this year than we have had in years 
past.
    Thank you for this opportunity to testify on this extremely 
important subject. I will be happy to entertain any questions you may 
have.
Attachment
    (a) Transfer Authorized. (1) Not withstanding any other provision 
of law and subject to subsection (b), the Secretary of Defense may 
transfer to the USDA Forest Service personal property of the Department 
of Defense including aircraft and aircraft parts, that the Secretary 
determines is
        a. LSuitable for use by the Forest Service for use in the 
        Federal Excess Personal Property program for rural and wildland 
        fire-fighting; and
        b. LExcess to the needs of the Department of Defense.
    (b) Conditions for Transfer. The Secretary of Defense may transfer 
personal property under this section only if
        a. LThe property is drawn from existing stocks of the 
        Department of Defense;
        b. LThe recipient accepts the property on an as-is, where-is 
        basis;
        c. LThe transfer is made without the expenditure of any funds 
        available to the Department of Defense for the procurement of 
        defense equipment; and
        d. LAll costs incurred subsequent to the transfer of the 
        property are borne or reimbursed by the recipient.
    (c) Consideration. Subject to subsection (b)(4), the Secretary may 
transfer personal property under this section without charge to the 
recipient agency.
                                 ______
                                 
    [The photograph supplied by Mr. Long follows:] 
    [GRAPHIC] [TIFF OMITTED] T0616.004
    
    Mr. Tancredo. Let me go back to Dr. Bonnicksen for a moment 
and have you help us understand a little bit about the 
difference between the criteria established for a prescribed 
burn in a forest and/or any sort of mechanical treatment.
    When is it appropriate to use one as opposed to the other?
    Dr. Bonnicksen. Most of our forests are actually beyond the 
condition where you can just put a prescribed burning in to the 
forest without prior treatment. This problem started 150 years 
ago, so with so many layers and the canopy and so much, 40, 
sometimes 200 tons of fuel on the ground in logs, dead trees 
and other things, you just don't put a fire through there.
    In fact, any fire that you would put through that would 
kill a tree more than about three inches in diameter is likely 
to be uncontrollable. So, you need mechanical or hand thinning 
in most cases before you can use prescribed fire.
    That means that really, and that is one of the reasons I 
had a calculation as high as I did, I assumed that most of the 
forest would have to be pre-treated and then burned in the 
initial phase of restoration.
    Mr. Tancredo. Why would you have to burn after pre-
treating? I mean, if you are coming in and working at it 
mechanically, why wouldn't you just finish it that way?
    Dr. Bonnicksen. Well, it depends a lot on your goals. For 
one thing, prescribed fire can reduce some of the remaining 
fuels, for example, the litter and duff that accumulates that 
you can't remove with mechanical means.
    But it also, from an ecological point of view can stimulate 
the growth of fire-adapted plants that are part of that forest 
and which could support a variety of wildlife as well. So, it 
does play an ecological role.
    The problem is that I seriously doubt that we will ever 
again be able to use prescribed fire on a scale that would be 
necessary to actually sustain our forests in a relatively fire-
resistant condition.
    If you look at the history and all the journals of the 
explorers and settlers, you will find that they almost 
universally talk about the pall of smoke that hung over the 
mountains. You couldn't see the top of the mountains. You 
couldn't see the valley below. You were always in smoke. In 
some cases, it was actually driving people a little nuts when 
they were out there in your log cabins.
    Even the Blue Mountains in Oregon are named the Blue 
Mountains because of the haze of smoke that sat over them all 
summer long, historically. I don't see that ever happening 
again. If we prescribe fire, use it on the 4.9 million acres a 
year we would have to use it on to sustain a fire-resistant 
forest, the whole West would be in a pall of smoke for three to 
4 months out of the year.
    I don't see that as happening. So, we are going to have to 
find an alternative. The only real alternative in most cases is 
going to be hand and mechanical thinning. If you pay the kind 
of money required to do that, we won't do it. We have to fight 
a war. We have to take care of our senior citizens, which I am 
becoming one, rapidly. We just don't have $60 billion to do the 
initial treatment and $30 billion every 15 years afterward to 
do the maintenance treatments.
    If we don't get help from the private sector, and we can't 
get that help if they don't make a profit.
    Mr. Tancredo. Mr. Hubbard, hearing what we have just heard 
about the efficacy of prescribed burn as opposed to mechanical 
treatment and that as time goes on we will use prescribed burn 
less and less as a treatment for the land or a management tool, 
then what happens, I guess? Should we not be concerned?
    I guess we go back to the issue of the appeals process. But 
when you consider that prescribed burns are almost always done 
in the categorical exclusion area, I mean they are excluded 
from the opportunity to have someone appeal, then the numbers 
become evenmore important when you talk about the number of 
appeals that have been filed because they are really on the 
mechanical part.
    If we are now looking at the mechanical treatment as being 
the best way to do it, considering what Dr. Bonnicksen has just 
said, I mean, where does that leave us? Do you share my 
concern, I suppose I should say, about this issue of appeals?
    Mr. Hayworth. Of course, yes, I share your concern. We do 
have some agreement that between land managers and between 
environmental interests that the interface deserves attention.
    The argument continues to be what is the interface, how far 
out into the wildland do you go? What kind of treatment are you 
proposing? Does it involve any commercial activity? There are a 
number of questions that we don't have resolution to. I suggest 
that we find a way, a mechanism and approach, separate from the 
process we use with NEPA that brings us to some common ground 
locally.
    Without that, I think those challenges have to use the 
mechanisms that are available to them, which is NEPA appeals 
litigation and that takes too much time. There is more of a 
sense of urgency in the interface. We are going to have to find 
a way of doing it. I am not proposing rewriting the laws, but I 
am proposing finding some local solutions that we can come to 
terms with.
    Mr. Tancredo. Thank you. I am glad to see my colleague from 
Colorado, Mr. Udall, has returned. Your earlier comment about 
getting up there to look at how the Hayman Fire, in particular 
reacted at those places where there have been controlled burns, 
the Polhemus Burn, I think, someone referred to earlier, was 
used as a buffer.
    You can actually, and perhaps you have done this, but I had 
the opportunity several weeks before the Hayman Fire erupted, I 
had the opportunity to go up to the High Meadows Fire and see 
exactly what happened.
    It is dramatic. It is amazing to me. If there is anyone out 
there who really wonders about whether or not treatment can 
actually control the process of a fire, control the spread of a 
fire, they should go there. Because it is almost like a line 
was been driven right down. I think it was thinning activity on 
one side and where that High Meadows Fire came up to it, came 
down out of the trees and turned for about another 20 yards and 
was out. It was just amazing how clear that was to see.
    So, that just said to me, there is a way to manage this 
forest. We really can do something about these horrendous 
fires. It is disheartening to think that we have had such a 
difficult time trying to actually get those efforts under way.
    Mr. Inslee.
    Mr. Inslee. Thank you. Mr. Hubbard, I appreciate your 
comments about how dry the forest is in your State. As I 
understand it, it is like 100-year levels as far as 100 year 
lows. That's what I have heard. Is that about right?
    Mr. Hubbard. That's correct.
    Mr. Inslee. As far as your planning, you know the White 
House just issued a report about global warming about 3 weeks 
ago now. That report concluded that the western United States 
is going to have more frequent and more prolonged and more 
severe droughts in the near future as a result of global 
warming. Is that something you are planning on? Is that 
something you think we should plan on in our planning process?
    Mr. Hubbard. Yes, absolutely. The Governor of Colorado 
called a special session this week to deal with fire, among 
other things, fire and drought, because we do anticipate this 
problem. Regardless of what the snow pack is or the amount of 
precipitation, we still have a forest that is standing there 
dry that won't take up more moisture.
    So, the drought tends to increase the frequency of 
ignition. Then the forest, in its dryness and its density, 
takes over the fire behavior. So, we expect to be fighting 
large fire in the west for the foreseeable future and we are 
going to have to deal with that.
    In the National Fire Plan, I suggested that there wasn't 
enough balance in the appropriation and I still believe that. 
But what I would ask Congress is to see if there are ways of 
increasing the appropriation because you don't want to take 
away from the firefighting preparedness, because we know we are 
going to be fighting fire.
    Mr. Inslee. I want to ask you about the Hayman Fire. What I 
have been told on the Hayman Fire, the perimeters of this fire 
are this brown line. This blue little crosshatched area here, 
just a couple of little patches right here, are the areas where 
there was an appeal filed for a proposed project by the Forest 
Service.
    I am told that the fire started in the South and generally 
worked up to the North. Have I got that right so far?
    Mr. Hubbard. Yes.
    Mr. Inslee. And I am told that of the area that is burned, 
only about 2 percent of the total area that is burned were in 
areas that potentially could have been subject to treatment, 
but for an appeal.
    From those facts, can we pretty much conclude--and let me 
tell you, there is kind of a debate going on in the public--
some people argue that the reason Colorado is on fire this year 
is because there were a couple of appeals filed on a couple of 
proposed treatment plans.
    Others argue that, look this was an explosive situation 
because of the lack of humidity. We have had enormous fires 
which overwhelm by a factor of almost 100 the area that was 
subject to potential treatment and that the predominant reason 
that we have had these fires are huge drought, abundant fuel, 
98 percent of which we wouldn't have got to even if no one had 
ever filed a single appeal in the United States.
    What is your thinking on that assessment of the cause of 
the Hayman Fire?
    Mr. Hubbard. Several factors. First, I would advocate that 
strategic treatments do affect fire behavior and allow us to 
deal with fires in a more effective manner. Hopefully, if those 
treatments are in the right place in the landscape, we will 
catch fires before they become big.
    If they are in the right place on the landscape, we will 
keep the fires out of subdivisions.
    Now, whether these treatments were in the right place of 
whether they affected the behavior of the fire, if they had 
been in place, is hard to say. I know that the prescribed burn 
did affect the behavior of the fire and did enormous good in 
protecting further spread of the fire and protecting life and 
property.
    The trick is, we know we have a forest that is ready to 
burn. So, where and how do we do the treatment?
    Mr. Inslee. Right, and on that prescribed burn, there was 
no appeal on that prescribed burn, is that right?
    Mr. Hubbard. That's correct.
    Mr. Inslee. Well, on this fire, I just want to make sure I 
understand. This thing had burned for miles and miles and miles 
before it even got to some particular area up here where there 
was an appeal, is that right? This was on the northern rim of 
the fire.
    Mr. Hubbard. Yes, that is right.
    Mr. Inslee. Mr. Pearson, the tenor I get from your 
testimony is that things are going pretty well in your neck of 
the woods as far as fuel reduction programs. The community 
accepts what the Forest Service has been proposing by and 
large.
    Yet, in other areas, in fact, you made reference in your 
written testimony to the Ward Lakes Fuel Reduction Project 
which combined a Light on the Lands Fuel Reduction effort 
around the boundary of extensively developed and fire-prone 
private lands with the Skinned Horse Project, an old 
Shelterwood timber sale and road building proposal that the 
GMUG hearings twice withdrawn from consideration after public 
opposition.
    I just wonder if you can elaborate why you think in your 
neck of the woods these fuel reduction programs are going 
through without appeals with public consensus and where other 
areas of the community has not accepted them?
    Mr. Pearson. Down on the San Juan, the San Juan has done a 
really excellent job of reaching out to the community and has 
created focus groups actually in each of the main communities 
on our forest, the area around Pegosa Springs, Durango and 
Cortez. They have involved the chiefs of the local fire 
departments which are frequently all volunteer fire 
departments, home owners associations, the Forest Service and 
other interested members of the community.
    They have really worked through the process to involve 
everybody who potentially has an interest to figure out what is 
the best use of the limited resources that are available. They 
have come to the conclusion that spending that money around 
subdivisions and towns is the way to go.
    The next forest north of us is the Grand Mesa Uncompadre 
Gunnison. That is a mouthful, so that is why we call it the 
GMUG. Up there, there was a timber sale that had been proposed 
a number of years that had been stymied a couple of times on 
the top of the Grand Mesa.
    That has now been intermingled with a fuels reduction 
project. The Grand Mesa is probably one of the wettest places 
in the State. It's densely pocketed with lakes. Much of this 
timber sale was proposed in old growth Spruce that was 
surrounded by lakes in very wet marshy areas. I don't think 
anyone would really characterize that as reducing fire danger.
    There are some cabins and sort of resorts along the highway 
in some places and they had a fuels reduction project proposed 
to thin out some of the trees within a couple of hundred feet 
next to those structures, which I think everyone feels is 
entirely appropriate. But mingling those two, you know, cutting 
old growth Spruce trees surrounded by lakes and wet marshy 
areas is not going to inspire a lot of confidence in the public 
that that is really a fire reduction project.
    Mr. Inslee. If I may make one comment, Mr. Chair, you know, 
your comment gives me a lot of hope. We could have a vigorous 
fuels reduction in this country that can do a lot of good for 
people if we can get the Forest Service to understand the 
priorities of making sure No. 1 we protect property and No. 2, 
that we have real fuel reduction programs rather than these 
disincentives or these disguised incentives for commercial 
timber.
    I hope that we can work with all of you to devise a system 
that can actually do that. Thank you for your travel. I 
appreciate all your testimony.
    Mr. Tancredo. Thank you, Mr. Inslee.
    The question about the Polhemus burn not being appealed, 
well, of course, it was burned, categorical exclusion can't 
appeal, right? So, naturally there was no appeal there. But 
there are problems nonetheless with trying to get that done, 
even a controlled burn.
    If I am not mistaken, that particular burn was either 
postponed, there was some problem, I remember, with the State 
Department of Health and air quality issues. It is indeed 
ironic that--what was that? Was that about 8,000 acres, Jim? An 
8,000 acre controlled burn, the smoke from that is considered 
to count against the air quality standard in the State of 
Colorado and therefore it is programmatic in getting it done. 
You have to wait until all the conditions are right and it is 
postponed and postponed.
    But the smoke from a 150,000-acre fire started in this case 
by man, doesn't count. Is that correct?
    Mr. Hubbard. That's correct. We land managers scratch our 
heads once in a while about the rules we live with. But we live 
with them. Dr. Bonnicksen is right. The problem with Bohemus is 
for that size of burn and that kind of a place and that type of 
timber, it took a long time. It took a month or more to achieve 
that burn.
    You can't put smoke in the air that long without smoking in 
community and getting the problems that go with that. So, that 
type of activity is going to be limited in the future.
    Mr. Tancredo. Mr. Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman. I neglected 
earlier to ask for unanimous consent to include my opening 
statement in the record.
    Mr. Tancredo. I am sorry, we can't accommodate you.
    Mr. Mark Udall. I knew you would be a tough taskmaster here 
today.
    Mr. Tancredo. Of course, without objection.
    [The prepared statement of Mr. Mark Udall follows:]

  Statement of The Honorable Mark Udall, a Representative in Congress 
                      from the State of New Mexico

    Mr. Chairman, I appreciate your scheduling this hearing today.
    For more than two years, I have been saying that there is an urgent 
need for the Forest Service and other land managers to work to reduce 
the risks to our communities from catastrophic wildfires. Along with 
our colleague from Colorado Springs, Representative Hefley, I have 
introduced legislation to speed up those efforts. And I have joined you 
in sponsoring other legislation to improve the government's ability to 
respond to the fire emergency that now confronts Colorado and other 
states.
    I looked forward to this hearing because I thought it would be a 
valuable opportunity to learn how things are going, not only in terms 
of the immediate situation but also with respect to efforts to lessen 
the chances that future fires will again endanger so many lives and 
homes.
    However, I am concerned that instead the hearing will focus on 
finger-pointing and charges that one group or another has placed our 
forests and communities at risk. As I have said before, I think the 
time, energy and resources spent on the ``blame game'' could be better 
used to build understanding--among the public and in the agencies--and 
support for properly-focused steps to reduce the threats to our 
communities.
    We already know a lot. We know that a century-long policy of 
fighting every fire has yielded too many small trees and too-thick 
underbrush, making forests tinder boxes. We know that recurrent periods 
of drought in arid States like Colorado make the danger worse. And we 
know that as more people choose to live among our fire-prone forests, 
the threat to lives and property is ever more acute.
    We also know what we need to do. We need to thin out the small-
diameter trees and the underbrush, using controlled fires as well as 
chainsaws and other tools. Homeowners need to help by trimming trees, 
keeping firewood away from buildings, providing access for fire trucks, 
and using fire-resistant building materials. Our local governments need 
to require or at least encourage these ``defensible space'' practices.
    I have consistently supported such efforts. But experience shows 
that unless we can get people involved, have full consideration of all 
points of view, and build consensus, progress can and will be slowed by 
disagreements--that's the real ``paralysis'' threat. So, I think we 
should stop finger-pointing and start building support for action to 
reduce the risks to our communities and to start restoring forests 
ecosystems.
    That's why I have urged the Forest Service to convene an impartial, 
broad-based panel to review the Hayman fire, examine how it behaved, 
and to try to develop a consensus about what it can teach us. I think 
this could help build a consensus and reduce conflicts--and so speed up 
progress.
    Also, right now, we need to get our priorities straight. The danger 
of forest fires is widespread, but the risks to life and property vary 
from area to area. We need to focus on the areas where those risks are 
greatest--the ``red zones,'' where homes and developments adjoin or are 
intermingled with fire-prone forests, and where fuel-reduction projects 
are most likely to have broad public support. There are more than 6 
million ``red zone'' acres in Colorado alone. Treating them and similar 
areas elsewhere will take decades and million of dollars--we can't 
afford to waste time and money with projects in other areas, especially 
if the result is increased controversy and litigation.
    I think we also should try to involve private enterprise. Fire 
protection must not become an excuse for excessive cutting, but a 
carefully-designed fuel-reduction program could involve making economic 
use of small trees and brush removed from the forests. That would be 
better than letting this material go to waste. We shouldn't subsidize 
uneconomic mills, but we may be able to develop markets for some of it, 
for example to supply biomass refineries that could make fuels and 
other products that now come from coal, oil, and natural gas. That 
holds the promise of enabling us to reduce fire risks, promote economic 
opportunities, and enhance energy security all at the same time.
    I hope that this hearing will be a chance for us to find ways to 
move forward together, and not an exercise in escalating conflicts.
                                 ______
                                 
    Mr. Mark Udall. I do look forward to viewing some of these 
landscapes with my colleague, Mr. Tancredo. We had an 
opportunity to tour the Walker Ranch area west of Boulder where 
a fire occurred, a small fire, thankfully, but nonetheless, a 
significant fire I think two summers ago.
    There had been, as I know, Jim, treatments in that area and 
you can see the dramatic difference in how the fire acted.
    Let me, if I could, direct a couple of questions to my good 
friend, Jim Hubbard, from the State of Colorado. It is great to 
see you here.
    Over the last couple of years you have been very generous 
in providing me with the benefit of your expertise and 
especially when I worked with Mr. Hefley to develop our 
original bill to expedite the removal of fuels from the Red 
Zones. As we did that, we really tried to emphasize the 
importance of consultation, getting people involved, working to 
build this consensus that we need to reduce conflicts and then 
make sure those resources go to the ground to get the work 
done.
    Do you still feel like that is a good way to proceed?
    Mr. Hubbard. Absolutely. The San Juan is a good example of 
why.
    Mr. Mark Udall. Great. That is going to continue to be the 
instrument I am going to play. I am going to continue to push 
that we find this common ground because I think there is a lot 
of common ground Federally we just look to the future and not 
look so much to pointing fingers.
    The original bill that I mentioned and Congressman Hefley 
and I worked on had provisions to protect roadless areas and 
limit the size of trees that would be cut in the fuel reduction 
projects. I remember that you might have felt that those 
restrictions weren't absolutely necessary. You still thought 
the bill would help reduce the most urgent risks to communities 
in our State's Red Zone.
    Do you still believe that it would be an important piece of 
putting the puzzle together?
    Mr. Hubbard. Anything we can do is going to be useful 
because we have six million acres in Colorado at high risk. So, 
I will take what acres I can get. But I would recommend that we 
work out those differences within a local setting. There are 
reasons for making different decisions and that we take those 
into account in that local decision.
    Mr. Mark Udall. Let me move to the urban wildland 
interface. I now see where some people call it the UWI. I don't 
know if I can get that out without stumbling over it. But the 
Red Zones, the urban wildland interface, it seems to mean 
different things to different people. In Colorado I think we 
have a pretty clear idea of where those are and we have a 
definition that works for us.
    I think we referenced in the Udall-Hefley bill, those Red 
Zones, and tried to provide a definition. Isn't it true that 
most, if not all the Hayman Fire was in the Red Zone?
    Mr. Hubbard. Yes.
    Mr. Mark Udall. I think that that suggests we need to 
continue to have this discussion about where we ought to target 
these efforts. The Polhemus burn was an example of a strategic 
activity that perhaps helped to bring that fire down and helped 
to reduce what was still a pretty large and catastrophic fire.
    Mr. Hubbard. Representative Udall, one of the issues in 
defining the interface, as you have run into, is that some 
believe that it is just the individual property ownership. Some 
believe that it doesn't go beyond the subdivision. Some believe 
that if we are in the wildland that is experimental and some 
believe if we get into the roadless area we shouldn't even be 
considering it.
    Hayman is a good example. You do have to look at the 
landscape context. The Red Zone that protects those 
subdivisions that we evacuated in that immediate vicinity is 
important, but you can't stop a Hayman just with a fuel break 
between that kind of a fire and the subdivision. So, we do have 
to look at that context. And you are right. Our Red Zone 
definition goes out into that area and now we have to debate 
with people about how far, what kind of practices? Where do we 
do that and come to some terms of agreement.
    Mr. Mark Udall. Mr. Pearson, thank you for making the long 
trip from southwestern Colorado. I am please to hear at least 
we are getting a little bit of monsoon rain down your way. 
Hopefully, it will continue throughout the rest of the summer. 
Not too much, particularly when it comes to intensity because 
we have erosion problems that we face.
    I have read your testimony with great interest. I want to 
thank you for the time you put into it. I know the 5 minutes 
restricted you to the point where you didn't express the points 
you made in the Hayman fire section. If you would like to speak 
to that briefly, I would appreciate it because I think you make 
some good points in your testimony.
    Mr. Pearson. Thank you, Mr. Udall. I think Mr. Inslee 
touched on some of those in pointing out on the map that much 
of the area in conflict was on the northern perimeter of the 
fire and it took quite a while to ever get near there.
    There were a couple of appeals on that project. It is 
interesting that the second round of appeals were by both the 
conservation community and the timber industry as well. It got 
back to this issue of diameter limits. But I think much of that 
project, there were 17,000 acres altogether that were proposed 
for treatment and 12,000 acres were not all that controversial 
and were approved relatively quickly and actually are starting 
to be implemented this spring before the fire occurred.
    The remaining 5,000 acres occurred in roadless areas where 
there was some concern and controversy. I think ultimately that 
was worked out in the last couple of months. But as the map 
indicated, even if those projects had been undertaken, it 
really wouldn't have had much effect on the course of that 
fire, we don't think.
    Mr. Mark Udall. Mr. Chairman, if you might indulge me for 
just one more comment, because I think you would agree with me. 
Actually, I want to make two comments. I would point out that 
this is so important to Congressman Tancredo and myself and 
those of us in Colorado that this day we normally have a 
Colorado delegation lunch where we do work on Colorado's 
concerns and issues when it comes to Congress.
    Sometimes we even have a good meal as well, don't we? But 
Tom and I felt it was crucial to hear the rest of the panel and 
to hear your points of view. So, we are still here.
    Dr. Bonnicksen, I really appreciate your testimony. I am 
going to reread what you put together because your experience 
is wide ranging and you bring a historical perspective. You say 
it is a cynical ploy to just work in the narrowly defined Red 
Zones, but that certainly isn't motivating me.
    I think I am looking toward some policy options that would 
reduce the danger and respond to people who are worried about 
property and life being threatened.
    I think this is why Congressman Tancredo would agree with 
me that we would be cynical to say, boy, we want to get into 
those Red Zones and we are going to ignore the force in between 
the Red Zones of the more general ecosystems.
    So, if you will work with us in that regard and continue to 
provide us with your expertise, it will be very, very helpful.
    I wanted to make that point, though. Thank you.
    Mr. Tancredo. Thank you, Mr. Udall. What do we do? I know 
we want to say we want to concentrate the time on the Red Zones 
and the wildland urban interface, and therefore stay away from 
the roadless areas. But what happens when they are one and the 
same or at least connected, which I think has been the case 
recently?
    Mr. Hubbard. That is where the difficult comes in. I don't 
think with our current process that we are going to get past 
that point. I think the roadless areas equal an automatic 
appeal. Sometimes we can work that out and sometimes we can't. 
But in all cases it costs us valuable time in implementing 
practices.
    We are not treating the entire landscape. We are treating 
strategic pieces of it. That is why I keep saying I think it is 
really important for us to sit down locally and agree on what 
our guidelines are going to be, what is going to be acceptable 
and focus the money we have where it will buy us the most.
    Mr. Tancredo. Dr. Bonnicksen, what about you? What do you 
think about staying out of the roadless areas.
    Dr. Bonnicksen. Well, as a forest historian and as a person 
who has dedicated his life to understanding the history of our 
forests and trying to recreate to the extent we can those 
forests, because they were magnificent historically, staying 
out of the roadless areas would be a disaster, an ecological 
disaster.
    The reason for that is that the forests have already 
changed after a century and a half. They are no longer anything 
like they were historically. We can, of course, use mechanical, 
fire and other means to get them back to something like they 
were historically.
    But if we cannot touch them, we are going to get forests 
like nothing you have seen so far other than in Arizona and the 
Hayman fire. We are talking about gigantic fires that strip the 
landscape of the very trees that we seem to care the most 
about.
    For example, in the 2000 fire we lost almost 200,000 acres 
of Ponderosa Pine. I am talking about magnificent forests that 
were patchy and diverse historically. The very first time, in 
fact, that the Ponderosa Pine was described there in the Bitter 
Root by Lewis and Clark. But we lost that.
    We now have no chance whatsoever of restoring it, at least 
not for the next 200 years, and we would have to start now. 
Well, that's what is going to happen in all of these roadless 
areas. We are going to lose what trees are there, the 
opportunity to restore them and in place of that, we are going 
to get these huge blackened landscapes created by monster 
fires, which will inevitably, of course, fill in with young 
trees and create new monster fires that are even bigger as 
those fires spread to the adjacent areas.
    So, we are just setting ourselves up for not only a 
continuing disaster of mammoth proportions with fire, but we 
are also losing the very forests we say we care the most about.
    Mr. Tancredo. Ms. Morgan, did you want to comment?
    Ms. Morgan. If I may.
    Mr. Tancredo. Sure.
    Ms. Morgan. I would disagree and in fact have experienced 
just a couple of months ago of sampling in areas in roadless 
and wilderness areas that had burned as many as five to seven 
times since 1943. Those forests were not only structurally 
diverse, they were remarkably beautiful with many old and large 
trees, snags. The birds like them. There were scattered clumps 
of small trees and they were relatively open and much more 
heterogeneous.
    I think Dr. Bonnicksen makes a point that a lot of our 
forests outside of wilderness areas have become much more 
uniform. But right now our most common fire management decision 
in wilderness areas and in roadless areas is to suppress fires.
    In many cases we could save ourselves some money, put fewer 
people at risk and accomplish ecological objectives without 
being as--if we were not quite as aggressive in fire 
suppression in those areas.
    Then, I would like to add that to ignore the broad 
consensus that we have is a mistake. I think there is broad 
consensus for doing the treatments in the urban interface. That 
is pretty straightforward. I think there is some agreement on 
how to restore Ponderosa Pine forests, but I think there is 
much less on how to restore forests to that resiliency he is 
calling for outside, in other forests than the Ponderosa Pine 
forests outside of the urban interface.
    Thank you.
    Mr. Mark Udall. Mr. Chairman, may I respond just briefly, 
since she was responding to me?
    Mr. Tancredo. OK. We will let Mr. Udall wrap this up.
    Mr. Mark Udall. I think the key point was that she 
mentioned that the forest she sampled in had been burned five 
to seven times. That means in fact that it had been disturbed 
frequently enough to retain at least some of its original 
diversity.
    That is not the case for most of our forests. They have not 
been burned five to seven times over the last century. They 
have not been burned at all.
    Mr. Tancredo. Mr. Udall?
    Mr. Mark Udall. Mr. Chairman, a short request and if I can 
make a comment.
    I would like to ask unanimous consent that all Members be 
able to submit questions for the record.
    Mr. Tancredo. Without objection.
    Mr. Tancredo. You know, this is a kind of unique experience 
we have here. We can stay here all day if we want to. It is 
certainly very interesting to me. The staff probably wouldn't 
vote for that.
    Mr. Mark Udall. I think this is very helpful and 
interesting because this is substantive at this point, I am 
finding. The need to make political points isn't quite so 
obvious right now.
    I appreciate what Dr. Morgan, Dr. Bonnicksen and Mr. 
Hubbard are saying about the different kinds of forests. I 
think we have more educational work to do. We have talked a lot 
today about ponderosa forests with Douglas Fir and the draws 
and the moist areas.
    But we have not really talked, although there are some 
similarities, about pinon, juniper forests. We have not talked 
about the high alpine forests. Mr. Pearson talked about how 
aspen acts when it is subject to fire. We have not talked about 
the Yellowstone experiences with lodgepole.
    So, we do have some more work to do to educate ourselves 
and educate the public about the different characteristics of 
these different kinds of forests and the similarities.
    Dr. Morgan, you also talked about some of the results we 
are seeing in some wilderness areas where fire hasn't been 
suppressed to the extent that it has in other areas and that 
they seem in some cases to be healthier than similar kinds of 
forests that may have been impacted by human activity. I think 
we could do more with the science in understanding all of these 
dynamics.
    Dr. Bonnicksen also talked about roadless areas. Again, we 
have different kinds of roadless areas. We have some that are 
ponderosa in nature. Some are pinon and juniper and others that 
are high alpine roadless areas. So, we have to be cognizant of 
these different characteristics.
    The roadless areas, as they are now being managed, of 
course don't disallow all activity. What they do disallow is 
road building. There are ways that I think we can look at these 
various roadless areas and how we manage them within the 
confines of that policy.
    Dr. Bonnicksen, again, I want to learn more about the 
history. The native people certainly didn't have vehicles when 
they were managing these forests and the way they were managing 
them, at least the way they were interacting with them.
    So, I think there are some ways to be more creative in how 
we respond to the fuel load increases in these roadless areas.
    I thank the Chairman--that sounds pretty good, Tom--I thank 
the Chairman for his indulgence. Again, just one last appeal, 
as I said in my opening statement. The West is full of conflict 
and tragedy resulting from that conflict in its past.
    But also, we have a rich history of collaboration and 
achievement. I think we are big enough in the west and we have 
enough vision to come together to create a healthier set of 
forests and therefore communities that are healthier in turn
    Thank you, Mr. Chairman.
    Mr. Tancredo. Thank you, Mr. Udall.
    Especially let me thank our panel for their indulgence here 
and time. You know, there has been a consistent drumbeat of 
concerns expressed by certainly members of the Committee and 
many other folks around the country about the calamities that 
are occurring in our forests, certainly the Colorado and 
Arizona experience being the most traumatic.
    Nowhere have I heard anyone suggest that it is the result 
of some conspiracy by the environmentalists that these fires 
started. That has certainly never been my position or thought 
and I have never heard anybody say anything like that.
    It is a result of the status of the forests today. There is 
no two ways about it. The drought, the load, the suppression 
efforts of 100 years. We all recognize that that is why we are 
having fires.
    Our concern is what we can do to make them less severe, 
less harmful. I do not believe that these are ``healthy'' 
fires, the ones we are looking at here. When we look at what 
happens when Mr. Hubbard explains this hydrophobic phenomena, I 
just cannot consider that to be a healthy way of forest 
management or forest growth.
    So, our task is to figure out how to deal with it. No. 1, 
can we? Is it possible for a society to actually manage their 
forests in a way so as to minimize these catastrophic fires and 
go back to a historical forest setting like the one Dr. 
Bonnicksen explained?
    Is that possible for us and if so, how do we achieve it? 
Now that I have this great power here called a gavel, I could 
not leave this hearing without suggesting that I would 
certainly hope that every member of this panel especially, and 
my colleague, Mr. Udall, look carefully at the concept of 
charter forests as one way, just one way, of doing just that.
    So, thank you all very much. The members may have 
additional questions for the witnesses and we ask that you 
please respond to these in writing. The hearing record will be 
held open for 10 days for these responses.
    If there is no further business coming before the 
Committee, we stand adjourned.
    [Whereupon, at 12:54 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Flake follows:]

  Statement of The Honorable Jeff Flake, a Representative in Congress 
                       from the State of Arizona

    There is good reason for us to be concerned about the recent fires 
in Arizona and other western states. The inability to contain those 
fires was aggravated by the actions of extreme environmentalists those 
of the solar-powered chain saw type.
    In the past several years, these environmental extremists have 
prevented the U.S. Forest Service from implementing forest management 
plans. There have been many frivolous lawsuits, and a widespread 
concert of effort that has massively depleted the agency's budget. In 
the Southwestern region alone (Arizona and New Mexico) 15 decisions to 
implement mechanical fuel treatment methods were appealable. Of those 
15, 11 were actually appealed (73%) and two were litigated. This 
reduction in financial ability equates to a reduction in measures that 
would prevent fires.
    The Forest Service and other agencies have been unable to thin out 
forests to prevent what inevitably happened this year a chaotic and 
powerful inferno fire that got out of control because of bad policy. 
The bad policy consisted of allowing these groups to help prevent the 
removal of small trees and underbrush that lay all over the ground, 
serving as fuel for the inferno that we all just witnessed a short time 
ago in Arizona.
    What is the solution? The environmental groups tell us to thin the 
woods only so far in the interface, the area barely beyond the reach of 
human homes and no farther. One group in Arizona even suggested this 
should only be done with solar powered chain saws. I know my way around 
a hardware store pretty well. I've never seen the solar powered 
chainsaw section.
    The solution is to halt ridiculous law suits, get rid of claims 
that are based on false science, and allow the Forest Service and other 
agencies, both state and Federal, to fulfill their functions of 
thinning out the crown- fire-producing fuels of the forests.
    As we speak Arizona has a small fire burning on the Coronado 
National Forest. Although it is completely contained, yesterday's fire 
report indicated 85 fire starts in the Southwest region and over 46,000 
lightning strikes occurred throughout the Southwest Area during the 
past 24-hour period. Our fire season has only begun.
    Given that the fire season has only begun, the Forest Service and 
the Committee need to think long-term, plan for the future and rethink 
how current policy should be changed to prevent these frivolous delays.
                                 ______
                                 
    [The prepared statement of Mr. Herger follows:]

 Statement of The Honorable Wally Herger, a Representative in Congress 
                      from the State of California

    As gravely predicted by experts, large-scale catastrophic fires are 
currently widespread throughout several western states. Deservedly so, 
Arizona and Colorado have received much of the media attention, but 
other areas face similar threats. In California, we are bracing for 
what could be another devastating season.
    Over 3 million acres of our forests have burned so far this year, 
almost two and a half times the 10-year average and approximately 1 
million acres more than at this time in 2000, which was at the time the 
worst fire season in several decades. Hundreds of homes have been 
destroyed. People have fled their communities. This could be the most 
costly and destructive fire season for which records have been kept.
    Chasing some myopic and foolish vision of forests that are free of 
all human activity and intervention, the radical environmentalists have 
utilized lawsuits, threats of lawsuits, appeals, procedural delays and 
political pressure to smother good forest management. Several weeks 
ago, Forest Service Chief Dale Bosworth testified to the Congress that 
his agency is being strangled by what he called ``analysis paralysis.'' 
I was stunned and alarmed to learn that the Forest Service now spends 
up to 40% of its time in ``planning and assessment,'' in other words 
complying with layer upon layer of environmental process to defend 
against the inevitable legal challenge. It is a game of dither, delay 
and stall. Regrettably, as it currently stands, the rules of the game 
our inflexible environmental laws are in the radical environmentalists' 
favor.
    As a result, our forests are incredibly unhealthy and literally 
choking from an unnatural accumulation of forest fuels. Some areas are 
up to 10 times denser than historically. Now we are seeing fires of 
catastrophic size and intensity, which in many cases simply cannot be 
controlled, leaving charred forests that may not recover for a century. 
Despite spin to the contrary, these fires are not natural. They are not 
inevitable. They are not environmentally healthy. They are a very 
serious threat to public health and safety.
    We're not going to prevent forest fires, but by implementing a fire 
protection and fuels reduction strategy, setting aggressive goals, and 
giving our local land managers the tools and flexibility they need, we 
can reduce the size and intensity of these fires, and give our 
firefighters a fighting chance. This isn't just theory. The successes 
of thinning are being proved in practice. There are a number of 
examples in the area of Northern California that I represent.
    Such a plan already exists in Northern California and is ripe for 
aggressive implementation. In 1998 Congress overwhelmingly supported 
full-scale implementation of the Quincy Library Group plan, a locally 
developed, bipartisan forest health project conceived by a small local 
group in Quincy, California.
    This diverse group of environmentalists, ranchers, timber industry 
representatives, labor, local officials and concerned citizens united 
behind the common goal of combating the growing threat of wildfire. 
They developed a plan that is based on good science, politically 
balanced and fiscally responsible. Through an environmentally sensitive 
strategy of fuel breaks and thinning across the pilot project 
landscape, their project will significantly reduce the threat of 
catastrophic forest fires with a 3 dollar return for every 1 dollar 
invested, while injecting an astounding $2.1 billion into rural 
economies. Their plan is good for people. It is good for forests. And 
it is good government. Moreover, it is proof positive that there are 
cost-effective solutions out there that can bridge traditional partisan 
differences on forestry issues.
    But this, like many other fuel reduction projects, has been 
scuttled. Far from being real world problem solvers, the radical 
environmentalists have opposed these kinds of viable projects. Their 
alternative is the ``controlled burn,'' even though the sheer density 
of our forests, past escapes at Lewiston and Los Alamos, and stringent 
air quality limits make that solution impractical, if not impossible, 
under current conditions.
    The Clinton Administration did everything it could to make the QLG 
project fail. It continues to languish from a number of poison pills 
that were placed in the Record of Decision. Now THIS Administration has 
the opportunity and the resources to make it happen and to use it as a 
model for aggressively treating at-risk forests across the West. But it 
must demonstrate the leadership that will be necessary.
    The scope and seriousness of this danger demand immediate attention 
to the root of the problem. It's time that the Administration, in the 
name of protecting public health and safety, work with Congress to 
remove the tools of obstructionism by expediting, streamlining even 
temporarily waiving the well-intentioned but paralyzing laws, 
regulations and processes that are hindering management and enabling 
the radical environmentalists. These groups will be effectively placed 
in the corner while Congress and the Bush Administration get to the 
serious work of protecting the public.
                                 ______
                                 

    [A letter submitted for the record by Barry T. Hill, 
Director, Natural Resources and Environment, U.S. General 
Accounting Office, follows:] 
[GRAPHIC] [TIFF OMITTED] T0616.001

[GRAPHIC] [TIFF OMITTED] T0616.002


    [A map of Hayman Fire, Pike National Forest, submitted for 
the record follows:]
[GRAPHIC] [TIFF OMITTED] T0616.003

                                   - 

</pre></body></html>
